<html>
<title> - U.S. ANTI-DRUG INTERDICTION EFFORTS AND THE WESTERN HEMISPHERE DRUG ELIMINATION ACT</title>
<body><pre>[Senate Hearing 105-844]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-844


 
  U.S. ANTI-DRUG INTERDICTION EFFORTS AND THE WESTERN HEMISPHERE DRUG 
                            ELIMINATION ACT

=======================================================================

                             JOINT HEARING

                               BEFORE THE

            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL

                                AND THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 1998

                               __________

  Printed for the use of the Senate Caucus on International Narcotics 
         Control and the Senate Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE                    
51-088                     WASHINGTON : 1998




            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL

                    CHARLES GRASSLEY, Iowa, Chairman

ALFONSE D'AMATO, New York            JOSEPH R. BIDEN, Jr., Delaware
FRANK MURKOWSKI, Alaska              BOB GRAHAM, Florida
JEFFREY SESSIONS, Alabama            DIANE FEINSTEIN, California

                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman

RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas

                     James W. Nance, Staff Director

                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Banks, Samuel H., Deputy Commissioner, United States Customs 
  Service........................................................    36
Brownfield, William R., Deputy Assistant Secretary of State for 
  International Narcotics and Law Enforcement Affairs............    34
Crane, Dr. Barry D., Project Leader, Institute for Defense 
  Analyses.......................................................    54
Dewine, Hon. Mike, U.S. Senator from Ohio........................     5
Hinton, Henry L., Assistant Comptroller General, National 
  Security and International Affairs Division, General Accounting 
  Office.........................................................    52
Loy, Admiral James M., Commandant, U.S. Coast Guard..............    37
Marshall, Donnie R., Acting Deputy Administrator, Drug 
  Enforcement Administration, Department of Justice..............    32
McCaffrey, Barry R., Director, Office of National Drug Control 
  Policy.........................................................    13
Rivolo, Dr. A. Rex, Principal Analyst, Institute for Defense 
  Analyses.......................................................    55
Sheridan, Brian E., Principal Deputy Assistant Secretary of 
  Defense for Special Operations and Low-Intensity Conflict......    31

                                Appendix

Prepared Statements

    Prepared Statement of Samuel H. Banks........................    61
    Prepared Statement of William R. Brownfield..................    62
    Prepared Statement of Senator Alfonse D'Amato................    67
    Prepared Statement of Senator Bob Graham.....................    68
    Prepared Statement of Henry L. Hinton, Jr....................    69
    Prepared Statement of Admiral James M. Loy, USCG.............    75
    Prepared Statement of Donnie R. Marshall.....................    77
    Prepared Statement of Gen. Barry R. McCaffrey................    84
    Prepared Statement of Brian E. Sheridan......................    89

Responses to Additional Questions Submitted for the Record by 
  Members of the Committee and the Task Force

    Questions Submitted to Samuel H. Banks.......................    92
    Questions Submitted to William R. Brownfield.................    95
    Questions Submitted to Dr. Barry D. Crane....................    97
    Questions Submitted to Henry L. Hinton, Jr...................    99
    Questions Submitted to Admiral James M. Loy, USCG............   100
    Questions Submitted to Donnie R. Marshall....................   101
    Questions Submitted to the Honorable Barry McCaffrey.........   107
    Questions Submitted to Dr. A. Rex Rivolo.....................   112
    Questions Submitted to Brian E. Sheridan.....................   113

                                 (iii)




  U.S. ANTI-DRUG INTERDICTION EFFORTS AND THE WESTERN HEMISPHERE DRUG 
                            ELIMINATION ACT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 1998

                                       U.S. Senate,
Committee on Foreign Relations and Caucus on International 
                                         Narcotics Control,
                                                    Washington, DC.
    The committee and the caucus met, pursuant to notice, at 
9:38 a.m., in room SH-216, Hart Senate Office Building, Hon. 
Paul Coverdell and Charles E. Grassley presiding. Present: 
Senators Coverdell, Biden, Feinstein, and Graham. Also Present: 
Senators Grassley and DeWine.
    Senator Coverdell. We will come to order.
    This morning we are holding a joint hearing of the Senate 
Foreign Relations Committee and the Senate Caucus on 
International Narcotics Control to consider the topic of United 
States drug interdiction efforts and the Western Hemisphere 
Drug Elimination Act, S. 2341.
    We are most pleased to have Chairman Grassley, of the 
Senate Drug Caucus, and Senator Biden, ranking, of the Drug 
Caucus and the Senate Foreign Relations Committee, here as 
well. We are joined by the original cosponsor of S. 2341, 
Senator DeWine.
    General, welcome. You will constitute the first panel. I 
would hope that you might try to limit your opening remarks to 
the 10- to 15-minute range, so that we would have good 
interplay with Senate members here.
    I have to say that recent data is disturbing again, and I 
think underscores, General, on behalf of the Congress and the 
administration, a requirement for accelerated and, as you have 
heard me say before, bolder steps than we are currently 
envisioning. And on August 21, 1998, the National Household 
Survey on Drug Abuse, conducted by the Substance Abuse and 
Mental Health Administration, was released. That report 
indicates that in 1997, 13.9 million Americans 12 and over 
cited themselves as current users of illicit drugs, a 7-percent 
increase from 1996.
    Now, last year, we thought that the fever broke. We saw a 
tick down. And I was encouraged by that. But I think, on 
review, we have not seen what we thought might be happening.
    Current illicit drug use among our Nation's youth continues 
to increase at an alarming rate. From 1992 to 1997, youth, aged 
12 to 17, using illegal drugs has more than doubled, 120 
percent, with a 27-percent increase from 1996 to 1997 alone.
    On September 1, 1998, a Back to School 1998, CASAT survey 
conducted by the National Center on Addiction and Substance 
Abuse, at Columbia University, was released. A majority, 51 
percent, of high school students say the drug problem is 
getting worse. I can confirm that on my visits, school to 
school to school, our youngsters know what is happening, and 
they will repeat this over and over, that drugs are their 
number one problem, and there is not even a close second.
    For the fourth straight year, both middle and high school 
students say that drugs are their biggest concern. More than 
three-quarters of high school teens report that drugs are used, 
sold and kept at their schools, an increase of 72 percent, in 
1996, to 78 percent, in 1998. And I saw one figure that 
recently suggested a 73-percent increase in 12- to 13-year-
olds. Which, General, you and I have both agreed, the target 
audience of this narcotic structure is younger and younger, 
more vulnerable, more vulnerable, more dangerous, more long-
lasting.
    So I welcome Senator DeWine's work and the work of the Drug 
Caucus in any attempt to accelerate, accelerate. I have been 
saying, General, I do not think we should recognize the drug 
war in 24 months. It needs refitting.
    I was in three schools this past week. Everybody knows the 
dilemma of a gray-hair talking to 500 middle school or high 
school students. They are your toughest audience in the world. 
And you wait for the fidgeting, a giggle here and there. Rapt 
silence. Rapt silence in the discussion of this crisis. They 
are attentive. They are alert.
    This is the beginning of a school year, and it is a very 
special time for all of us to be communicating to these 
students. And with that, I turn to the chairman of the Senate 
Drug Caucus, the distinguished Senator from Iowa, Chuck 
Grassley.
    Senator Grassley. Of course, I want to thank the Co-
Chairman, and, more important, members of the minority party, 
in my case, working very closely with Senator Biden, through 
the Caucus, but also members of the Foreign Relations 
Committee, for their time and their attention to a very 
important issue. And also we ought to thank our witnesses for 
appearing before us today to discuss our efforts to control the 
flow of drugs into our country.
    In 1996, when Senator Dole was still leader of the Senate, 
he asked Senator Hatch and me to work with the House to review 
our drug policy efforts. The subsequent report, called Setting 
the Course on National Drug Strategy, noted then serious 
declines in commitments by the administration to support 
interdiction programs. I am not going to rehash those 
shortfalls here.
    I want to note, however, that they were serious, and 
undermined this country's interdiction program in both source 
countries and in transit zones. That report also noted that as 
a consequence of a decline in sustained attention to our 
counterdrug efforts, teenage drug use was on the rise, after 
years of decline. Now, that report came out 2 years ago.
    Since then, the level of teenage use has continued to grow. 
More kids are using drugs. Kids are starting to use drugs at an 
earlier age. And more kids are seeing no harm--that is the 
message--no harm to using drugs.
    In addition, we have seen growing efforts across the 
country, promoting drug legalization. So we have a very muddled 
message. We see the results in teenage drug use. I know there 
are efforts of publicity, both in the private sector and the 
public sector to counteract that. And obviously we hope that 
that has a very positive impact. But as it now stands, our 
efforts are not having desired effects.
    There is good news, but there is also bad news. The bad 
news is that our policies and strategies are not working. The 
good news is that we have lots of them. And in my view, it is 
not sufficient just to have plans; we need to ensure that those 
plans are working. Our goal is not to have plans, but to have 
results.
    At the moment, we seem to be a day late and a dollar short. 
What this hearing is all about is what we can do to change 
that. So I welcome General McCaffrey before us, as well as our 
other witnesses. And obviously I thank General McCaffrey for 
his recent endorsement of a resolution that Senator Kyl and I 
have been working on. We will be presenting this resolution 
later, and I ask for support. And I want to thank General 
McCaffrey for his support on the issue.
    I also look forward to what he and other witnesses have to 
say about next steps in our interdiction effort and what they 
should be. I think that we all share the same goal: lowering 
drug use and stopping the flow of illegal drugs. Unfortunately, 
we are not meeting that goal. We need more and we need better.
    And I yield the floor.
    Senator Coverdell. Thank you, Mr. Chairman.
    I now turn to our ranking chair, Senator Biden, of 
Delaware.
    Senator Biden. Thank you very much, Mr. Chairman.
    General, I want the record to know, just as two colonels do 
not make a general, having the hat of ranking member on two 
committees does not make a chairman, unfortunately. As you all 
know, ranking is a euphemism for having no power. But I have an 
opinion, and I have had one for a long time in this area. 
[Laughter.]
    Senator Biden. Let me commend Senator Grassley and Senator 
Coverdell for their efforts here. There is a lot of 
partisanship up here on the Hill the last 4 years--an equal 
measure on both sides. But in my working with Senator Coverdell 
and Senator Grassley and Senator DeWine, I have not found that 
to be the case.
    I suspect we have, and I think I know you well, General, 
and you and I have worked very, very, closely since you have 
had this job, on drug issues. I know, I would think it is fair 
to say, we have some disagreements with the solutions that they 
have offered. But my criticism, to the extent than any occurs, 
does not relate to my in any way suggesting that I doubt the 
motives or the sincerity of the effort any more than I think 
they doubt mine.
    The focus in today's hearing, as I understand it, is 
legislation to authorize an additional $2.6 billion over the 
next 3 fiscal years for interdiction and international 
programs. At the outset, let me state my agreement with the 
principle underlying the legislation. That is, more 
interdiction resources are needed.
    Interdiction is not the solution, in my view, to the drug 
war, but it is a very key element to any comprehensive 
approach. And wisely deployed, as you did when you were running 
the show on this issue at the Defense Department, General--at 
least the Defense part of it--wisely deployed, interdiction 
assets can increase the cost to traffickers by increasing their 
uncertainty. And increasing the cost to the traffickers can, 
over time--over time--increase the price of drugs on the 
street, thereby reducing their availability.
    But let us not deceive ourselves about this or any other 
legislation which boldly proclaims itself as the Western 
Hemisphere Drug Elimination Act. Let us not deceive ourselves 
that this is going to lead us to that promised land.
    First, the bill--as I said, extremely well intended as we 
all know because of the way this place works--has come too late 
to have any meaningful effect on fiscal year 1999 
appropriations. Nearly all such legislation has moved through 
the Senate. I guess the hope is the House had not done much of 
anything on appropriations, so maybe we are going to have a 
special session or something afterwards and we have a shot. But 
in the normal course of events, it is passed us already.
    And though Senator DeWine has succeeded in adding some 
interdiction funding to various parts of the budget, for which 
I commend him, I would note that just 2 weeks ago, the U.S. 
Senate reduced funding for the State Department's International 
Narcotics Program by $53 million from the President's request, 
and $8 million below last year's level.
    Second, the bill makes an easy choice--more resources for 
interdiction--without making the hard decisions about where the 
funding will be found. As my colleagues well know, and you have 
come to painfully understand, General, under our so-called 
Balanced Budget Act, everything around here is a zero-sum game. 
More money for one account means less money for another 
account, period. More money for one account means less money 
for another account. So it is nice for us to say we are going 
to spend this money; we have got to figure where we are going 
to cut the money.
    The only way to circumvent the budget rules we have imposed 
upon ourselves is to declare, quote, an emergency, and thus 
exempt the spending from the budget caps we are locked into. I 
am ready to discuss that. Because, as the chairman says, there 
is an emergency out there. We all talk in terms of emergency. 
If this is a real emergency, let us go to the floor, say it is 
an emergency, raise the caps, stop fooling around, and get the 
money.
    Third, I find it bizarre that we would be suggesting that 
the Narcotics Bureau be removed from the State Department, and 
its International Programs transferred to the DEA. Now, look, 
as you know, General, I have been the most outspoken critic of 
the State Department over its refusal to put drugs in the same 
category of other serious international bilateral and 
multilateral relations that we have. The bill does not make 
that decision, I acknowledge, but it asks you to study the 
recommendations of whether such a transfer should occur.
    As I said, I have always questioned the State Department's 
commitment to the drug war under Republican and Democratic 
Presidents. They would much rather carry treaties in their 
briefcases than talk about that dirty business of drugs. And I 
understand that. But the Department has made some progress, and 
we have to recognize it.
    If, however, the responsibility for international narcotics 
programs is removed from the State Department, we will no 
longer have any questions--the State Department will have no 
commitment to the drug effort--mark my words. If we take it out 
of State, they will go exactly where they want--have no part of 
this deal--none--zero. If divested of the operational and 
fiscal responsibility for fighting drugs, the State Department, 
I think, will marginalize the issue still further in this 
administration and any future administration, leading, in my 
view, to a severe de-emphasis of the issue in our foreign 
policy.
    I do not think this is a result we should look for, we 
should welcome, and we should try to avoid. So I look forward 
to hearing from you, General, and our other witnesses today, 
and state again for the record that I think you are doing one 
heck of a job. To be honest with you, I do not think the 
President is speaking out enough, and I do not think the 
Republican-controlled Congress has come up with the bucks 
enough. You have got a tough job. But you are doing the job 
well. And I hope you will be, as you always have been, candid 
with us.
    And I hope you will listen to the advice of your father and 
not the advice of anyone else, and be straight-up with us about 
whether or not you think what these guys are suggesting makes 
sense. Maybe it does. But if you do not think it does, you are 
no longer a General. You are in the midst of a political--a 
political--maelstrom here. I know you like--you are always 
telling me, Joe, I do not want to say that because that will 
sound partisan. Say what you think. If you do not like what 
they say, tell them. If you like what they say, tell them. If 
you do not like what I say, tell me.
    Senator Coverdell. He has in the past.
    Senator Biden. I know. I am just saying this guy, you have 
taken the uniform off, get the mind set out of there. This is a 
political battleground as well as a substantive one. Say what 
you think. And I am looking forward to hearing it. And, again, 
I thank my colleagues for, as usual, putting up with me.
    Thank you.
    Senator Coverdell. Thank you, Mr. Ranking. [Laughter.]
    Senator Biden. And likely to be for some time to come.
    Senator Coverdell. I now want to turn to the principal 
author of S. 2341 for an opening statement, Senator DeWine.

     STATEMENT OF HON. MIKE DEWINE, U.S. SENATOR FROM OHIO

    Senator DeWine. Senator Coverdell, thank you very much.
    Let me just say to the General that I am sure he will take 
Senator Biden's words to heart. I do not know if the advice is 
really needed, though. He has always been rather candid with 
me. He has already told me the things he does not like about 
the bill. So I am sure we are going to hear that today.
    General, welcome. We are glad you are here today. We 
appreciate it very much.
    Mr. Chairman, let me thank you and let me thank Senator 
Grassley for holding this hearing. As you have pointed out, we 
introduced a bill in July, along with Senator Graham. A 
companion bill was introduced in the House of Representatives 
by Bill McCollum and Dennis Hastert. This is a bill that is 
aimed at, we believe, restoring the balance in our anti-drug 
efforts. This bill would authorize an additional $2.6 billion 
investment in international counternarcotics efforts over the 
next 3 years.
    This investment would allow for a more aggressive and 
effective eradication, interdiction and crop substitution 
strategy. Bluntly, our objective is to dramatically reduce the 
amount of drugs coming into the United States, drive up the 
price of drugs, and therefore reduce drug consumption. It is as 
simple as that. On a larger scale, this legislation takes a 
major step toward correcting what we believe is an imbalance--
an imbalance in our overall drug control strategy, an imbalance 
that has emerged over the course of the last decade.
    I have stated to you, General, and I have stated it to my 
colleagues and I have stated it long before I came to the U.S. 
Senate, that I believe we have to have a balanced anti-drug 
strategy. And I have felt that some of the debates that we get 
into about the importance of one versus the other is not very 
helpful. I think you have to have a domestic law enforcement 
component. I think you have to have a good treatment component. 
I think you have to have education or prevention. And I think 
you have to have an international component. It has to be a 
balanced drug strategy.
    And really, what this hearing is going to be about, in 
part, is a discussion, I think, about whether or not we do have 
that balanced strategy. I happen to think that it is not. I 
think the General has done a very good job. I do not believe, 
however, that this administration has given him the resources 
and that we have given him the resources to deal with the 
international component of this.
    What this bill is intended to do is to bring back that 
balance, a balance that historically we have had between the 
three major components of an anti-drug effort. A balanced drug 
control plan is one that makes a strong commitment in three 
areas. One, demand reduction, such as prevention, treatment and 
education; two, domestic law enforcement; and, three, 
international eradication and interdiction efforts.
    While this administration has demonstrated support for 
demand reduction and domestic law enforcement components, I 
believe it has done so at the expense of our international 
eradication and interdiction components. As a result, our 
overall anti-drug strategy has become imbalanced over time.
    Now, this was not always the case. In 1987--just to cite a 
few figures--in 1987, a $4.79 billion drug control budget was 
divided as follows: 29 percent for demand reduction programs; 
38 percent for domestic law enforcement; and 33 percent for 
international eradication and interdiction efforts. This 
balanced approach achieved real success. From 1988 to 1991, 
total drug use was down 13 percent. Cocaine use dropped by 35 
percent; marijuana use dropped by 16 percent.
    This balanced drug approach ended, I believe, in 1993. Of 
the $13.3 billion national drug control budget for 1995, 35 
percent was allocated for demand reduction; 53 percent for law 
enforcement; but only 12 percent for international and 
interdiction efforts.
    The fiscal year 1999 budget request is over $17 billion. 
And of that amount, 34 percent is allocated for demand 
reduction; 52 percent for law enforcement; but only 14 percent 
for international and interdiction efforts.
    Mr. Chairman, although this administration points to 
funding increases for interdiction efforts over the last 2 to 3 
years, it is still far short of the kind of commitment we were 
making at the beginning of this decade. The result of this 
imbalance has been, I believe, devastating: a decline in 
cocaine seizures, a decline in the price of cocaine, and an 
increase in drug use.
    From 1992 through 1997, the proportion of young people, 
aged 12 to 17, using illegal drugs has more than doubled, 120 
percent, and has increased 27 percent just from 1996 to 1997.
    For children 12 to 17, first-time heroin use, which could 
be fatal, surged a whopping--just a huge 875 percent, from 1991 
to 1996. The overall number of past-month heroin users 
increased 378 percent, from 1993 through 1997.
    Now, these negative trends have sent shock waves throughout 
our communities, our schools and our homes. More children are 
using drugs. I find it especially disturbing that drug 
traffickers are seeking to increase their sales by targeting 
children age 10 through 12. This has to stop. It is a clear and 
imminent danger to the very heart of our society.
    This is why this bill, I believe, is so timely. We need to 
dedicate more resources for international efforts, to restore a 
balanced drug control strategy. Now, let me make it very clear 
again that I strongly support our continued commitment in 
demand reduction and law enforcement programs. The General has 
done a great job in pursuing these efforts. In the end, 
reducing demand is the only real way to permanently end illegal 
drug use. And I think we all know that. However, this will not 
happen overnight. And I think we all know that, as well.
    Further, effective interdiction can influence demand 
through changes in price. Effective interdiction makes it far 
more difficult for drug lords to bring drugs to our Nation and 
make drugs far more costly to buy. That is why we need a 
comprehensive counterdrug strategy, a drug strategy that 
addresses all components of this problem.
    Our legislation is intended to be a first step to restore a 
balanced drug control strategy, by renewing our commitment to 
international eradication and interdiction efforts. Today, over 
75 of our colleagues, House and Senate, Republicans and 
Democrats, are cosponsors of this bill. The House is scheduled 
to vote on this bill later today. It is our hope that the 
Senate will vote on our bill shortly, as well.
    It is also our hope that if Congress approves this 
legislation, the President will sign it into law. Since the 
introduction of this bill, I have encouraged, time and time 
again, I have encouraged the administration, members of the 
administration, to provide us feedback, comments or changes 
that they feel are necessary. This is a work in progress.
    A number of ideas that we have received have been 
incorporated into the House version, to be voted on today. And 
I am looking forward to hearing more ideas today from our 
distinguished panel.
    In conclusion, Mr. Chairman, some can quibble over the 
percentage goals as outlined in this legislation, and we can 
talk about that. We may quibble about the manner in which it 
was drafted or the strategic concepts. But this type of 
discussion, frankly, is not a good use for our time and 
energies today. What really matters are the resources. Are we 
willing to put the resources into this fight?
    We are fortunate today to have representatives from the 
Drug Enforcement Administration, Customs, Coast Guard, State 
and Departments, and the Drug Czar's Office. They are the 
experts. They are the ones who are on the front lines. And we 
respect that.
    This is a great opportunity. This is a great opportunity to 
hear from them and get their perspectives on how we can restore 
a balanced drug control strategy. If there is quibbling about 
how this bill spends the money, then we would like to hear how 
they would think it should be spent. That is what we should be 
talking about today.
    What I want to know and what really matters is whether or 
not the investments we provide in this bill, if we provided 
them, can in fact make a difference. And let me just point out 
that the Senate has already--has already--put in an additional 
$143 million for fiscal year 1999 in the appropriations process 
as a direct result of this bill: $39.5 million for the Coast 
Guard, $15 million additional for Customs, $8 million 
additional for crop substitution development programs, and $8 
million for Defense. And we hope to continue that.
    So this bill has already begun to have some effect. And I 
think it should be looked at as we look at any authorization 
bill. And that is as a framework for discussion, a framework to 
outline what our goal should be, and how we intend, in this 
case, to restore more balance to our anti-drug efforts.
    I believe that the strong bipartisan support for this 
legislation should demonstrate to the administration that 
Congress is prepared to do more to reduce the flow of drugs. I 
think the votes in the Senate already in the appropriations 
bills would indicate that. I think we have a great opportunity 
before us today to reclaim the initiative in this effort.
    Let us be frank. In our anti-drug effort, Congress provides 
the funds. We try to provide some of the vision, but the 
agencies represented here are the ones who are on the front 
lines every day and the ones who have to carry it out. The 
dedicated men and women at these agencies are working to keep 
drugs out of the hands of our children. And all we are trying 
to do is to give them the additional resources to make that 
work, make it do a better job, and to get that actual job done.
    This bill is just the first step in our efforts to work 
with the agencies represented here today. I expect to do more 
in the future. In the past, when given the right amount of 
resources, they have made a difference. They have contributed 
to a winning effort to reduce drug abuse. I think it is time to 
call on them again to make a difference.
    Let me again thank you, Mr. Chairman, for allowing me to be 
here, not as a member of the committee, and I appreciate it 
very much.
    Senator Coverdell. Thank you, Senator.
    I would now turn to the Senator from California, Senator 
Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. And 
let me thank you for holding this hearing. I think you know it 
has been a great pleasure for me to work with you on these 
matters over the last few years.
    Mr. Chairman, I, as a mayor, as a county supervisor for a 
long time, have dealt with the problem of drugs. I listened 
carefully to the comments of the distinguished Senator from 
Ohio. And I must say I agree with him, and I agree with what he 
is trying to do. I have one point of departure. I think we 
would all agree that the demand problem in the United States is 
big and, to an extent, out of control. But demand is usually 
met on the local level. The Federal Government can provide 
money, but local jurisdictions carry out the prevention and the 
demand reduction programs.
    The major job, as I see it, of the Federal Government, in 
addition to providing those funds for demand, we do not run a 
demand program, we interdict. We have a precise Federal role. 
And it is to stop drugs in large quantities coming into this 
country. Local jurisdictions cannot do that. I could not do 
that in the Port of San Francisco, when I was Mayor. I cannot 
stop drugs from coming in through the Port of Los Angeles or 
over the border, in the southern part of our State.
    And this is where we are failing in drug interdiction. 
There is no question that ground zero in the interdiction 
effort is the Southwest border of the United States of America. 
And we have 18-wheel trucks, recruiting drivers in Michigan, 
coming in over that border every day, carrying 5 to 7 tons of 
cocaine. Customs today has a mixed mission. NAFTA is underway. 
Programs are pumping trucks across that border, thousands and 
tens of thousands a day and a week.
    As General McCaffrey pointed out in San Diego not too long 
ago, seizures throughout the Southwest region have declined 
precipitously in recent years. Cocaine seizure at points of 
entry in 1997 were half of what they were in 1996. Cocaine 
seizures as a result of investigations in 1997 were about one-
quarter of what they were in 1995. Cocaine seizures at 
checkpoints and traffic stops, in 1997, were less than half of 
what they were in 1995.
    So as a Senator for California, when I look at this area, I 
say our effort in interdicting drugs, the prime responsibility 
of the Federal Government, is an abject failure. You cannot 
have an arrest in New York City that involves 4 tons of cocaine 
and believe that cocaine came in, in backpacks, across the 
border. It did not. It is coming in, in big rigs.
    One investigation discovered the smuggling of at least 1.5 
tons of cocaine a month in crates of fruits and vegetables from 
Mexico. At Otay Mesa Cargo Inspection Facility, there have been 
24 seizures within the last year of drugs found concealed in 
trucks and trailers, including those of two line-release 
participants.
    I draw two conclusions. One, the mixed mission of Customs 
has been a failure. Customs cannot be both a trade expediter 
and an enforcer of the law, and fully enforce that law, I 
believe. The mixed mission of Customs is not working. And, 
second, the General has begun to propose, and I think he is on 
the right track, a new unified drug interdiction effort. And I 
want to offer my efforts to work with him to develop that and 
to support that.
    I am absolutely convinced, after nearly 6 years now since I 
have been in the U.S. Senate, of hammering about these 
programs, that they are not working. In 1996, I asked the GAO 
to take a look at Customs. And I have just received four 
reports, one dated April 1998, one dated July 1998 and two 
dated August 1998. And I want to quickly--these are really more 
anecdotal, but I want to quickly just indicate what these 
reports have found.
    The GAO studies find major problems with Customs' anti-drug 
enforcement programs. And these weaknesses include internal 
control weaknesses in the program known as line-release. Now, 
this program was intended to identify and separate low-risk 
shipments from those with higher smuggling risk. These flaws at 
all three of the border entry crossing points--that is Laredo, 
Texas; Nogales, Arizona, and Otay Mesa, California--these flaws 
in all three of these are seriously jeopardizing the security 
of the program.
    These reports point out incomplete documentation of 
screening and review of applicants at Otay Mesa, as well as 
Nogales. They point out lost or misplaced line-release 
application files and background checklists that serve as 
support for approving applications. Otay Mesa officials were 
unable to locate 15 of 46 background checklists in the line-
release program.
    Now, if you cannot find the background checklist and you 
have approved these companies and their trucks just to pour 
across the border without being checked, that is a big problem.
    No recertification requirement for companies already 
approved for the line-release program is present to ensure that 
the participants remain a low risk for drug smuggling.
    The GAO also found that Customs officials themselves have 
little concept of something that they have evolved called the 
three-tier targets concept. That was implemented in 1992. And 
it was supposed to help identify low- and high-risk shipments 
so inspectors could focus their attention on suspect shipments. 
The GAO found that this program does not work. And it does not 
work because there is insufficient information in the Customs 
data base for researching foreign manufacturers.
    Now, what this means is that the reliability of the risk 
designations given by Customs, which range from little risk for 
narcotics smuggling to significant risk for narcotics 
smuggling, are questionable, and therefore unreliable.
    The GAO also found significant internal control problems 
with the Treasury enforcement communications systems, which is 
used to compile what is called lookout data for law enforcement 
purposes, including identification of persons and vehicles 
suspected of drug smuggling. And this system is used by some 20 
Federal agencies--INS, DEA, IRS, and BATF. Customs did not have 
adequate controls over the deletion of records from the system. 
And Customs guidance for the use of the system does not follow 
standards set by the Comptroller-General. And that makes it 
vulnerable to the deletion of data without checks and balances 
by management.
    This is not my view; this is what the GAO is saying.
    Now, what is the bottom line of all of this? The bottom 
line is that cargo shipments are being expedited when in fact 
they should be stopped and searched.
    Now, the increased trade generated by NAFTA, which we all 
support, has resulted in significant expansion of opportunities 
for drug trafficking organizations. This is largely because of 
the excellent cover commercial trade activity provides. Now, 
this is according to a report issued by Operation Alliance, 
which is a federally sponsored drug enforcement coordinating 
agency in El Paso, Texas.
    The Operation Alliance report describes the ways in which 
drug smugglers are exploiting increased trade. And I would like 
to just cite a few examples of how drug traffickers are taking 
advantage of the increased trade generated by NAFTA. 
Traffickers are making extensive use of legitimate systems for 
moving drugs into the United States by becoming thoroughly 
familiar with Customs documents, procedures and processes. And 
all anyone has to do is read the front page of the New York 
Times today to understand how sophisticated they are and how 
difficult it is to even vet law enforcement personnel on the 
other side of the border to be certain that we are not giving 
security information to drug traffickers.
    So the traffickers are making use of legitimate systems for 
moving drugs. They are becoming involved with well-known, 
legitimate trucking firms that would be less likely targets of 
law enforcement security. And some traffickers have even sought 
trade consultants to determine what merchandise moves most 
quickly across the border under NAFTA rules.
    Against this backdrop of traffickers exploiting legitimate 
means of transporting cargo across the border for their own 
illicit smuggling operations, we now have GAO finding this 
disturbing evidence of problems in Customs' drug enforcement 
efforts. And as a matter of fact, General McCaffrey points out 
in his outline, ``Organizing Counterdrug Efforts Along the 
Southwest Border: An Emerging Concept,'' dated August 25th, 
that we still have only three truck scanners in place along the 
border.
    And as he says, traffickers quickly adjust to the 
construction of such devices, and shift drugs elsewhere. They 
watch. They have got spotters. They know when trucks are being 
searched. They know when they are not. They know when the 
scanners are operable. They know when they are not. We are 
dealing with the most sophisticated drug smuggling and 
trafficking efforts at the present time.
    I say all of this to indicate to the General that I think 
we have got to rethink and re-look at what we are doing. And I 
want to support--if you think we should restructure our 
agencies, if you think we should have one unified agency that 
deals with it, I am certainly willing to be supportive and try 
it. I am absolutely convinced that what we are doing today is 
inadequate.
    And sure, we may shut it down in one area, and they are 
smart, and they move to another area, but I make the hypothesis 
that the prime role for the Federal Government is Federal 
enforcement and interdiction. Provide the money to local 
jurisdictions to do the demand programs, the prevention 
programs. No problem with it. As a former mayor, it is 
important; it has got to be done. But our role is to see that 
there are not busts in New York City that have 4 tons of 
cocaine recovered or, in Southern California, where you have 
800 pounds of marijuana or another drug.
    I remember the days when if law enforcement made an arrest 
with a pound of cocaine it was a lot. Now they are talking in 
hundreds of pounds and tons. The street prices of cocaine 
continue to drop. All of this signals to me we need a new 
efforts. And I hope you are here today to present that to us.
    I thank the chair.
    Senator Coverdell. I thank the Senator from California. And 
I would turn to our senior Senator from Florida, Senator 
Graham.
    Senator Graham: Thank you, Mr. Chairman.
    I have a statement that I would like to enter for the 
record. I have just a few comments first.
    The Nation is very fortunate to have General Barry 
McCaffrey in its service. I have personally had the opportunity 
to work with him when he commanded the United States Southern 
Command, and now in his position as Director of the Office of 
Drug Control Policy. He is a uniquely able and dedicated 
person, and I think brings the set of skills that are most 
likely to lead us to the destination that we all seek in terms 
of an effective national policy on drug control.
    Three quick points. One, I believe that we are in a period 
of opportunity now, that there are some positive things that 
have and are occurring that we can take advantage of. I think 
we have, under General McCaffrey, moved toward a more 
effective, aggressive policy. We also have some changes outside 
the United States. One specifically is the change that has just 
occurred in Columbia, with the new President with whom we can 
have some normal relations and, I believe, through those normal 
relations, encourage a renewed partnership in a critical area 
for our success in our drug policy.
    Second is that we need to enhance our capabilities to take 
advantage of this opportunity. And that is the essence of the 
goal of the legislation that Senator DeWine and many others of 
us have introduced and have been supporting components of it 
throughout the appropriations process.
    And, finally, the strategy that is adopted has to be one 
that we are prepared to sustain for a significant period of 
time. We have had in the past a policy that I would call 
chasing the problem. If the problem was in the Caribbean, we 
focused on the Caribbean. If the problem was on the Southwest 
border, we focused on the Southwest border. And the consequence 
of that chasing the problem has been that the people that we 
are trying to defend against are not stupid, and they see where 
the weaknesses are, and they adjust their strategy to our 
vulnerabilities.
    So this, again, is an effort to adopt a policy that we are 
not going to be adding resources in the Caribbean to the 
detriment of our effort on the Southwest border, but rather to 
have a consistent, sustained policy of strength across the 
border of the United States, to protect us to the maximum 
extent possible against the flood of drugs.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Graham appears in the 
appendix on page 68.]
    Senator Coverdell. General, we are going to turn to you in 
just a second.
    These presentations were somewhat longer than I had 
originally anticipated, but I think they were important. It 
underscores a rising interest in the Congress. I think we are 
coming to a period of more boldness. And it is clearly 
bipartisan, which is I know something that you have diligently 
sought to achieve, and I think is eminently expressed in the 
presentations that you have just heard.
    And so, with that, General, echoing others here who have 
commended you for your efforts, I extend to you a hearty 
welcome to the Congress on behalf of these two committees that 
are increasingly focused on this issue, and I would turn to you 
for your testimony.

 STATEMENT OF GENERAL BARRY R. MCCAFFREY, DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    General McCaffrey. Thank you, Mr. Chairman. I truly do 
appreciate the opportunity to come over here and testify on 
this bill.
    It is interesting, as I look at those of you who have come 
to this hearing, I owe every one of you a personal note of 
gratitude for your support over the last 2 and a half years: 
Senator Grassley for his leadership on the Drug-Free 
Communities Act; Senator DeWine, who probably has a broader 
view of the drug issue than most of us, for his involvement as 
a former county prosecutor and on the whole demand side of the 
house; you, Mr. Chairman, for your involvement in the OAS and 
the hemispheric approach; Senator Biden who created much of 
this thinking and has been a source of strength to me; Senator 
Feinstein, I applaud your focus on the Southwest border--and I 
will go on to endorse your remarks and explain what we are 
trying to do to respond to your concerns; and Senator Graham 
for being so aware of what is going on in the Caribbean and 
Latin America and for being supportive of us throughout this 
period.
    I brought some important people with me--and you need to 
know they are here. They have consulted with me, and I depend 
very heavily on their own thinking. Perhaps it would be useful 
for you, Senators, to see them:
    Brigadier General Howard DeWolf, U.S. Air Force, who is the 
Commander of our Joint Interagency Task Force South, in Panama; 
Rear Admiral Ed Barrett, U.S. Coast Guard, Commander of our 
Joint Interagency Task Force East, in Key West; Rear Admiral 
Dave Beltz, U.S. Coast Guard, Commander of Joint Interagency 
Task Force West, in Alameda, looking out toward the Pacific; 
Brigadier General Dorian Anderson, Commander of Joint Task 
Force 6 in El Paso, who coordinates the U.S. armed forces 
support for domestic law enforcement; Mr. Frank Schultz, who is 
here representing the National Defense Intelligence Center; and 
finally and probably most importantly, Mr. Tom Umberg, who is 
my Deputy Director for Supply Reduction.
    These people are available to you for consultations. I will 
keep them for the remainder of the day. We are working with 
them to understand their own evolving concerns--and they are 
certainly available to talk to your staffs or to respond to 
your own interests.
    I have some quick comments. Let me just place some markers 
in front of you, and then perhaps, during the course of 
responding to your own interests, we can develop these ideas. I 
will not go through the documents. It is important, though, for 
me to suggest again that this has gone from a $15.4 billion 
program, involving hundreds of thousands of people, to a $17.1 
billion program, with more than 50 U.S. federal agencies 
involved, in addition to State and local and NGO activity.
    We cannot manage the drug problem with audibles at the line 
of scrimmage. I have had a career of managing people, 
machinery, and dollars. We must have a strategy, a concept. We 
have got to have projected budgets. If we do not do it this 
way, if we do not have a 10-year focus on this problem, we will 
never make progress. There are arguments that some of our 
efforts over the last several decades has not been useful. 
However, we do have a strategy. It is a document that you, by 
law, have asked me to craft. I submit it for your 
consideration. This is the way to evaluate what we are doing--
are we following our strategy or not?
    We have a 5-year budget. It is not very good, but it is our 
first effort. Frank Raines and I got the nine cabinet 
secretaries with major appropriations bills continuing drug-
related funding to express their views for the outyears. It 
will be better when I turn it in this year. I encourage you and 
the news media, with your debate and your focus, to see if our 
budget can be pushed into alignment with our strategy.
    Finally--and Senator Feinstein has been very involved in 
this--we do have performance measures of effectiveness on the 
table. There are 94 of them. Only 39 of them have established 
data bases by which we can grade what we are doing. This year, 
I hope to come down with annual targets for many of the 
performance measures which now exist in 10- and 5-year targets.
    Moving down into the operational level of managing this 
process, there are some important people involved besides the 
departmental secretaries. The Commandant of the Coast Guard is 
our interdiction coordinator. Bob Krainek, and now Jim Loy, 
have done a splendid job with modest assets, to try and bring 
together the thinking and Federal resources upon this problem. 
We also have an interdiction committee, which has been focused 
on the Southwest Border.
    There is a threat analysis detailing what we are trying to 
achieve. In my view, we must not appropriate money or start 
programs unless we can explain to ourselves convincingly that 
they are based on a threat analysis. These are classified 
documents, because we have a first-rate effort now ongoing both 
by the National Drug Intelligence Center, the El Paso 
Intelligence Center, and the CIA operation, CNC, to evaluate in 
a way that makes sense, what the drug threat is. In cocaine, 
heroin, marijuana, metham-
phetamines, and PCP, we are doing that work and trying to 
devise programs.
    We do have, out of this interdiction committee, internal 
documents in which we have looked 5 years out and said, what do 
we need in the way of machinery and assets to construct a more 
effective drug interdiction program? We are trying to build our 
budget to support that plan.
    Finally, the Commandant of the Coast Guard, acting as the 
interdiction coordinator, is putting together the resource 
requirements; the options and the recommendations. So I am 
making the rounds of our government. I have personally met one 
on one with about half of our cabinet secretaries to get their 
fiscal year 2000 budget and their 2000 to 2004 plan to tie into 
what we told you we do in these documents. I want you to 
understand these are not words, these are programs. We are 
trying to develop a sensible way of going about our business.
    Mr. Chairman, I have prepared a written statement and some 
charts, which I would, with your permission, submit for the 
record.
    [The charts referred to by General McCaffrey were not 
available for reproduction in this hearing record.]
    One of the more useful things that will come out of this 
hearing is I think you have encouraged a very intense analysis, 
above and beyond our normal dedication to this subject, about 
the merits of this bill. The process of writing this statement 
and getting it cleared by my colleagues has been very useful.
    Let me show you what is up there on the charts. Tiffany, if 
you will, take down the first one. The next two charts 
demonstrate there is an external drug threat and, by and large, 
we do see the shape of it. We know where the cocaine and heroin 
is produced. Indeed, we probably know more about growing 
regions courtesy of the CIA than we do about heroin abuse in 
Baltimore and why people are using drugs.
    We have the overhead coverage and the HUMINT to have a 
reasonably effective gauge of where people are growing these 
drugs.
    Next chart.
    We have put more resources against this problem, and I will 
just show you a few quick illustrative years. You can see a 41-
percent increase. I have given you a breakout by major 
department of government. I would also underscore that if you 
go back to the 1992 budget, which was a little over $2 billion, 
the interdiction raw dollars are just over $1.8 billion. So we 
are somewhat below where we were.
    We cannot do static analysis of the problem. The bad guys 
moved from the Caribbean and air and sea smuggling into 
Florida, and then started into Mexico. They are capable of 
responding very quickly. We cannot leave the Caribbean 
unguarded. We have a major initiative going on there. However, 
the raw interdiction dollars had to follow the threat.
    This is not to argue that increased interdiction funding is 
not needed, but merely to state that we cannot just say, by 
year, there has been a reduction and therefore we ought to go 
back where we were before.
    Next chart, Tiffany, if you will.
    This one illustrates the INL budget and the general source 
country approach. We are putting significantly more resources 
into it. I am concerned--and I think Senator Biden commented on 
it--the 1999 budget we have in front of the Congress, has been 
cut significantly in one or both houses; this is also true in 
many key areas of our interdiction effort.
    The Coast Guard funding is not as we asked for it. We are 
in danger of imbalancing the U.S. Coast Guard and not giving 
them the flexible organization they need to protect the United 
States. The INL budget has been cut. I do not know what will 
come out of conference, but I just put that in front of you for 
you to consider as you go about the appropriations process.
    Next chart.
    Senator Coverdell. General, is that figure, the one that 
Senator Biden referred to, the $53 million? What is the amount?
    General McCaffrey. I can give you a matrix of the nine 
bills I track and their components.
    Senator Coverdell. OK.
    [The information referred by General McCaffrey to was not 
available at press time.]
    General McCaffrey. Right now it is hard for me to gauge 
where it is all going. In some cases, I am being reassured it 
will get solved in conference and in other cases I am not sure. 
Things like the Coast Guard are particularly sensitive. If we 
drive their fundamental infrastructure into the ground, whether 
we give them money for drug missions is irrelevant, they will 
not be able to do what we ask them to do.
    Now, we have done a lot of work, George Tenet is one of my 
heroes. Tom Constantine and the DIA, who actually owns this 
process, have put together a pretty good analysis of how 
cocaine moves. We are trying to say: let us operate against the 
threat. That is the analysis for the last 6 months and I think 
we are finally getting it where it needs to be.
    Next chart.
    Here is an issue that I am sure will be the subject of 
future hearings. We are involved in a very intense debate in 
the executive branch. We have completed two initial studies, 
one called the Intelligence Architecture Review, which is 
mandated by law by both the House and the Senate intelligence 
committees, for me to explain who collects drug-related 
intelligence and on what automation systems, how is it 
communicated, and what should we do to improve it. We finished 
that study. We are trying to package intelligence so it 
supports the Border Patrol sector commander, the Customs SAC, 
the sheriff, and the police chief. It is great intelligence, 
but it did not link up. We will try and fix that before we 
leave office.
    There are other aspects of this Southwest Border 
Coordination Plan.
    I have submitted an emerging concept paper to many of you. 
There is a reasonably detailed plan, a white paper, that is now 
out to my 14 cabinet colleagues for evaluation. By the end of 
the fall, we owe the President an explanation of how we should 
fix the Southwest Border. It is achievable. We can use 
technology, non-intrusive inspection systems linked 
intelligence, changed manpower, and doctrine to protect the 
American people along the Southwest Border.
    We have got one of the best law enforcement people in the 
country, Ray Kelley, as our Customs Service Chief. To echo 
Senator Feinstein's words, this is an experienced, solid police 
officer. Last year we inspected 911,000 trucks, found 16 with 
cocaine, and found cocaine on one rail car. The magnitude of 
the effort--20,000 brave men and women of the Customs Service 
worldwide--12,000 Federal people on that border, and we found 
cocaine on 16 trucks and one rail car.
    In 1997, we inspected 1.09 million trucks out of the 3.5 
million that crossed the border. We found six trucks and one 
rail car with cocaine. We cannot deter or seize heroin, 
cocaine, and metham-
phetamines out of these 82 million cars, trucks, and rail cars 
that come across that border unless we give the Customs Service 
and the Border Patrol the tools they need to do their job. That 
is where we need congressional focus and resources.
    Finally, to put the bill you are now considering in 
context; a lot of this seems to be aimed at cocaine. It ignores 
the biggest drug threats to America--the pot, booze, and 
cigarettes consumed by American adolescents--which promote 
gateway drug-using behavior. I am on the edge of science when I 
use the term ``gateway,'' but it is clear that 12- to 18-year-
olds that smoke a lot of pot and smoke it earlier, along with 
using alcohol and cigarettes, are at grave risk of compulsive 
drug-using behavior.
    Much of this bill, which I welcome as a vehicle for 
discussion, focuses on cocaine. Less cocaine is being produced 
in Latin America. This is good news. Peruvian cocaine 
production was down 27 percent last year and 40 percent in the 
last 2 years.
    Columbia is a disaster, but for the time in history the 
overall cocaine production actually came down 15 percent, from 
760 metric tons to 650. The source country strategy can work if 
smart cops, sensible alternative economic development programs, 
and good interdiction campaigns are used.
    We are seizing significant quantities of cocaine in the 
transit and arrival zones. In 1997, we seized 85 metric tons. 
That is 60 percent more than in 1996.
    I have got to be careful about that, because if you back 
off and look at it for 10 years, we always seize about the same 
percentage of the crop. Regardless of what we did between 
American law enforcement, the interdiction zone, and the source 
country seizure strategy, we always got about a third of the 
crop. We are up in 1997; 1997 was the third consecutive year of 
increased transit zone seizures. A lot of that we owe to smart 
work by the U.S. Coast Guard, the DEA, the armed forces, and 
JIATF's, specifically JIATF South, in Panama.
    We have continued the success in the first 6 months of 
1998. We seized 54 metric tons in the Mexico corridor, 14 in 
the Caribbean, and 13 in the arrival zone.
    If I may, Mr. Chairman, let me talk about the bill. The 
bill has some good aspects. It is hard for us to disentangle, 
though, what I would respectfully suggest includes an awful lot 
of micro-tactical details that drag with them a $2.6 billion 
tail of specified actions. Some of that detail concerns me.
    First of all, though, the goal of the bill--reduce the flow 
of illegal drugs into the U.S. by 80 percent by the end of 
2001--I would argue is completely unrealistic. You should not 
give me a slogan to use when I pull together the interagency 
group. These are serious people, the Secretary of Defense, the 
JIATF commanders. I would argue that the target is 
unachievable. It is only 3 years away. We would have to 
conceive a strategy, buy equipment, field it, and implement 
operations. We could not do it that quickly. I ask you to not 
set this unachievable target.
    I would also suggest to you that I am nervous, as I go 
through the laundry list of items in the bill and talk to the 
various departments of government; we have got in Federal 
legislation a million bucks of barbed wire for LaPicota Prison, 
in Columbia, and tunnel sensors. Barbed wire is not the problem 
in LaPicota Prison. It is corrupt people running the prison. 
They are out on the weekends, back downtown in Bogota. The 
barbed wire, a couple of million bucks, is not the problem.
    It specifies a base in Puerto Maldonado, Peru. We should 
not specify to our CINC, to our interdiction coordinator, and 
without consultation with a foreign government, where to place 
a foreign-based drug interdiction operation. It specifies two 
mobile x-ray machines for placement along the Chapare Highway, 
in Bolivia. These are $3.5 million machines we need on our 
Southwest Border along these 39 ports of entry. If we put them 
into the Chapare, it would be the most advanced technology 
within a thousand miles of the Chapare. These are backpackers--
ants--that move around these roads, as well as truck travel. I 
would argue that placing those two machines there, which are 
not coordinated in any way with an Andean Ridge strategy, might 
be alleged as a misappropriation of Federal dollars.
    There are some huge dollar items in the bill. There is a 
$400-million buy to bring P-3B domes out of the desert, rebuild 
them, and deploy them into Latin America; to get 10 more P-3B 
Slicks, with a $150 million rebuild, and pull them out of the 
desert. We now have eight total Customs aircraft. That would be 
20 new ones. Where is the air base to support them, the in-
country access, the personnel to man them, and the OPTEMPO in 
the outyears.
    And who says I would spend $2.6 billion in that manner? The 
drugs that are killing kids in Orlando, Florida, come in on 
commercial air. And they come in through Puerto Rico and Haiti 
in cargo vessels. The P-3B will not address that. The drugs 
that are killing kids in California are methamphetamines and 
cocaine crossing the border in 18-wheel trucks and rail cars. 
They are not in light aircraft, flying in through Mexico and 
across the border.
    I do not mean to argue against that program, except insofar 
as to say that it does not fit the intensive work by Admiral 
Loy and his colleagues, acting for me, as the interdiction 
coordinator. I would just ask you to be cautious as we look at 
this bill. I think it is a good vehicle to focus our attention 
on what you believe is perhaps an inadequate energy level on 
the subject. However, I think this would be a bad bill to pass. 
I am worried that it might provoke supplemental appropriations 
that would actually get spent this way. That will cause us 
problems.
    Thank you very much for the opportunity to appear in front 
of your committee, and I look forward to answering your 
questions.
    [The prepared statement of General McCaffrey appears in the 
appendix on page 84.]
    Senator Coverdell. Thank you, General.
    Why don't we limit the questions to 5 minutes, if everyone 
is agreed, and we can get these machines on.
    General, first of all, I appreciate very much your 
testimony. It was enlightening, to some extent comforting, but 
also bothersome, because I do think I hear you saying there is 
a resource deficiency. You are arguing about how to distribute 
that. You do not want your hands tied. Which is not unusual for 
the executive branch.
    You said something that I would like you to elaborate on 
during my brief time--the border. You talked about a million 
vehicles and six trucks and one train car. It sounded to me as 
if you were describing an almost hopeless exercise there--lots 
of resources, lots of money, not a lot of return. And then you 
have also talked about technology. I have heard you talk about 
the technology at one of 39 points of entry and how effective 
it has been.
    Are we, in your judgment, moving the technology--it seems 
to me that technology could be acquired and moved more quickly 
than some elements of the plan. Elaborate on the crisis on that 
border and the numbers that are coming across and the findings 
that are occurring, which suggest the system is not working. 
What can we do to improve this, and more quickly?
    General McCaffrey. We have done a lot of work on 
counterdrug technologies. We have some tremendous studies done 
by the Customs Service in particular, but also by the Border 
Patrol. We now have a white paper and are starting to develop 
the resource implications of it. We have tested some of the 
technology. As you know, we have six in place. We are deploying 
a back-scatter device. Originally, there were only two in 
California. Now we have them in El Paso and others are going 
into other places along the border.
    The situation is not hopeless. In my professional judgment, 
which is buttressed by listening carefully to the professionals 
of the Customs Service, the intelligence services, the Border 
Patrol, and the DEA, if we give the Customs Department non-
intrusive technology and a linked intelligence system, if we 
build selected areas of the border with fencing, lighting, and 
an adequate-sized Border Patrol, whatever that is--for 
discussion purposes, I have said 20,000 people; it was 3,000 
when this administration came into office; it is now 7,000; we 
have 12,000 miles of borders--this is not only a drug issue, we 
need to put in law and order along our border--we can do that.
    Take for example Southern California and El Paso. In El 
Paso, we put in 22 miles of fence, some lights, and a few 
hundred Customs and Border Patrol reinforcements. We put in the 
first of two back-scatter devices. If you look at that 22 
miles, where 60 tons of drugs are seized in the sector, only 
500 pounds are seized, in those 22 miles.
    The Border Patrol, fencing, lighting, and enhancements 
essentially have forced this stuff back into the Customs port 
of entry. Furthermore, 10 years ago, if you got orders to Fort 
Bliss, Texas, your car insurance tripled above anywhere else in 
the country. Today El Paso is the third safest city in the 
country. If you go to the California frontier, we have 48 miles 
of fencing, a few hundred Border Patrol people, and a little 
technology. Four years ago there were 60 murders in that year. 
Last year there were zero.
    Senator Coverdell. General, can this be accelerated?
    General McCaffrey. Yes. But we have got to know what we are 
doing. This is a big piece of work to do. We have to have a 
plan. We cannot call audibles.
    Senator Coverdell. I understand your wanting it to be 
fitted.
    General McCaffrey. Right.
    Senator Coverdell. I am just wanting to----
    General McCaffrey. We have to get Transportation, Commerce, 
Treasury, Justice, Defense, and State to continue their 
tremendous efforts.
    Senator Coverdell. Well, working off Senator Biden's 
comment of emergency status, and in concert with the plan--at 
least for this Senator--one of the objectives or one of the 
goals should be acceleration.
    General McCaffrey. Absolutely.
    Senator Coverdell. With in concert of long-term goals.
    General McCaffrey. I agree. Yes.
    Senator Coverdell. I turn to Senator Grassley.
    Senator Grassley. Thank you very much, Mr. Chairman.
    And thank you, General McCaffrey, for your testimony. 
According to your agency's own figures, in 1987, 29 percent of 
the national drug control budget was allocated to demand 
reduction, 38 percent for law enforcement, 33 percent for 
international interdiction. By 1997, those priorities shifted 
to 34 percent for demand reduction, 53 percent for domestic law 
enforcement, and 13 percent for international programs and 
interdiction. In short, then, programs to suppress or interdict 
drug supplies went from 33 percent of the overall budget to 
only 13 percent.
    As a portion of the overall drug control budget, it is very 
clear that spending on interdiction and source country actions 
have declined precipitously from that peak. In your opinion, 
then, is this because the domestic threat is proportionally 
greater now than it was then?
    General McCaffrey. Senator, first of all, the raw dollars 
spent on the drug issue have gone up enormously during that 
time. Between 1987 and the fiscal year 1999 budget request, 
total funding devoted to the drug issue was just enormous. And, 
in a grand sense, it has worked. Drug abuse in America has come 
down dramatically. The number of Americans casually using 
cocaine, from 6 million to 1.7 million; the amount of dollars 
we spend on drugs about in that timeframe came down by a third; 
drug-related murders, down by a third. The money, in my 
judgment, in the broadest sense, actually has helped 
dramatically.
    Having said that, drug interdiction dollars have not gone 
down precipitously. They are almost where they were in fiscal 
year 1992; $2.1 billion, $1.8 billion--they are in the same 
ball park, and the drug threat has moved. I would not want 
carrier battle groups, Aegis cruisers, on work-up for the 
Mediterrean, doing Caribbean patrols and claiming that was drug 
interdiction dollars. It was not a very good way to spend money 
in 1987; it certainly would not help today. If we had the same 
level of funding, it would not go for an Aegis cruiser in the 
Caribbean.
    Senator Grassley. Well, are you saying money is being spent 
on interdiction, but being spent in a more effective way?
    General McCaffrey. The raw dollars, in other words, in 
1987, included sort of spasm activity, in my judgment--I was in 
the Pentagon at the time--in which we would take an Aegis 
cruiser deploying to the Mediterrean, we would put them into 
the Caribbean; they would look for light aircraft in the dark 
and then deploy to the Mediterrean, and we would say that was a 
drug-related function. Of course you can find the light 
aircraft with an Aegis cruiser. But if we had that dollar 
today, we would not spend it on a Aegis cruiser, we would spend 
it at Eagle Pass, Texas, on an x-ray machine.
    So, again, the static analysis is very difficult, but we 
have got the total interdiction funding back up to only .4 
million below the fiscal year 1992 levels.
    I think the other thing we really have to do--rather than 
look at percentages--is look at the strategy, I have written a 
strategy and told the government: you had better explain what 
you are doing in terms of this strategy. If you go to goals 
four and five, I would ask the Congress to track the issue not 
in terms of departmental budget increments, but who is doing 
what on this function.
    Senator Grassley. OK.
    General McCaffrey. I think we are going to be better off in 
the long term if we do that.
    Senator Grassley. Let me ask you about the closing of 
Howard Air Force Base. How important do you believe it is to 
find another location base for U.S. drug interdiction resources 
in Central America? Does the United States currently have a 
location that can effectively relocate the current drug 
interdiction assets of Howard? And how will the loss of Howard 
affect our current detection and monitoring abilities in the 
Caribbean and in the Andean regions?
    General McCaffrey. It is a sad situation. The gross number 
is we flew 3,000-some-odd sorties a year of counterdrug 
operations or support out of Howard. It was in the right place. 
It was 2,000 dedicated airmen of the U.S. Air Force supporting 
not only military operations but Customs, Coast Guard and 
others. It is really too bad. Although we have not closed off 
discussion, we are looking at alternatives.
    Senator Grassley. So as of now there are not alternatives?
    General McCaffrey. We do have an existing base at Roosevelt 
Roads, which is first-rate, which will accept some add-ons. We 
do have through-put capacity at Sotocano, Honduras, and we are 
exploring with our international partners what we will do in 
potential transit rights in the region. But the loss of Howard 
is too bad.
    Senator Grassley. But at least for a period of time the 
capability of doing what we do at of Howard will be less?
    General McCaffrey. Yes, I think that is probably the case.
    Senator Coverdell. All right. Senator Biden.
    Senator Biden. Thank you very much.
    General, you have in front of you a group that I think can 
and will act in a bipartisan way. In our little side discussion 
the chairman and I were having here, one of the things we both 
have as a goal here, although we may end up disagreeing on the 
exact emphasis, is that within your plan, we would like to know 
what it is that we could fast-forward, speed up, if we provided 
you the dollars, to enable your plan to best be implemented the 
quickest.
    And since we only have 5 minutes, I would like to just 
briefly touch on a couple of points. First of all, back on May 
13th of this year, after a discussion with you in my office, if 
I am not mistaken--although I am not positive whether this came 
before--immediately before or immediately after--I wrote a 
letter to Speaker Gingrich. And Speaker Gingrich had introduced 
a bill or talked about introducing a bill, which he referred to 
as the Drug-Free Borders Act.
    And in that I indicated to him, although I had not seen the 
Act, he and Congressman Hunter were talking about that, and 
that I had met with Customs. And we had gone into detail as to 
what their ideal wish list would be of all the things they 
would need at the border in order to enhance their ability to 
detect transiting of drugs. And I had, back the previous 
October, argued that we should speed up this additional 
funding.
    The bottom line was it was about $100 million for 22 border 
crossings, the technology, including mobile x-ray trucks, the 
MTXR, gamma imagers, heavy pallet x-rays, rail car 
examinations, system high-energy truck x-ray systems, et 
cetera. Now, what I asked at that time was that the Speaker--I 
strongly supported his effort--I hope he would include not only 
the 100--actually it was $100.4 million for this technology to 
buy it all, at the time--and that it would be appropriated.
    Now, to the best of my knowledge, that has not been 
appropriated either in our side of this Capitol, the Senate, or 
in the House. My question is this: If you were able to get an 
appropriation of $100.4 million now--and I will ask this of the 
Border Patrol folks, as well, and the Customs people--would you 
be able to, with an efficacious effort here, put it in play? 
Would it be helpful for us to speed that up--give you all the 
equipment on the wish list--not take it from other places?
    If we said to you, hey, we got George Soros, although he 
lost a couple of billion bucks, he is going to buy a 100 
million bucks worth of this stuff for you; you can have it 
immediately, what would be your response?
    General McCaffrey. Mr. Senator, when we went into the ISTEA 
bill, we had some very intense discussions.
    Senator Biden. Yes.
    General McCaffrey. Congressman Denny Hastert was the 
quarterback in the House, with the Republicans, and we had a 
lot of discussions.
    Senator Biden. Right.
    General McCaffrey. We went after $540 million. We got $30 
million. There has been a tremendous disconnect between 
rhetoric and voting in the appropriations acts.
    Senator Biden. I got that. I am sorry to cut you off on 
this, but if we got together, this group right here, and we 
said, OK, we are going to go to bat in a bipartisan way and we 
are going to make a hell of a ruckus on the floor together to 
get you that 100 million bucks, would you want it? Do you need 
it?
    General McCaffrey. I think there are unfulfilled 
requirements, particularly in the Southwest Border and in the 
Coast Guard operations. But the President's budget request is 
the place to start, because we have a rational analysis there. 
Once we are outside that, we are ad-libbing with $100-million 
buys.
    Senator Biden. No; I understand that. But here my time is 
about to be up. I have been doing this job for a long time, and 
I have found something real simple. If I can make an analogy 
for you. When I introduced the crime bill that ultimately 
became law, I tried to get people to vote for prevention money. 
I could not get anybody to vote for prevention money. That was 
viewed as wasted money.
    So then I came up with a very specific thing. I said I am 
going to put this money in for Boys and Girls Clubs. That made 
it impossible for all these guys and women to vote against 
prevention. It was a simple, pure political tactic. A first-
rate operation, but then I told everybody I would go home and 
say, you know what, your Congressman or your Senator says they 
are for dealing with crime. Guess what? They voted against 
allowing you to build another Boys Club. And guess what? All of 
a sudden, everybody became a disciple of prevention, as long as 
it was Boys and Girls Club.
    I am being very, very--these guys are not--not these guys--
and women--we are not giving you what you ask for. It is not 
fair, in my view. We are beating the devil out--not this 
panel--but we are beating you up for not getting the job done. 
You are getting an awful lot of the job done. We are not giving 
you the money you asked for. You are asking--we have a bill 
here for more money for interdiction. We have cut your 
interdiction budget already this year, without even this. So it 
is not fair.
    So what I am trying to figure out--and I will end with 
this, because my time is up--I am trying to figure out is, OK, 
I cannot get you what you--I cannot--we cannot get you what you 
need apparently, but there is a bipartisan group here that will 
say, OK, let us cherry-pick a little bit here. It makes it 
awful hard for anyone in California or who goes to visit 
California that will say, hey, you know, I voted against the 
$100 million which would have provided all those x-ray machines 
there. I am being purely tactical here.
    And I guess I do not want to do it if it screws up your 
overall plan. Do you follow me? If it is taken from other 
places in your budget, then it is dangerous.
    General McCaffrey. Right.
    Senator Biden. It is a mistake. If it is an add-on to what 
you have and what you are not getting, then I would like you to 
think. You do not have to answer me now. But, for the record, 
let us know whether or not, without taking it out of the other 
parts of your budget, if we could get that for you, would it be 
helpful to you?
    I will wait for a second round to go over this.
    Senator Coverdell. I think we are talking, what is the plan 
for acceleration? What is the plan for acceleration?
    Senator DeWine.
    Senator DeWine. Mr. Chairman, thank you very much.
    Let me just followup on that, General. And I think there is 
a lot more we all agree on here today, General, than we 
disagree. And I am sure what always is looked at is what we 
disagree about, and that is more interesting. But I think we 
all agree on a great deal.
    I would just encourage you to continue to work with us. I 
think, as you have identified, or members here, and there is a 
lot more other members in the Senate, frankly, besides the ones 
who are just on this panel, who are very interested in getting 
you the resources that you need. And we can get down into the 
particulars of whether you need this particular resource or 
not. I think the bottom line is, at least for this Senator, you 
do not have the resources and we have not supplied you with the 
resources. You need more resources.
    If you just look at the chart that I referenced earlier, we 
can talk about percentages or we can talk about raw dollars or 
we can talk about programs. I think no matter how you look at 
it, we are not putting the resources in interdiction that we 
should. If you look at it as a percentage, I just find no 
logical reason why we have gone from basically a third down to 
about 12 percent. It just does not make any sense to me.
    If you look at the raw numbers, as you have----
    General McCaffrey. Senator----
    Senator DeWine. Let me just finish, if I could, then I will 
be more than happy to let you respond. But if you look at the 
overall dollars, it is troubling when you say, well, Senator, 
we are about where we were in 1992, we are just spending it 
better. I understand that. But if you look at some of the 
specific changes--and I realize these are not all--the data is 
not all up to date--but let me just give you a couple of 
examples of how this has played out in the real world.
    Department of Defense funding for counternarcotics 
decreased from $504 million in 1992 to $214 million in 1995. As 
a result, the number of flight numbers by AWACS planes had 
dropped during that period from 38,000 hours in fiscal year 
1992 to 17,000 hours in 1996. U.S. Coast Guard funding for 
counternarcotics decreased from $443 million in 1992 to $301 
million in 1995. And we could go on and on and on.
    It plays out in the real world, though. It plays out in the 
real world. I had the opportunity to, as you know, travel off 
the coast of Haiti and off the coast of the Dominican Republic 
several months ago, and looked at our Coast Guard and looked at 
what they were doing. There is an October 1997 GAO report that 
says that of all the cocaine moving through the transit zone, 
38 percent is being shipped through the Eastern Pacific.
    When I visited JIATF East a few months ago, I was told the 
Eastern Pacific is wide open for drugs, in that area right up 
there, and we have got virtually nothing going on. That is the 
problem. And we can talk about percentages and we can talk 
about raw dollars, but the bottom line is we have got areas 
that we are not covering at all. Or at least that is what I was 
told when I was down there. That is true, is it not, General?
    General McCaffrey. Let me start off by saying I in no way 
would suggest that we are not receptive to your views on 
increased interdiction funding. Yours is a legitimate 
assertion. However, the raw dollars are about the equivalent. 
The threat has changed.
    From 1987 to 1999, we have gone up .4 billion. 
International funding has gone from $221 million to $548 
million. So it peaked in 1992 and then dropped significantly. 
We have brought it back up about where it was.
    The total dollars devoted to the drug issue has gone up 
dramatically. One reason is we have got 1.7 million people 
behind bars today; somewhere between 50 and 80 percent of them 
there for a drug-related reason. If you look at the total 
fiscal year 1999 package, 52 percent of it is law enforcement 
and prisons.
    Senator DeWine. I agree. Let me just, if I could----
    General McCaffrey. That is part of the dynamics of this.
    Senator DeWine. That is true. I want to say something, 
though, that Senator Feinstein said. And I wish I had said it. 
You know, I guess it is the best compliment, Senator, always to 
say when someone says something, you wish you had said it. And 
that is, when we look at this division, and the fact that you 
just brought up how many people are behind bars, the reality is 
that that is predominantly a State and local responsibility and 
a cost. When you are talking about what the Federal Government 
can do, what our responsibility is as United States Senators, 
drug interdiction at our borders, source country, in transit, 
that is something that the States really cannot do anything 
about. That is our responsibility.
    And so what is disturbing to me is that when you look at 
the percentages, what you find is the one area, the one area, 
where we have a sworn responsibility to deal with this, and 
where no one else really--State cannot do it, local cannot do 
it, we have to do it--and that one area is the one area that 
the percentage of our effort has gone down. And it has gone 
down dramatically. That is the only point.
    So when you cite how many million people are behind bars, 
that is absolutely true, and that is part of our overall 
national anti-drug effort, absolutely correct, General. But if 
you look at what our responsibility is in the Congress, our 
responsibility is to do that which no one else can do. This is 
an area that no one else can do.
    No one else can send Coast Guard ships out there. No one 
else can interdict those drugs. No one else can have AWACS 
planes up there. That is our responsibility. And, frankly, we 
just want to work with you, and try to increase the resources 
you have to do the one thing that only the Federal Government 
can do.
    General McCaffrey. Yes.
    Senator DeWine. It is our responsibility.
    General McCaffrey. I could not agree more. But, again, we 
have to analyze it by the goals of the strategy. Because if the 
drugs move into Mexico, the U.S. federal interdiction effort is 
now on the Southwest Border. Those dollars are in Departments 
of Justice, Treasury, Interior, Defense, et cetera. There are 
12,000 people, a division-sized group of Feds, on the border 
today. In 1987, it was a fraction of that.
    There is a huge, sensible, aggressive effort to protect the 
American people. Our problem is it will not work without 
technology and intelligence. So it is not just people and 
dollars. It has got to be smarter use of non-intrusive 
technology. That is why the interdiction function is not an 
adequate judge of goal four and five of the National Drug 
Control Strategy. We have got to stop crack cocaine.
    If you are in the Eastern Pacific--and I share your concern 
that there is not a permanent Navy or Coast Guard presence out 
there--but we are trying to get them. When they come into 
Mexico on the West Coast--and the Marina and the Coast Guard 
are working pretty effectively together, thank God--there is an 
active program of, intelligence sharing and interdiction at 
sea. They bring the drugs into Mexico and then they have got to 
come across one of the 39 ports of entry or hook around the 
Pacific. We have programs there that are not under the 
interdiction function.
    Senator DeWine. And I appreciate that. My time is up, 
General. Thank you very much.
    Let me just, as a postscript, simply add, though, General, 
to think that that whole area of the Pacific is not covered is 
just--it is inexcusable. I mean we as a country cannot have 
that. That has to be changed.
    Senator Coverdell. Thank you, Senator.
    Senator Feinstein.
    Senator Feinstein. Thanks, Mr. Chairman.
    And thank you, Senator DeWine, for your comment. I really 
appreciate it.
    General McCaffrey, I have a number of questions. So if I 
could fire them off, and you try to directly answer them.
    How much would it take to have a complete package of high-
tech x-ray scanning equipment, fully adequate, at each of our 
three ports of entry on the Southwest Border?
    General McCaffrey. There are 39 border crossings and two 
maritime flanks. I do not know the answer to that question.
    Senator Feinstein. Could I get an answer of what it would 
take? You see, one of the problems is you go out there and 
people say, oh, we do not have adequate equipment, oh, this is 
inadequate, that is not, Congress does not give us the money to 
do it right. What would it take to put all of the know-how we 
have in terms of this non-intrusive scanning equipment wherever 
we need to put it on the Southwest Border? And I think then we 
should go to bat to get that money, get it delivered, get the 
equipment there, and frankly, end the excuses. We then have the 
equipment. May I ask you to prepare that estimate?
    General McCaffrey. The executive branch is trying to come 
to grips with just that question. The machinery, the people, 
and the intelligence.
    Senator Feinstein. Is that yes, that you will do it?
    General McCaffrey. We are doing it. But I have to get my 
nine cabinet colleagues to agree with me.
    Senator Feinstein. All right. I am asking you for a number, 
with some documentation.
    General McCaffrey. I will try and get that number and 
documentation to the President this fall and then forward it to 
the Congress for funding. That is what we are trying to 
achieve.
    Senator Feinstein. OK. All right. Next quick question: In 
the recent GAO report, dated July, on internal control 
weaknesses and other concerns with low-risk cargo entry 
programs, they make a number of recommendations, which I went 
over in my opening remarks. Treasury has answered. Treasury 
said that they have written, in its comments at Customs offices 
of field operations, plans to publish the line release quality 
standards in the form of a headquarters directive by the end of 
fiscal year 1998. Have you reviewed--we are just about at the 
end of fiscal year 1998--have you reviewed those line release 
quality standards?
    General McCaffrey. No, I have not.
    Senator Feinstein. May I ask that you do so?
    General McCaffrey. Yes, ma'am.
    Senator Feinstein. For me. If anybody gives you flack, ask 
them to call me.
    General McCaffrey. I am sure they will be quite glad to do 
it. I am sure it is at the Department of the Treasury right 
now. We do have a first-rate professional, Ray Kelley, who is 
coming to grips with that problem.
    Senator Feinstein. I agree with you, and I appreciate that. 
And I know Ray Kelley. And I am delighted he is there. But if 
you would do that, I would appreciate it.
    Now, with regard to another recommendation made, apparently 
Treasury agreed that the three-tier program should be suspended 
until more reliable information is developed for classifying 
low-risk importations. This was the program that the Customs 
people said was not working.
    My understanding is that they are suspending it, and that 
Customs believes its other targeting methods are better able to 
fulfill the narcotic interdiction efforts. Would you take a 
look at that? And may I ask you, please, for your evaluation of 
that?
    General McCaffrey. I will do so.
    [The information referred to by General McCaffrey was not 
available at press time.]
    Senator Feinstein. Thank you very much.
    Senator Feinstein. And the third recommendation is that 
they are currently evaluating the automated targeting system at 
Laredo. May I ask you also to take a look at that?
    General McCaffrey. I will do so.
    Senator Feinstein. Now, may I ask for your comment on this 
morning's New York Times' article? And this obviously has to do 
with the elite Mexican drug officers that are allegedly tied to 
traffickers. The article contends: Officials said at least some 
of those investigators whose tests--polygraphs--indicated 
collusion with traffickers had been chosen for their posts 
after elaborate screening devised by Americans.
    Is that statement true?
    General McCaffrey. Yes.
    Senator Feinstein. Then it goes on to say that most senior 
officials in the unit were implicated by the lie detector test. 
And it goes on to say: Officials said they feared that much of 
the sensitive information that American law enforcement 
agencies had shared with the Mexican unit during the last year 
might have been compromised.
    Is that correct?
    General McCaffrey. I read that article this morning. I have 
talked to the DEA and the INL. There is an ongoing operation to 
look at penetration of this unit for several months. The 
Mexicans came to us and identified the problem, and went after 
it. We are working with them.
    It would be unhelpful to reveal the details of an ongoing 
law enforcement operation at this time.
    Senator Feinstein. OK. I accept that. But there is going to 
be an investigation, and we will get an answer. Right? Right.
    Senator Feinstein. My time is up. Thank you, Mr. Chairman.
    Senator Coverdell. We now turn to Senator Graham, of 
Florida.
    Senator Graham: Thank you, Mr. Chairman.
    I would like to ask questions in two categories. First, 
General, I mentioned in my opening statement that I thought we 
had an opportunity in Colombia, with the new government, a 
government with whom hopefully we will be restoring normal 
relations. Could you give me your comments as to how your 
strategy or the pace of execution of that strategy would be 
affected if in fact there is a government in Colombia with 
which we can have positive relations?
    General McCaffrey. Senator, it is very encouraging. We have 
worked with the new President, prior to his election--and I was 
part of the delegation to his inauguration--and his new Foreign 
Minister, who is a superb man; his Defense Minister, who is a 
very experienced public servant; their new Ambassador to the 
United States, General Topias; the new Commander of the Armed 
Forces and the other senior members of the military. He has 
retained General Sarano, who is a very courageous Colombian 
patriot.
    They came into office with a commitment to continue the 
struggle against drugs. Probably no country on the face of the 
Earth has suffered more than Colombia from drugs. There is an 
absolute savage internal nightmare that has been going on for 
20 years.
    We think he is serious about the peace process. General 
Willen, the CINC, has been down there and met with their new 
military leadership.
    What we have told them is we want them to develop a 
Colombian strategy for us to analyze and sort out how to best 
support. Internally in the U.S. Government, we are having a 
deputies meeting in the NSC about it; trying to sort out what 
do we do to best stand behind their efforts to promote peace, 
confront the drug issue, and produce alternative economic 
possibilities for 200,000 people out there growing coca and 
opium in a roadless, infrastructure-lacking part of Colombia 
where there is no military or governmental control over it.
    The armed forces, in the 3 days prior to the inauguration, 
was just ending a massive, 17-province, countrywide offensive. 
They lost hundreds of their young boys in the police and in the 
Army, killed in action that week, fighting against 20,000 FARC/
ELN guerrillas who have better weapons and better pay scales 
than the Colombian armed forces. We have a problem. We are 
going to work with this new government, but they have to 
develop their own strategy and the political will to confront 
the issue.
    Senator Graham: General, the second question relates to the 
issue that you raised. And that is the coordination between 
your office and the administration and the Congress in 
developing and supporting an effective anti-drug strategy. The 
circumstance that you have just raised, of course, is not 
without many historical precedents.
    During the Civil War, the Congress set up a committee to 
assist President Lincoln in developing a very detailed military 
strategy, which almost caused the Union to lose the war. We do 
not want to repeat that historical precedent.
    So my question to you is--the group of folks here, we want 
to be your allies and we want to see particularly that you have 
the resources to carry out the strategic plan. I think most of 
us recognize the fact that we do not have the background, the 
capabilities, given our other responsibilities, the ability to 
focus sufficiently on this problem to develop that strategic 
plan. But we want to be a constructive force in seeing that a 
plan that we have confidence in--and I will say I have 
confidence in your plan--is adequately supported.
    So my question of you is--and I think there is a sense of 
urgency on our part--how can we be most supportive? And maybe 
you have suggested one way in the terms of the immediate 
appropriations bills that are pending before the Congress, or 
in conference committee, to support the level of funding that 
your strategic plan contemplates for fiscal year 1999. I would 
like to ask if you could provide us with your analysis of where 
there is a gap between those two.
    General McCaffrey. Yes, sir, I will do that.
    Senator Graham: So we can have a target list to work 
against. And are there other ways in which we could be helpful?
    General McCaffrey. I agree. We do have a challenge between 
Congress and the executive branch on this issue. I am dealing 
with 50 agencies, 9 appropriations bills, and 14 cabinet 
officers. The Congress does not match up now on this issue. I 
have tried to use the two appropriations committees for my 
issue, as a de facto oversight committee for drugs. But it is 
not going to work. We should consider how the Congress can have 
an oversight role.
    Janet Reno did not receive $85 million in break-the-cycle 
funding out of the Senate or the House. This program is part of 
getting comprehensive drug treatment to 105,000 people behind 
bars in the Federal system. Two-thirds of them are there for 
drug-related purposes. We have to do break-the-cycle.
    The Senate cut $200 million out of the drug treatment block 
grant funding. That was finally going to get us up to, for the 
first time in history, a $3 billion investment in the 4 million 
people who are compulsive, chronic drug users.
    We have been cut on the Coast Guard budget. I do not know 
how this will come out. Defense got their money. The rest of 
them are selectively in trouble.
    I will do an analysis and send it over to the relevant 
committees. And, Senator, I think that is a very sound 
suggestion.
    Senator Graham: And would you also send a copy of that 
analysis to this panel?
    Senator Coverdell. I think this panel would need to see 
that information, if they might.
    Senator Graham: Mr. Chairman, can I one last question, 
which I think may be a yes/no answer?
    Again, going back to this issue of Congress/executive 
branch relations, the House has passed a bill, H.R. 3809, the 
Customs Reauthorization Act. The Senate Finance Committee 
reported out its version of that within the last few days. If 
you have had an opportunity to review that, I would be 
interested in whether you support it. And is it consistent with 
your strategic plan?
    General McCaffrey. Senator, with your permission, let me 
provide an answer for the record. I would feel more comfortable 
consulting with Secretary Rubin and Mr. Kelley.
    Senator Graham: Thank you.
    [The information referred to above was not available at 
press time.]
    Senator Coverdell. General, we are going to adjourn this 
session. But it strikes me that one certain work that comes 
from this dialog was posed by the question that has been 
repeated by Senators from California and Florida and Delaware, 
all of us, trying to get a handle on deficiencies in current 
appropriation matters. If we could get that information rather 
quickly, because we are in a very tight time zone now, there 
might still be room for us to be of assistance.
    In the year-plus of hearings like this, it strikes me--and 
working off Senator DeWine--that there are some fairly obvious 
deficiencies. Now, maybe we are just seeing--the one that was 
underscored by the Senator from Delaware, when he was trying to 
understand, well, if we can fund it, should we proceed to 
accelerate the technology on the border? And a year ago, 
Customs said that would take $120 million. And you used the 
figure of $104 million. And we are still looking for the 
figure.
    So it strikes me that that is something we ought to 
resolve. Either you tell us no, you cannot, if you had the 
money you could not do it, or tell us what you can do.
    And the third one, highlighted by the Senator from Ohio, is 
it strikes me over and over that the Coast Guard is underfunded 
for issues dealing with the Pacific and even the Caribbean. And 
if that is an inaccurate observation, then we need to know 
that. But these two, technology and the Coast Guard, just 
surface and surface and surface.
    So if we are under-resourced there--and there may be others 
that are less obvious--I think there is going to be continued 
pressure. I empathize with your worry about coordinating with 
the Congress. That is difficult. It is like herding chickens. 
But we will have to prevail. It may get kind of messy, but it 
is the best process around.
    And I thank the General for his attention.
    Senator Biden. Mr. Chairman.
    Senator Coverdell. Yes.
    Senator Biden. I apologize for being out of the room. Are 
we dismissing the General now?
    Senator Coverdell. We are dismissing the General.
    Senator Biden. I wanted to ask him one more question, but I 
will ask him later.
    Senator Coverdell. All right, in deference to the next 
panel.
    General, thank you for what you do. Thank you for your 
patience. And thank you for being here today. We appreciate it 
very much.
    General McCaffrey. Thank you, Mr. Chairman.
    Senator Coverdell. I am going to turn to the second panel: 
Mr. Brian Sheridan, Principal Deputy Assistant Secretary of 
Defense; Mr. Donnie R. Marshall, Acting Deputy Administrator, 
Drug Enforcement Administration; Mr. William R. Brownfield, 
Principal Deputy Assistant Secretary of State for International 
Narcotics and Law Enforcement Affairs; Mr. Samuel H. Banks, 
Deputy Commissioner, U.S. Customs; and Admiral James Loy, 
Commandant, United States Coast Guard.
    I am going to suggest--you all have been waiting a good 
period of time--that you try to limit the opening statement if 
we can to about a 5-minute summary, if possible. We will use 
the warning lights so you at least can see it. I will not be 
banging on the gavel, but given the number and the hour, that 
might be useful for all of you, as well as the panel.
    So let us begin, then, with Brian Sheridan, again, 
Principal Deputy Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict. It is good to see you 
again.

  STATEMENT OF BRIAN E. SHERIDAN, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY 
                            CONFLICT

    Mr. Sheridan. Senator, thank you for inviting me here this 
morning. It is good to see you again, and Senator DeWine and 
Senator Biden. I intend to be very brief in my opening comments 
so that we can get to the questions that you are interested in.
    Let me just start off by saying, speaking for the 
Department of Defense, we view the counterdrug struggle as a 
long-term one, one in which we are constantly exploring new 
ideas, looking at state-of-the-art systems, looking at ways in 
which DOD can use its unique resources and assets to support 
law enforcement, provide to them tools and techniques that they 
do not have to support them.
    And our second point is of course, for us, we are in a 
support role. We view the interdiction mission--I think that is 
particularly what we are going to talk about this morning--as, 
first and foremost, a law enforcement responsibility. And, 
again, we are happy to provide whatever support we can. But we 
also have a number of other missions and activities which we 
have to keep an eye on.
    We have a five-part program in the Department of Defense 
that corresponds with General McCaffrey's five-goal national 
strategy. Let me briefly just comment on goals four and five, 
because I think that is our focus here this morning. In 1998, 
DOD will spend about $400 million supporting goal four, which 
is our interdiction and shielding our borders. It is a 
challenge for us, covering a vast area of the Caribbean and the 
Eastern Pacific. It is one where we see a very dynamic threat.
    The air threat, which predominated in years past, is down. 
The maritime threat is up. When you get a change in modes and 
types of transport and conveyance, it often calls for a 
completely different set of tools to work against it. So we are 
trying to keep up with what is a very dynamic threat, and we 
try to use the assets we have, again, to support law 
enforcement in that area.
    Although the threat changes over the years, DOD provides 
support that results in the seizure or jettison of about 100 
metric tons of cocaine a year. And that number fluctuates and 
it takes part in different places. But the DOD contribution to 
law enforcement in this area stays around the 100-ton mark.
    Senator Coverdell. What percent is that of the total?
    Mr. Sheridan. Drug flow?
    Senator Coverdell. Yes.
    Mr. Sheridan. I would defer to others on that. I think 
total production is probably 700 tons.
    Admiral Loy. A little less than that.
    Mr. Sheridan. A little less than that.
    Admiral Loy. About 430 out of the source country this past 
year.
    Senator Coverdell. Thank you.
    Mr. Sheridan. We also have very rigorous programs. We will 
spend about $250 million this year on goal five, which is 
breaking our sources of supply. We consider homegrown marijuana 
a source of supply. So that figure captures our National Guard 
programs. But the majority of that are our programs in Latin 
America, where we have very extensive C3I programs, training 
programs, and a very significant interdiction effort, in 
Colombia and Peru in particular.
    And I think, in those areas, we have seen some very 
dramatic success, which General McCaffrey alluded to earlier, 
significantly disrupting the flow of cocaine by air from Peru 
to Colombia, forcing them onto rivers. And with very good 
support from the Congress, we have gotten the authority to now 
stand up some riverine programs in South America, which we are 
starting up this year.
    I would just conclude by saying again, this is a long-term 
problem. DOD is in it for the long term. We strive to achieve 
the maximum operational impact we can with the funds available. 
And we try to bring resources to bear on a very rapidly 
changing threat that law enforcement does not have available to 
it.
    And I would like to close by saying, in DOD, we have always 
enjoyed, I think, a very good working relationship with the 
Hill, and we look forward to working with you in the future.
    Thank you.
    [The prepared statement of Mr. Sheridan appears in the 
appendix on page 89.]
    Senator Coverdell. I thank you, Mr. Sheridan.
    Mr. Marshall, Acting Deputy Administrator for the Drug 
Enforcement Administration, welcome.

 STATEMENT OF DONNIE R. MARSHALL, ACTING DEPUTY ADMINISTRATOR, 
     DRUG ENFORCEMENT ADMINISTRATION, DEPARTMENT OF JUSTICE

    Mr. Marshall. Thank you, Chairman Coverdell, members of the 
subcommittee and the Caucus. Thank you for the opportunity to 
appear here today. And I want to also thank each of you for 
your support to DEA and the U.S. drug control efforts.
    We are here to talk about, I suppose, mostly interdiction. 
And I think it is important to understand that interdiction, in 
its most narrow sense and in its purest sense, is physically 
stopping drugs moving through the transit zone, across 
international borders and into the United States. And that 
responsibility is really more the responsibility of some of the 
other agencies who are appearing here today. But DEA fits into 
this role through our primary mission, which is to target the 
highest levels of today's international drug trafficking 
organizations. And through targeting the command and control 
structures of those organizations, DEA makes, I think, a major 
contribution to the overall interdiction effort.
    We also make significant contributions to drug interdiction 
with our law enforcement efforts not only internationally and 
at the borders, but within the United States. We must be able 
to--law enforcement in the United States--must be able to 
attack the command and control structures of these 
international syndicates who are directing the flow of drugs 
into our country. By focusing our attention on the criminals 
who direct these organizations, we, I believe, find the key to 
really combatting international drug trafficking.
    These groups who direct the drug trafficking into the 
United States are really powerful, sophisticated, wealthy, and, 
perhaps most importantly, very violent organizations, and they 
operate on a global scale. In places like Cali, Colombia and 
Guadalajara, Mexico, operational decisions are made on a daily 
basis, operational decisions such as how and when and where to 
ship cocaine, heroin, other drugs, which cars their workers in 
the United States should rent, what kinds of cars, which 
apartments should be leased, even what markings should go on 
individual packages of cocaine, heroin and other drugs.
    So, in other words, things that happen in places like 
Bogota, Colombia, and Mexico City really have a direct effect 
on what happens in the United States, in places like Los 
Angeles, Tyler, Texas, or even Rocky Mount, North Carolina.
    Over half of the cocaine entering the United States really 
continues to come through Mexico, from Colombia, and across the 
U.S. border at border points of entry. Trafficking 
organizations from Mexico also produce huge quantities of 
methamphetamine and import that into this country. They even 
control, to some degree, production of that drug inside this 
country.
    Drug trafficking in the Caribbean is also a tremendous 
problem. And it is overwhelmingly influenced by Colombian 
organized criminal groups who smuggle thousands of tons of 
cocaine into the United States. We are seeing independent 
groups of traffickers from the Northern Valley of Delcauca, and 
splinter groups from the Cali syndicates that are responsible 
for large volumes of cocaine and, more recently, increasing 
amounts of heroin coming into the United States through the 
Caribbean.
    These organizations, as powerful as they are, they have to 
communicate. And the very feature that enables them to control 
their drug empire in the United States, which is the ability to 
exercise command and control over this far-flung criminal 
enterprise, that very feature is the feature that law 
enforcement can and is using increasingly against these 
syndicates, turning their strength into a weakness and into a 
vulnerability that law enforcement can exploit. And that 
vulnerability is the communication structure of these 
international crime syndicates, operating worldwide.
    And therefore that is a prime target for drug law 
enforcement efforts in this country. It is also a primary tool 
for sharing intelligence information with our interdiction 
partners--Customs, Coast Guard and the Department of Defense. 
The results of law enforcement investigations actually indicate 
the connection between the drug trade within the United States 
and these drug trafficking organizations in Mexico and 
Colombia.
    And Senator Feinstein has already referred in her opening 
comments to some seizures in New York and Michigan and other 
places in the United States. So I will not get into Operation 
Reciprocity and Operation Limelight. But those kinds of 
investigations actually show that international connection. 
Those are two clear examples that really proves a relationship 
between the high-level traffickers in Colombia and Mexico and 
their organizations in U.S. cities throughout this country.
    The domestic component of our strategy should also be 
understood as a part of DEA's contribution to the overall 
national strategy to reduce drug smuggling into the country. 
But, equally as important, we conduct an interdiction program 
inside the United States. Operation Pipeline is a highway drug 
interdiction program which is led by our State and local law 
enforcement partners, and it is supported by DEA's El Paso 
Intelligence Center.
    Now, through EPIC, State and local agencies can share real-
time information on arrests and seizures with other law 
enforcement agencies. They can obtain immediate results to 
record check requests, and receive detailed analysis of drug 
seizures to support their investigation.
    Now, by identifying and arresting members of the 
transportation cells of these drug trafficking organizations, 
along with their U.S. customers, U.S. law enforcement 
authorities are really better positioned to target the command 
and control structure, the leadership, of these organizations. 
These seizures and their followup, is really a vital part of 
DEA's strategy to attack the organizations. And we also try to 
see that that is a vital part of our efforts to share 
intelligence gained during these investigations to increase the 
effectiveness of interdiction efforts conducted by the other 
agencies--such as Customs and Coast Guard.
    I see that the time is running out, so I just want to close 
by saying that DEA shares the concerns of Congress. We remain 
committed to targeting and arresting these most significant 
members of these organizations. We remain committed to 
providing everyday, real-time, real-world support to the 
interdiction effort. And we will continue to work with our law 
enforcement partners, Federal, State and local, and, by the 
way, throughout the world, internationally, to support their 
efforts and to improve our cooperative effort against the 
international drug smugglers.
    Again, thank you for the opportunity, and thank you for 
your continued support.
    [The prepared statement of Mr. Marshall appears in the 
appendix on page 77.]
    Senator Coverdell. Thank you, Mr. Marshall.
    We will now turn to Mr. Brownfield, Principal Deputy 
Assistant Secretary of State for International Narcotics and 
Law Enforcement Affairs.

STATEMENT OF WILLIAM R. BROWNFIELD, DEPUTY ASSISTANT SECRETARY 
   OF STATE FOR INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT 
                            AFFAIRS

    Mr. Brownfield. Thank you, Mr. Chairman.
    Mr. Chairman, at the risk of being accused of special 
pleading by my colleagues here at the panel, I note that both 
you and Senator Biden mentioned earlier on and asked about the 
INL fiscal year 1999 appropriation. You are both correct. Your 
numbers are correct. The Senate, before its recess, voted us 
out a figure of $222 million, which is $53 million less than 
our request level and $8 million less than we have for fiscal 
year 1998.
    Mr. Chairman, I have a formal written statement, and if you 
will allow me, I will submit it for the record and offer a very 
brief oral statement.
    The draft bill before us, Mr. Chairman, clearly focuses on 
interdiction activities. INL's role in our national drug 
control strategy is focused more on source countries in the 
Western Hemisphere, but interdiction is an essential element of 
drug control, and we play a very serious role in interdiction. 
We directly support interdiction efforts in source countries 
along the Andean Ridge. We train and support foreign law 
enforcement forces engaged in interdiction. We provide 
assistance and equipment to countries in the transit zone for 
interdiction purposes.
    INL, and the State Department at large, welcome, Mr. 
Chairman, the objectives and the intent behind the Western 
Hemisphere Drug Elimination Act. The attention that this bill 
and this hearing provide will help all of us here at this table 
to do our job and to do it better. We in INL are especially 
grateful for the efforts of the drafters to include some 
resources of serious importance to us.
    But like the other members of this panel, Mr. Chairman, and 
like General McCaffrey before us, the State Department has some 
problems with this bill that will make it seriously unworkable 
for us. If I could outline just a couple.
    The bill identifies resources, but does not, as General 
McCaffrey said, tie them into an overall, coherent national 
strategy. In Mexico, it calls upon us to provide aircraft that, 
in our judgment, are beyond the capabilities of the government 
at present to maintain and operate. As General McCaffrey 
mentioned, it calls for mobile x-ray machines in Bolivia, but 
does not tie them into a larger national strategy. And because 
the bill would lock in specific resources for specific 
countries, it would not allow the flexibility of moving or 
reprogramming assets without amending the law.
    The bill provides authorities but not appropriations to 
support them. And an authorization bill of this size is almost 
certainly going to create expectations abroad--expectations 
that we would be unlikely to be able to meet.
    The bill offers some serious and very welcome support for 
alternative development in the source countries. We wish it 
would also give us, or USAID, the flexibility to condition and 
leverage this assistance to performance or support or co-
funding from foreign governments.
    And finally, Mr. Chairman, we do, it will not surprise you, 
have some concerns about the bill's attempt to limit the 
background of future Assistant Secretaries of INL. We agree, 
law enforcement and intelligence experience are essential to 
the INL portfolio. But so is knowledge of foreign assistance, 
foreign governments, embassy country teams and operations 
overseas, the U.S. Congress, and national security. We believe 
very strongly that the Secretary of State should select, the 
President should nominate, and the U.S. Senate should approve 
future candidates for Assistant Secretary of State based on all 
criteria, and not just two.
    Mr. Chairman, the proposed Western Hemisphere Drug 
Elimination Act, as currently drafted, includes some very good 
ideas. It would serve as an excellent basis for some serious 
discussion between the executive and legislative branches. We 
would hope that our own fiscal year 1999 funding and 
appropriation request might serve as the vehicle to refine some 
of those good ideas. We are ready to join that dialog both here 
and on the other side of the Capitol.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Brownfield appears in the 
appendix on page 62.]
    Senator Coverdell. Thank you, Mr. Brownfield.
    We would now turn to Mr. Samuel H. Banks, Deputy 
Commissioner, United States Customs Service. Mr. Banks.

   STATEMENT OF SAMUEL H. BANKS, DEPUTY COMMISSIONER, UNITED 
                     STATES CUSTOMS SERVICE

    Mr. Banks. Mr. Chairman, members of the committee and the 
Caucus, it is a pleasure to appear before you today. And I 
would like to thank you for your continued support and interest 
in the Customs Service in trying to counter this global problem 
of drug smuggling.
    The Customs' mission is really two things related to 
narcotics enforcement. First, it is to disrupt the flow of 
illicit drugs, through seizure and arrests; and, second, to try 
to dismantle the drug organizations through investigative 
efforts.
    The U.S. Customs' foremost priority continues to be 
narcotics enforcement and narcotics interdiction. Specifically, 
I would like to talk a little on the air program. Our aviation 
program consists of 114 operational aircraft today. Our marine 
program has 84 vessels. Their purpose, again, is primarily 
focused to disrupt and dismantle organizations. The aircraft 
operate in both the source zone, the transit zone and in the 
arrival zone of the United States.
    Our aircraft actually provide close to 80 percent of all 
the detection and monitoring that occurs in the source zone. So 
we are a very big factor in this whole effort for both trying 
to stop drugs coming from the source countries and transiting 
through the transit zone.
    Our air program, like others, use a three-pronged approach, 
which is driven by intelligence, interdiction and investigative 
efforts. Our air interdiction resources throughout the 
hemisphere detect, sort, intercept, track, and ultimately we 
are after apprehending the traffickers and seizing their 
contraband.
    In 1998, to date, our aviation program has been 
instrumental in the seizure of over 42,000 pounds of cocaine, 
100,000 pounds of marijuana, and almost 50 pounds of heroin. 
Probably the most effective aviation tool that we think we have 
is something that we call the double-eagle. It is a P-3 with a 
radar dome, coupled with a P-3 without the radar dome.
    This double-eagle, we think, provides the best tool that 
you can have for this detection and monitoring approach. This 
tool, this double-eagle approach, has been endorsed by the U.S. 
interdiction coordinator and by SOUTHCOM. General Wilhelm has 
on several occasions testified before committees, advocating 
this as a principal tool to have an effective approach. He has 
also supported our dome expansion program, which is a key 
element in SOUTHCOM's efforts.
    We believe that this tool also provides what we think is 
the most cost-effective means for detection and monitoring in 
these areas. The aviation program is critical, because, in the 
past, the drug smugglers, their preferred course of smuggling 
is through general aviation aircraft. It is the way they can 
control it the best. To not have these programs just opens that 
corridor again wide open.
    I would like to say that we absolutely support the Drug 
Czar's strategy, especially strategies four and five. And we 
have got performance measures that we tie to our aviation, as 
well, to support that.
    One thing additionally I would like to comment on is the 
technology along the Southwest Border. That has been an issue 
that was discussed previously. We do currently have a 5-year 
technology plan for the entire Southern Tier, including the 
Southwest Border, which I would be very happy to supply the 
committee. That plan has been coordinated both with Department 
of Defense, because they have provided a lot of the basic 
technological support to make it happen, and it has also been 
coordinated through the Drug Czar's office.
    We currently have four--perhaps five--today large x-ray 
systems along our Southwest Border. DOD is also testing two 
prototype mobile x-rays, and a gamma ray device that actually 
looks through double-walled tankers, which constantly have been 
a problem, in addition to a series of high-tech items in the 
South Florida. In our 1999 budget, $54 million has been 
provided for expanding this technology.
    So, with that, Mr. Chairman, I would like to conclude my 
statement. Thank you.
    [The prepared statement of Mr. Banks appears in the 
appendix on page 61.]
    Senator Coverdell. Thank you, Mr. Banks. Admiral Loy, you 
are the cleanup batter here.

  STATEMENT OF JAMES M. LOY, ADMIRAL, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Loy. Good morning, Mr. Chairman. I thank all of you 
for your attention to this very, very important issue for our 
Nation. And I thank you for the personal opportunity to testify 
today on the specific Act in question, and also on our general 
interdiction efforts from the Coast Guard's perspective.
    I, too, will submit my prepared statement for the record 
and just summarize some remarks.
    Mr. Chairman, I have been in this business now for 25 years 
or so. Sam Banks and I, among others, go back in terms of 
policy generation and actually riding ships at sea in the midst 
of attempting to deal with this problem for a long, long time. 
In my mind, it truly is, as many of you have mentioned this 
morning, the most pernicious threat that our national security 
has in front of it right now.
    I would offer that if there was anything else that was 
killing 14,000 Americans on an annual basis and literally 
ruining the lives of hundreds of thousands of others, we 
perhaps would be finding a heightened priority to that all 
around our Nation, with no finger pointing necessary to whether 
it is an administration issue or a congressional issue.
    I applaud the Act's goal of strengthening our Nation's 
counternarcotics effort. It is clear to me that the Congress' 
sense here is that there is an imbalance among the three 
primary prongs, the three legs of the stool, if you will. And 
clearly it is the intent of the Congress at this point to be 
strengthening the interdiction leg, which, as many of you have 
already mentioned, and Senator DeWine perhaps most discreetly, 
you feel it is under-strengthed.
    I think it is a good instinct. And, again, I would applaud, 
as General McCaffrey has already, the opportunity that it 
represents to allow us in the administration, who forge the 
kinds of things that compose the guts of his national drug 
control strategy to do it well.
    The Coast Guard's counterdrug effort is outlined in a 
campaign, a theme campaign, that we refer to as Steel Web. 
Against the background, the very structured background, of the 
President's National Drug Control Strategy, Steel Web attempts 
to match the 10-year nature of the length of that program and 
the rolling 5-year budget, if you will--current year plus 4--to 
accomplish the strategy and do so with accountability that is 
now associated with the performance measures of effectiveness 
that are beginning to come into focus, as General McCaffrey 
testified.
    That itemized accountability, in my mind, is something that 
we have been missing for a long, long time, as we tried this 
and tried that over the course of 25 years of effort. Steel Web 
dictates an active and a very strong presence in the arrival 
zone and the transit zone, to intercept, seize and deter 
traffickers. The ``deter'' verb here, I believe, is something 
that is very important.
    We have focused on a study that Rockwell has done in the 
recent past, to be revalidated by General McCaffrey's work over 
the next 12 to 18 months, which offers that if in fact we can 
encounter the smuggler about 40 percent of the time, we would 
deter his behavior along that path about 80 percent of the 
time. It also puts a finite upper limit on the resource 
investment that would be necessary, wherein we could learn that 
to throw additional assets, once you have reached that plateau, 
would be rather foolhardy, without much gain and in fact 
potentially a waste of the taxpayers' money.
    One of the things that Steel Web also attempts to work with 
very carefully is the international engagement effort. We have, 
as you know, sir, negotiated about 19 bilateral agreements with 
nations in and around the Caribbean, which become leveraging 
agents, to allow us to work inside their territorial seas and 
air space, on many occasions, and seek the jurisdictional value 
that is brought to the table by ship-riders from those nations 
that find their way onto Coast Guard platforms.
    My operational commanders design and execute operations 
like Frontier Shield, which was enormously successful in fiscal 
year 1997; Frontier Lance, operated that with DEA; Border 
Shield; Gulf Shield; Operation Nancy in the arrival zone; Carib 
Venture; and Trident 1 and 2 in the Pacific to operationalize 
our effort. All of those operations are interagency and often 
international in character.
    Steel Web, sir, is designed to meet the Coast Guard's 
obligations under the National Drug Control Strategy and to 
reduce the drug availability by 25 percent in 2002, and 50 
percent in 2007. I see my light is red. Let me just note that I 
have picked up very carefully this morning on a couple of 
things.
    First of all, I think all of us in this room are in a bit 
of violent agreement. There may be a bit of different 
dimensions from which we are approaching the issue, but we all 
have the common well-being of the American taxpayer and the 
citizens, and especially the young people of America in our 
cross hairs. I think we need a consistent, long-term plan. That 
was an evident piece of the testimony that came out in General 
McCaffrey's exchange with the panel.
    And I think, wherein it is appropriate to accelerate any 
elements of that plan, it should be accomplished. The most 
obvious place to look for that is inside the 5-year drug budget 
that is in fact part of the 10-year plan that the Drug Czar 
owns.
    Interdiction is an absolutely legitimate cornerstone of the 
total drug effort. Frontier Shield proved that. Frontier Lance 
proved it again. History shows that when an appropriate 
investment is held there, it can be an enormously productive 
enterprise.
    Last, sir, as I close my remarks, the first and foremost 
point of issue for me in front of this panel this morning would 
be to gain the funding that is represented in the President's 
budget as it came to the Congress. I have heard several other 
people mention that this morning.
    We stand at the moment, as a prior-to-conference effort, to 
be funded at a level that not only would not allow the so-
called drug plus-up that is identified in the House mark to not 
be effective, because of the overall cut in that Coast Guard 
budget that is in the House's bill at the moment--that is a 
serious issue. And because of the multi-mission nature of our 
organization, if we are provided the funding level there, we 
will be able to focus on counternarcotics as the Senate and the 
House have asked us to do.
    We have done it in 1997. We have done it again in 1998. And 
my intention would be to do it again in 1999, if adequately 
funded.
    Thank you, sir.
    [The prepared statement of Admiral Loy appears in the 
appendix on page 75.]
    Senator Coverdell. Thank you, Admiral.
    I think we will begin with questions to any member of the 
panel. I am going to begin with--well, first, a matter of 
logistics, the meeting has, for important reasons, been 
somewhat longer than anticipated, I am going to turn to the 
cosponsor of the legislation. We are discussing to assume a 
battlefield commission here and command of the meeting, as I am 
scheduled to another session at 12 o'clock. There will be, as I 
understand it, a vote at 12:30, and I would advise both my 
colleagues of that.
    And we will have 5 minutes at least for this round, and 
then I will turn that decision over to Senator DeWine.
    Mr. Banks, you talked about the 5-year technology plan. Do 
the assertions coming from the panel here today, emphasizing 
acceleration, offend that plan, or can that plan accommodate an 
accelerated pace of moving technology to, say, the 39 points of 
entry on the Southwest Border? Is this something that can be 
assimilated by Customs?
    Mr. Banks. Yes, sir.
    Senator Coverdell. It could?
    Mr. Banks. We could assimilate it. However, I would like to 
caution, on being able to accelerate the plan, it also depends 
on the vendors that have to build and provide that equipment. 
So before I would give you an absolute commitment as to how 
fast it could be accelerated, I would have to go out and talk 
to those people, and I would have to work with the Department 
of Defense, because they are key components in our technology 
development.
    Senator Coverdell. Well, I think that is what the panel--
the range of questions--we are looking for how can we be 
bolder.
    Mr. Banks. Yes, sir.
    Senator Coverdell. And without offending the logic and 
orderly development of what is already underway. And I would 
ask the same question, quickly then, to you, Admiral Loy. 
Because I keep sensing that if we emboldened your resources, 
that you have the systems and the knowledge from these past 
exercises, that you could address the Senator from Ohio's worry 
about the Eastern Pacific and other locations. Is that a fair 
assumption or not?
    Admiral Loy. I think it is a fair assumption, yes, sir. I 
think there are some orders first. First, we ought to be as 
productive as we can possibly be with the assets that we have. 
And that has to do with sensor packages and communications 
capabilities and being cognizant of unity of command principles 
that might work.
    For example, in the bill, the discussion associated with 
merging the JIATF process, I think that is very sound when you 
think about JIATF East and JIATF South, because it offers us a 
singularity of purpose to the cocaine industry in the Western 
Hemisphere. I do not think it is as appropriate, for example, 
with JIATF West, which principally has an East-West orientation 
to the heroin threat coming from the Far East. And I do not 
think it has as much sense to do it with JTF 6, as General 
McCaffrey mentioned earlier, because they are, first and 
foremost, in the business of supporting the Southwest Border 
operation.
    So given the three dimensions--an East-West orientation to 
the heroin trade from the Far East, the Southwest Border 
operation, because of its obvious last border to be crossed, if 
you will, and the transit zone to the east--there is value to 
the unity of purpose thought process that is reflected in the 
bill.
    Senator DeWine. Mr. Chairman, if I could just insert that 
that portion that the Admiral is objecting to is no longer in 
the bill.
    Admiral Loy. Yes, sir, all right.
    Senator Coverdell. Very good.
    Senator DeWine. We appreciate your comment on it and your 
input. Thank you.
    Senator Coverdell. Mr. Marshall, you talked about the 
importance of communications. Would you want to elaborate on--
is that capability of law enforcement at risk because of 
encryption issues and technology that your adversaries have?
    Mr. Marshall. Yes, Senator, I would have to say that that 
is at risk. In the law enforcement community, we are quite 
concerned about the increasing move of the highest-level 
command and control figures to encrypted communications. We 
have encountered in our law enforcement operations the major 
traffickers, and primarily the traffickers based in Mexico at 
the highest levels--we have encountered them using encryption 
that law enforcement currently cannot break.
    And I think that it is very key for us to preserve and even 
hopefully enhance the ability, with all of the new technology 
that is out there, I think that we need to preserve that 
ability for law enforcement to legally get warrants and then 
have the technology to intercept the command and control 
communications of these organizations.
    It is only through doing that, I believe--since they have 
become so tightly controlled by elements that are overseas, 
beyond our reach in many cases, they used trusted lieutenants 
and, in many cases, family members in the United States--it is 
becoming increasingly difficult to infiltrate the organizations 
with human sources. And so the ability to intercept those 
communications is absolutely essential. And we would suffer a 
major setback if we lose that because of the encryption issues.
    Senator Coverdell. I suspect that is going to be something 
of the future--perhaps the next Congress.
    Senator Biden, we have got a 5-minute round going here. And 
I just made a battlefield appointment of Senator DeWine to sort 
of take charge--it is his piece of legislation, as it is--and 
proceed with the balance of the panel. But it is your round.
    Senator Biden. Thank you very much, Mr. Chairman.
    Mr. Marshall, if you do not know the answer to this 
question, maybe you could submit it for the record. What 
percentage of our consumption problem in America is related to 
homegrown substances, whether it is marijuana or synthetic 
drugs like methamphetamines, do we know?
    Mr. Marshall. To give you an exact percentage, Senator, 
would be difficult for me at this time. I will check and see if 
I can get you some estimates on that. But I will say that the 
homegrown cultivation of marijuana is a major problem. And we 
are also seeing a growth in the manufacture of methamphetamine 
in this country. LSD has always been with us to a certain 
degree. It is not very high on the radar scope, but it is 
there, and it is homegrown, a significant problem, and one that 
we are trying to get a handle on. Particularly in the case of 
methamphetamine, we have those initiatives.
    But as far as actual numbers, I will get back to you and 
try to provide you those.
    Senator Biden. I would appreciate that.
    [The information referred to was not available at press 
time.]
    Senator Biden. I think the most important thing to equip 
people with who are not on this committee are the facts. Drug 
and crime issues are the one area where no one thinks there is 
any need for any expertise. They are entitled to an opinion. 
They are entitled, as Senator Simpson used to say--he used to 
say that everyone is entitled to their own opinion; not 
everyone is entitled to their own facts. And I think people are 
entitled to facts. I think it is important to know what the 
breakdown here is.
    The second question I have is for you, Mr. Banks. You have 
five truck x-ray systems, two mobile truck x-ray system 
prototypes. You have indicated you have got a 5-year plan out 
there. You would have to determine whether or not my suggestion 
of giving you the 100 million bucks now or thereabouts would be 
able to be used efficaciously. But without getting into that 
part of the issue, what is the plan? Next year, how many trucks 
do you plan on having--next year? I mean you say you have a 5-
year plan, what is next year's plan?
    Mr. Banks. Currently what we have in place is what we are 
going to go with--we have actually got a system called the 
automated targeting system, which is actually an information 
technology thing that Senator Feinstein mentioned--we are going 
to go up in 12 additional locations with that. We are going to 
go with two large seaport x-ray systems.
    We are going to go up with a series--I believe it is in the 
vicinity of 15 or 16; it depends on how we can work with the 
contractor on this--with a whole variety of technology, not so 
much fixed x-ray, we are going to mobile truck x-ray, because 
of the flexibilities that provides to us, and the gamma ray 
devices--something called VACIS, that allows us to see through 
these tanker walls.
    The number one focus on this whole effort is to put it on 
the Southwest Border first, to go to those 39 crossings.
    Senator Biden. Well, it would be helpful for us if you 
had--if we had this detailed plan--and we may already have it--
I do not--the staff may have it--of what the 5-year plan is. 
And when I used to chair the Judiciary Committee, I used to 
always ask the FBI these questions and the DEA. And they used 
to tell me, in previous administrations, it is not money. And I 
would say, OK, it is not money. Now you are finished with that. 
It is not money. If I were going to force you to take money, 
where would you spend it?
    I want to force you to take money. You should have a plan 
for us. That is a formal request by me to submit a plan to this 
committee as to how quickly you could reasonably spend $100 
million to deal with your 5-year plan. I assume your 5-year 
plan is roughly the $100 million that is needed for 
technologies. I may be wrong.
    Mr. Banks. It is more than that, sir.
    Senator Biden. It is more. Well, whatever the number is, if 
we gave you the money now, how quickly could you speed it up?
    [The information referred to was not available at press 
time.]
    Senator Biden. Mr. Brownfield, you know I love the State 
Department. You know I think you guys hardly do enough on 
drugs. You know you do not go to the schools of foreign policy 
and these fancy universities the State Department guys go to, 
to learn about drugs. I know all that. And you know I am going 
to continue to be a pain in your neck for a long time, because 
you should be doing more--and not you personally.
    But what I want to ask you about is that, on this side of 
the Capitol and in the other body, there has been a lot of 
people pushing the State Department to provide Blackhawk 
helicopters to the Colombians. And I would ask Mr. Sheridan to 
chime in here if he would.
    I am kind of mystified by this obsession of providing the 
Blackhawk helicopters, since the Colombian Army already has 
Blackhawk helicopters, and they will not engage them for 
counternarcotics purposes. Could you elaborate on--I am told 
you are looking for working on some alternative options for the 
Colombians, options to Blackhawks--can you elaborate on what 
you are doing and what your rationale for doing it is? And my 
time is up.
    Mr. Brownfield. Sure thing, Senator. And I will be very 
brief. Let me make four quick points.
    The first and most important is that I graduated from the 
University of Texas. [Laughter.]
    Senator Biden. Another one of those prestigious schools.
    Mr. Brownfield. It is. I will leave it at that. I am sure I 
would otherwise be unjustly accused of what Texans are 
frequently unjustly accused of.
    Senator Biden. Only by people who go to A&M. [Laughter.]
    Mr. Brownfield. I have very strong views on that, Senator.
    Senator Biden. I knew you would.
    Mr. Brownfield. I invite you not to solicit them. 
[Laughter.]
    Mr. Brownfield. First, our concern with Blackhawk 
helicopters is not the helicopter itself. It is a very good 
aircraft. In fact, it probably is, for the mission that 
everyone in this room has been discussing for the last several 
years, probably the best aircraft out there.
    Our problem has been one of the simple realities of how 
much they cost to purchase, how much they cost to maintain and 
service, and whether the recipient or the receiving national 
police force and law enforcement agency has the capability to 
continue to maintain them and fly them on their own. Our 
judgment up to this point, based on all of these factors, has 
been that we do not yet have a good match with the Blackhawk 
helicopter.
    The third point--counting the University of Texas--you have 
put your finger on what has been a frustrating situation in 
Colombia. And that is we thought, after a lot of prodding, 
pushing, cajoling, and discussing, there was an agreement, an 
understanding, reached between the Colombian National Police 
and the Colombian Armed Forces, who do in fact have Blackhawk 
helicopters in their inventory, that would permit the National 
Police to use them for law enforcement operations. For whatever 
reason, it has not yet worked out.
    Now, if you ask the Colombian National Police why, they 
will give you one reason. If you ask the Colombian Armed Forces 
why, they will give you another reason. But it is indisputable 
that, at least so far, the two sides have not reached an accord 
that works in terms of using Blackhawk helicopters.
    Our alternative, up to this point, has been if we cannot 
afford to service, maintain and ensure that, in this case, the 
Colombian National Police can operate Blackhawk helicopters, we 
should give them something that they have experience with, that 
costs less, that we can absorb within our budget and that we 
can maintain for them if possible. And our solution up to this 
point has been to find them other twin-engine helicopters that 
would have the capability to fly at the higher altitudes, where 
we want them to fly in the Andes, and that would give them the 
greater safety and security that two engines gives them, and 
would not, to put it bluntly, bust our budget.
    And up to this point, that solution has been Bell 212 
helicopters that are running about 10 percent of what we would 
otherwise have to pay on a per-unit basis for a Blackhawk.
    Senator Biden. Thank you very much for a very concise and 
precise Texas answer.
    Mr. Chairman, my time is up.
    Senator DeWine. Senator Feinstein.
    Senator Feinstein. Thanks very much, Senator.
    Let me get my helicopter question answered. And, Mr. 
Sheridan, I attended a joint hearing in the House on this 
subject in March. And the GAO, at that time, pointed out that 
73 Hueys have been sent to Mexico, but they could not fly above 
5,000 feet, they were not therefore worth their salt for opium 
eradication because most of the opium poppy is grown above 
5,000 feet.
    I wrote to Secretary Cohen on March 19th. He responded on 
April the 16th with a very full explanation, saying that the 
Hueys were not really sent there for crop eradication, they 
were sent there for troop transport.
    Now, it is my understanding that earlier this year the Army 
issued a safety of flight message that grounded all U.S. Hueys, 
and Mexico responded by grounding their Hueys. Has the Army 
taken any corrective action on our Hueys? Have we helped the 
Mexicans? And are in fact these helicopters flying? And are 
they able to do crop eradication?
    Mr. Sheridan. The Army has a short-term fix and an 
immediate fix. All of the aircraft have to undergo a vibration 
test. Those that pass the vibration test are free immediately 
to resume flying. For those that fail the vibration test, the 
short-term fix is a new spur gear. The longer-term fix 
apparently is a newly designed gearbox.
    The production of the spur gears will take some months. And 
they will be entering into the U.S. inventory and in other 
inventories as they come off production lines relatively soon, 
but certainly not today or tomorrow.
    We tested all the Mexican helicopters. Forty of theirs 
passed, 33 did not pass. So, from a technical safety of flight 
perspective regarding the spur gear, 40 of theirs are cleared 
to fly. Now whether they can fly or not for other reasons is a 
different issue.
    As to their utility for opium eradication, again, it goes 
back to the original purpose of the transfer of the helos. They 
were not intended for that purpose. I think, as Bill indicated 
earlier, everybody would love Blackhawks. Blackhawks probably 
can do that. UH-1's cannot. They have been around for a long 
time. Everybody knows that. No one should be surprised that 
Hueys do not perform well at those altitudes. We never told 
them they could. They had no expectation that they could.
    Senator Feinstein. So, for all-around use by these 
countries in terms of whether it is transport or eradication, 
the Blackhawk is a superior vehicle; would that be fair to 
conclude?
    Mr. Sheridan. Yes, the Blackhawk is a far superior vehicle, 
I think everyone would agree. But they are also much more 
expensive. They are much more difficult to maintain. It is the 
difference between an old Jeep and a brand-new, top-of-the-line 
SUV someplace. For most purposes, the Jeep will still get them 
there. There is no question that the other one is better, but 
it is very expensive. And the cost per flight hour is a 
multiple of what the UH-1 is.
    So I think for many of these folks that we deal with, the 
UH-1 is not a perfect solution, but it continues to be pretty 
good.
    Senator Feinstein. OK. I thank you very much for that.
    Mr. Marshall, I am a big fan of the DEA, so I want to thank 
you for being here and for DEA's continued efforts. I think you 
do a super job.
    Mr. Banks, if I may. As you know, I believe very strongly 
Customs has an unfortunate mixed mission. On the one hand, it 
is a trade facilitation agency; on the other hand, it is a law 
enforcement agency. And I have felt for many years now that the 
law enforcement has been subjugated and the trade expediting 
has been increased.
    I asked for those GAO reports. I wrote to Treasury. I have 
waited with bated breath. I have had no response. And I am 
concerned about that.
    Let me ask you a couple of questions. And let me begin with 
the TECS system, used by more than 20 Federal agencies. GAO 
says you do not have adequate controls over the deletion of 
records from the system. If the TECS information is unreliable 
and could be tampered with, if you do not have adequate 
controls, does that mean that cargo shipments are being 
expedited when in fact they should be stopped and searched?
    Mr. Banks. That is possible. Usually the TECS records will 
primarily focus on things like the carrier and a driver, more 
name-type checks. Usually our lookout systems for commercial is 
in our automated commercial system.
    Senator Feinstein. So we have got a big flaw. What are you 
going to do about it?
    Mr. Banks. Well, actually, what we have instituted--and 
this is one of the things Commissioner Kelley asked me this 
morning--to make sure that I conveyed his request that at your 
convenience we would like to come up and talk about both the 
GAO report on TECS and on line release as soon as possible.
    Senator Feinstein. Any time. Any time. I would be happy to 
do it. All right.
    Mr. Banks. The first thing that we are doing on the TECS 
system is we have revised the procedures, and in fact we are 
even building in internal controls in the computer system to 
ensure that this happens--is if there will be a deletion made, 
not only does the officer who wants to delete the record have 
to be involved, that officer's supervisor has to be involved. 
In addition to that, the person that put in the record has to 
be involved with--by this computer notification, the 
originating officer is notified.
    In addition to that, the originating officer's supervisor 
is notified, just in case that officer is not there or is 
unavailable at the time. In addition to that, when the deletion 
is made, there is a comment field that has been built in to put 
in the comments as to exactly why that deletion occurred.
    Senator, there are 11 million look-out records in the TECS 
system, total. And it is a constant process of changes and 
deletions for very legitimate reasons. You are absolutely 
right, and GAO's finding was absolutely correct, we needed to 
build in better internal controls to ensure that those were 
done appropriately and with the appropriate levels of reviews.
    Senator Feinstein. Well, I really appreciate that, because 
this, as you know, has been a controversial area, because of 
the possibilities of corruption within the system and somebody 
deleting something that you do not want deleted, and you have 
no way of knowing. It is just gone and the truck comes across 
the border. So I am happy to hear that.
    Now, let us go to another system, the automated targeting 
system and the pre-file program. It is my understanding that 
they have to be used together, and it is not working. Could you 
comment on that?
    Mr. Banks. There is no question--first of all, I would like 
to say that you were correct on the GAO--when they went out and 
looked at the three-tier targeting system, the ports were not 
happy with it. And primarily the ports were not happy with it 
because even we in the national office were not happy with the 
outcome of that. One, there was a tremendous amount of analysis 
that had to go in to support the system. And quite frankly, we 
just did not have the intelligence to put in that system to 
drive it.
    The automated targeting system, what it does is actually 
rely upon sources of information from different data bases 
about the carrier, about the merchandise itself, about the 
parties involved in those transactions and their relationships. 
And what it does is really a rules-based system. Some people 
used to call it expert systems, artificial intelligence, but it 
is really a rules-based system, to try to identify those 
shipments that might be of the highest risk.
    You are absolutely correct, the sooner we get the 
information into that system--what you want is you want 
information from every possible source in order to give maximum 
opportunity to this advanced targeting system. The pre-file 
cargo information would be exactly one of those things that we 
would like to have in the system. And that is one of the 
reasons that we try to provide certain advantages to people 
that provide the pre-file information, so that we can run it 
through a systematic approach for risk management.
    Senator Feinstein. Thank you for being straight with me. I 
really appreciate that.
    Mr. Chairman, I have a letter, dated September 3rd, from 
Union Pacific Railroad. And Union Pacific is currently the 
largest rail carrier of goods in and out of Mexico--all types 
of commodities. And they have gateways at Brownsville, Laredo, 
Eagle Pass, El Paso, Nogales, and Calexico. They indicate that 
they are currently committing $3 million for new fencing, new 
lighting, new equipment, inspection facilities, police K-9 
activities, et cetera.
    I would like to make this letter available to the 
committee. I would like to commend them for taking this action 
as a private company.
    And I would like to very quickly ask Mr. Banks, do you feel 
that we have adequate--I do not know the word to use, whether 
it is surveillance or scanning or security--for these rail 
facilities, and particularly now that we are going to have 
these big, stacked rail, double-stacked rail cars pumping 
across the border, to ensure that contraband is not aboard or 
put into the facility, the rail structure of the car?
    Mr. Banks. No, not close.
    Senator Feinstein. Not close?
    Mr. Banks. Not close. And I agree with you, what Union 
Pacific has done--and they have even joined us on a carrier 
initiative--they are doing tremendous work. It is not enough.
    As good as they are being at this point, it is not close to 
the investment that they need to make in order to operate 
across that border. There is inadequate lighting at their 
crossings. We do not have the examination facilities. Part of 
this $54 million that we have in our 1999 appropriation will go 
toward the gamma ray devices that we need in order to be able 
to do the technology capabilities; because rail cars have a 
higher density steel wall. We have seized multiple rail cars, 
including from Union Pacific, as a result of finding violations 
of both empty compartments and actual narcotics.
    Now, Union Pacific has been very helpful in terms of going 
through the whole investigative process. We actually work 
somewhat in partnership with them. But it is not close. We have 
a long ways to go with the rail industry.
    Senator Feinstein. Well, I thank you for that. And I think 
I will write back to them and say, you have got to do more, and 
perhaps we can talk about that.
    Mr. Banks. I keep telling them I want to own one of their 
locomotives. And that will definitely get their attention. 
[Laughter.]
    Senator Feinstein. All right. You indicated that you are 
going to expand the automatic target system?
    Mr. Banks. Yes, ma'am, we are.
    Senator Feinstein. Can you verify at present the 
information that you get from Mexican companies in the pre-file 
system?
    Mr. Banks. We cannot necessarily verify it except through 
actual--we run it through certain edits. We validate it against 
previous information that we have gotten, so you have got 
certain norms. But then we can actually do examinations to 
compare if the information they are giving us is actually 
accurate according to what we are seeing. So we can validate it 
in that sense.
    One of the things that--I understand, it is not absolutely 
perfect--we currently have----
    Senator Feinstein. Then why would we expand it, if we 
cannot accurately verify?
    Mr. Banks. I am saying that we can verify certain critical 
information. One of the things that we get is that pre-file 
information. That is one of the components of information. 
There are some things in there we absolutely can verify. Can I 
verify? Can I do 100 percent examinations on their cargo that 
comes in to verify it? No, I cannot do 100 percent. What I can 
do is a statistically based analysis, number one. Two, I can do 
it based on risk analysis. And, three, at the judgment of our 
officers--and every time we check those, we will validate the 
information that they provide to us--completely validate that 
information.
    What I am trying to be is absolutely accurate with you. I 
do not want to convey to you that we are going to do 100 
percent validation every time. But yes, we are going to 
validate it, including to a statistically valid level. Yes.
    Senator Feinstein. Mr. Chairman, I just want to thank you, 
and if I may just make one comment.
    I think this has shown that we really have a significant 
lacking still in our sort of border infrastructure, in terms of 
really being able, A, to verify, to know accurately what we are 
doing, to have the kind of intelligence that is necessary, to 
have the kind of scanning that is necessary.
    I, for one, think it would be a terrible mistake if we wait 
for 5 years. General McCaffrey said they are about to present a 
5-year program. My own view is we ought to just make the 
appropriation, do what is necessary so at least we can say that 
our border infrastructure is adequate.
    And I thank you very much.
    Senator DeWine. I appreciate your comments. Those are very 
good comments.
    Admiral Loy. If I may, Mr. Chairman.
    Senator DeWine. Certainly.
    Admiral Loy. I would like to offer that General McCaffrey's 
5-year budgeted plan does not wait for 5 years to occur. It is 
a planned sequence of activity through the course of five 
budget years. And the acceleration potential within that is 
really where you have been going all morning, sir.
    Mr. Banks. And I would like to add that General McCaffrey 
personally increased the technology budget in 1999 by $25 
million over and above what had been approved through Treasury. 
So he is firmly committed to this technological approach on the 
border.
    Senator DeWine. Admiral Loy, I have seen firsthand the work 
that the Coast Guard can do. And I have been on some of your 
cutters and seen some of the work and talked to some of your 
folks. And they just do a fantastic job. As I think you can 
guess from listening through this hearing, I am concerned that 
you and some of the other agencies simply do not have the 
resources that are needed to do everything that you could do--
to do the things that, frankly, have to be done.
    I am particularly concerned, as I have already mentioned, 
on the other map that we had up there, in regard to the Eastern 
Pacific, that we have virtually nothing out there--nothing out 
there. I am concerned with the fact that good programs such as 
Operation Frontier Shield, Operation Frontier Lance are gone. I 
wonder if you could take a moment and describe for us exactly 
what you think was accomplished by Operation Frontier Shield, 
how that worked, and Operation Frontier Lance, as well.
    Admiral Loy. Sir, as a matter of fact, I think we have a 
results poster for Frontier Shield.
    Frontier Shield in 1997 was a proof of concept operation 
that began on 1 October, 1996 and was a tremendously successful 
interdiction operation.
    Mr. Chairman, the realities of my experience over a lot of 
time with this is that there are two ways that we have been 
able to be successful in the interdiction business. When you 
are covering the multiple million square miles of effort that 
we are trying to undertake in the transit zone there have been 
two things that have been proven to be valuable.
    One is if we can take an AOR, an area away from the bad 
guys. Operation Bahamas Turks and Caicos is probably the best 
example of that. In other words, over the course of greater 
than a decade, with an adequate resource dedication, we were 
literally able to shut down the Bahamian Archipelago as turf 
for the bad guys.
    The second has been the unexpected pulse and surge kind of 
operation such as Frontier Shield and Frontier Lance. These are 
partial results over the course of just several of the month's 
worth of effort, but the effort is mostly, I think, depicted in 
the number of sightings which translates to a target of 
interest spectrum which then results in boardings. In other 
words, we actually encountered about 43,000 targets out there. 
We determined that 4,000 or so of them were interesting enough 
for us to pursue. We actually boarded over 2,000 with the 
resultant seizures that you see described on that poster.
    The reality there goes to what had been the slide that was 
up there before, which is to say, the drug-smuggler will find 
the path of least resistance, and we fully expected that he 
would shift his efforts to the west, and that is in fact why we 
then stood up Frontier Lance as a proof of concept operation in 
fiscal 1998.
    A $34 million plus-up in the drug business for the Coast 
Guard in 1998 allowed us to sustain Frontier Shield at a lesser 
level than the pulse originally provided, and we took Frontier 
Lance, if you will, out of hide to again prove the concept had 
merit further to the west, did so prove that, which is to say 
interdiction clearly does work. That, again, was a proof of 
concept operation for only a quarter, given that we had other 
responsibilities.
    Senator DeWine. You said for only a quarter.
    Admiral Loy. 3 months, sir, a 3-month proof of concept 
operation further to the west.
    Senator DeWine. What did that prove to you?
    Admiral Loy. First of all it proves to me that interdiction 
works. The thought process of inside a strategy addressing on a 
systematic basis a series of operational activities at the 
field commander level can, in fact, make a positive 
contribution to the overall drug effort that we are 
undertaking.
    I have just returned, sir, because of my new 
responsibilities as the U.S. Interdiction Coordinator, from a 
spin through the Caribbean and all the nodes of command and 
control there. It is important for this committee to know that 
in my estimation the most significant problem we have at the 
moment is a lack of surface end game capability in the transit 
zone and the arrival zone. We are getting brutalized at the 
moment by go- fast vessels in the transit zone and in the 
arrival zone.
    Senator Feinstein. Could he say what he means by that, the 
absence of end game surface----
    Senator DeWine. What does that mean, Admiral?
    Admiral Loy. We are able to watch the lift-off, if you 
will, of a general aviation aircraft out of Barranquilla, out 
of Colombia, track it across the Caribbean, perhaps even watch 
it transfer across the international air corridor in the Cuban 
Island, perhaps drop its load north of the Island of Cuba to a 
waiting go-fast boat, and then at speeds of 55 knots or so 
deliver that product either back into the Bahamian Archipelago 
or perhaps go to the U.S.
    Senator DeWine. What is the remedy for that?
    Admiral Loy. The remedy in my mind, sir, is a combination 
of doctrinal change and I have directed my own staff to begin 
the process of thinking about changing the use of force 
doctrine from aircraft such that we, not totally dissimilar to 
the Colombians and even the Panamanians, have the opportunity 
to use a non-lethal disabling warning shot package of activity 
to bring that go-fast to a stop.
    And at the other end of the day the ultimate answer is 
having a surface asset there to actually intercept and seize.
    Senator DeWine. Surface asset meaning what?
    Admiral Loy. A boat, a patrol boat.
    Senator DeWine. Right there.
    Senator Feinstein. To intercept and search?
    Admiral Loy. And arrest and seize.
    Senator DeWine. How long do you anticipate, Admiral, this, 
as you describe it, this doctrinal change that you are talking 
about--it has at least been talked about, maybe not formally, 
but it has been talked about for some time. I wonder, what is 
your timing on that?
    Admiral Loy. My direction and my staff was to have that--I 
am concerned, of course, with force protection implications. I 
am concerned with doctrine and tactics being properly put 
together. I have asked my staff to have that back on my desk 
within 6 months.
    Senator DeWine. Six months from now?
    Admiral Loy. Six months from a month ago.
    Senator DeWine. We await that. We encourage that and look 
forward to that.
    Mr. Banks, you are shaking your head yes. Whenever I get 
someone shaking their head yes, I like to see what they have to 
say. I thought it was a yes.
    Mr. Banks. It was a yes, absolutely, Senator. We work hand 
in glove with the Coast Guard on this end game effort, 
especially in the arrival zone around the South Florida area, 
and Puerto Rico, and we also have boats. We have got 84 boats 
out there doing the same sort of thing in the apprehension, and 
we are linked together even on the aviation side and our marine 
side, and our boats have gone from--we had 200 vessels in 1990. 
We are down to 84 vessels today.
    Senator DeWine. Repeat those figures again.
    Mr. Banks. In 1990 we had 200 vessels. Today we have 84, 
and by the year 2000 we will probably have half of that.
    Senator DeWine. That is a shocking figure.
    Senator Feinstein. Have they asked for more?
    Mr. Banks. Well, there has not been actually an increase in 
the marine program over the last 5 years.
    Senator Feinstein. But have you asked for more?
    Mr. Banks. I believe there is a request. We are currently 
designing that request, yes.
    Admiral Loy. I could go, if I might, sir.
    Part of this USIC review that I have attempted to undertake 
since I got the responsibility was to translate not only policy 
reviews, but what is the resource shortfall associated with 
getting the job done appropriately.
    I have done that. We have had a conference with all of the 
players, which is a quarterly conference that the U.S. 
Interdiction Coordinator runs together with the J-3 in the 
Pentagon, and we have compiled that report and offered it to 
General McCaffrey as the appropriate person for whom we work 
inside the administration.
    I am absolutely convinced that that package will be very 
much part and parcel of the certification process that he uses 
by law to explore the adequacy of each agency's budget request 
in the future.
    Senator DeWine. It is just to me abundantly clear, after 
having traveled in the region, talked to some of your folks 
down there, both in Customs and in the Coast Guard as well as 
DEA, that the resources simply are not there at this point.
    In other words, there are so many things that you can do. I 
have frankly a great deal of confidence in both of your 
Departments, both of your agencies to get this done, but the 
resources are not there.
    And Mr. Banks, when you recited those figures, those are 
astounding figures, absolutely astounding figures. I mean, they 
should be a shock to this Congress. They should be a shock to 
all Americans, to hear what those figures were.
    Admiral, one of the fringe benefits that I believe you 
achieved with both Operation Frontier Shield and Operation 
Frontier Lance is the on-going improvement in cooperation with 
some of the other countries in the region. I wonder if you 
could maybe talk a little bit about that, because that is an 
intangible that in the long run I think will pay a great deal 
of dividends for us as well as for them in their antidrug 
effort.
    I mean, I know when you talk about the Dominican Republic 
and you talk about Haiti, we are dealing with Coast Guard and 
other law enforcement that certainly is not up to the standards 
that we would expect to see in this country, but that informal 
relationship and working together that you achieved during that 
relatively brief period of time with both of these operations I 
think is a real fringe benefit, and I wonder if you could just 
talk for a moment about that.
    Admiral Loy. Yes, sir. I am happy to do that. In both 
cases, with respect to Frontier Shield, which has principally a 
Puerto Rican-Virgin Islands focus, the active participation of 
State and local agencies, the FURA and the PRANG out of Puerto 
Rico, and the international wedge of activity that was 
associated with it, was very much part and parcel of beginning 
the process of leveraging their indigenous capability and 
compiling that as a capability that can then be dealt with in 
the overall scheme of things.
    And Frontier Lance, the same. That was the first operation 
that we actually ran out of Hispaniola. We ran that out of the 
south coast of the Dominican Republic, terrifically positive in 
terms of being a step forward, as you were citing, in terms of 
international cooperation. It, too, included U.K. And 
Netherlands cooperation in terms of contribution of aircraft 
hours and ship days.
    So yes, sir, you are absolutely right. I would go further 
and state that the President's visit to Barbados just a year or 
so ago offered expectations and hope with respect to many of 
those island nations. Further, the negotiated bilaterals that 
we now enjoy with many of them offers that same leveraging 
opportunity for them to grow in their own capability and then 
be used well in the total theater effort, if you will.
    Last, I would note that in the current 1999 budget on the 
Hill there is a request in our budget for a Caribbean support 
tender, the idea there being to staff, including potentially 
with some foreign nationals as part of the crew even, and make 
literally a round robin kind of training and maintenance upkeep 
activity centered on that particular hull.
    As I last recall the action on the Hill, it was supported 
at not quite the President's request level in the House, and 
zeroed out on the Senate side, so again, that is something that 
I think we could instantly do that would be supportive of 
exactly where you are going with the international engagement.
    Senator DeWine. I appreciate your comments very much. We 
could go on with this panel, at least I could, for a long time. 
I have a lot more questions.
    But we do have a third panel that has been waiting for some 
time. I want to thank all of you very, very much for joining 
us. We look forward to continuing the dialog both formally and 
informally in the future. Thank you very much.
    Let me invite our third panel to come up. We will take a 
short break, with the emphasis on short, and I would ask the 
third panel to be seated, and I will introduce you in a moment 
when we come back.
    [Recess.]
    Senator DeWine. I would like to welcome our third panel. 
Let me introduce our third panel. Mr. Henry L. Hinton, 
Assistant Comptroller General, National Security and 
International Affairs Division, the General Accounting Office, 
Dr. Barry Crane, Project Leader, Institute for Defense 
Analyses, Dr. A. Rex Rivolo, Principal Analyst, Institute for 
Defense Analyses.
    Let me welcome all of you. I apologize for the delay. You 
all have been around Capitol Hill long enough to know that 
occurs, especially when you are on the third panel.
    Mr. Hinton, let us start with you, and we have your 
prepared statement, which is a part of the record, and we would 
invite you now just to make some opening comments. We are going 
to go basically by a 5-minute rule with a little flexibility 
there, and we will start with Mr. Hinton.

 STATEMENT OF HENRY L. HINTON, ASSISTANT COMPTROLLER GENERAL, 
 NATIONAL SECURITY AND INTERNATIONAL AFFAIRS DIVISION, GENERAL 
                       ACCOUNTING OFFICE

    Mr. Hinton. Thank you, Mr. Chairman. I am pleased to be 
here today to present our observations on the effectiveness of 
U.S. efforts to combat the movement of drugs into the United 
States.
    My statement discusses the challenges of addressing 
international counternarcotics issues and obstacles to 
implementing U.S. and host national drug control efforts. My 
testimony is based on a body of work that we have done at the 
request of several congressional committees and Members over 
the past 10 years, and some of the recent reports that we have 
done concerning U.S. counternarcotics efforts in the Caribbean, 
Colombia, and Mexico.
    In summary, Mr. Chairman, our work indicates that there is 
no panacea, as I think we all know, for resolving all of the 
problems associated with illegal drug trafficking. Despite 
longstanding efforts and expenditures of billions of dollars, 
illegal drugs still flood the United States.
    Although U.S. and host nation counternarcotics efforts have 
resulted in the arrest of major drug traffickers and the 
seizure of large amounts of drugs, they have not materially 
reduced the availability of drugs in the United States.
    A key reason, Mr. Chairman--we have heard a little bit 
about this this morning--for the lack of success of U.S. 
counternarcotics problems, is that international drug 
trafficking organizations have become sophisticated, 
multilbillion industries that quickly adapt to new U.S. drug 
control efforts. As success is achieved in one area, the drug 
trafficking organizations quickly change tactics, thwarting 
U.S. efforts.
    Other significant longstanding obstacles also impede U.S. 
and source and transit countries' drug control efforts. In the 
drug-producing and transiting countries, counternarcotics 
efforts are constrained by corruption, limited law enforcement 
resources, and institutional capabilities, and internal 
problems such as insurgences and civil unrest.
    Moreover, drug traffickers are increasingly resourceful in 
corrupting the country's institutions.
    Some countries, with U.S. assistance, have taken steps to 
improve their capacity to reduce the flow of illegal drugs into 
the United States. Among other things, these countries have 
taken action to extradite criminals, enacted legislation to 
control organized crime, money laundering, and chemicals used 
in the production of illicit drugs, and instituted reforms to 
reduce corruption.
    While these actions represent some positive steps, it is 
too early to really tell their full impact.
    U.S. Counternarcotics efforts have also faced obstacles 
that limit their effectiveness. These include organizational 
and operational limitations, and planning and management 
problems, and over the years we have reported on problems 
related to competing foreign policy priorities for operational 
planning and cooperation, and inadequate oversight over the 
U.S. counternarcotics assistance. We have also criticized ONDCP 
and U.S. agencies for not having good performance measures to 
evaluate results.
    We have made a number of recommendations to improve U.S. 
counternarcotics efforts through better planning, sharing of 
intelligence, and the development of measurable performance 
goals.
    Mr. Chairman, in closing I just want to make the committee 
aware of three efforts, in addition to those that Senator 
Feinstein brought up this morning that we have been working on, 
that we have been asked to do by Senator Grassley and also 
Chairman Hastert of the Government Reform and Oversight 
Committees.
    They are to update our work that we have done on Mexico and 
Colombia, and to take a specific look at DOD in terms of its 
efforts to provide assistance to the law enforcement community, 
as well as the assistance that it gives host governments.
    That will do it, Mr. Chairman. I stand ready to answer any 
questions you may have.
    [The prepared statement of Mr. Hinton appears in the 
appendix on page 69.]
    Senator DeWine. Again, thank you very much. Dr. Crane.

STATEMENT OF DR. BARRY D. CRANE, PROJECT LEADER, INSTITUTE FOR 
                        DEFENSE ANALYSES

    Dr. Crane. Thank you, Mr. Chairman, for inviting and Dr. 
Rivolo and me to discuss our research. We are supported by the 
Department of the Defense and do operational evaluation of the 
interdiction forces.
    We provide a lot of that analysis to Admiral Loy, the USIC, 
and we would like to share some of the results. I believe there 
are some opportunities, based on our research, that could come 
our way that could perhaps help decrease the consumption of 
cocaine.
    The most interesting operation occurred in Peru and--I am 
going to be pretty brief here--the operations in Peru are very 
encouraging. In Peru, a very small interdiction force, using 
several bases, was able to cause severe damage to the base 
transportation structure. Base, because it was interdicted up 
the line, dropped to a very low price level, bankrupting many 
of the farmers.
    Now, this leads to a potential operational concept in the 
source regions. If you look at the map there, you can see the 
small green growing areas are the source of the cocaine 
problem. In Peru coca farms have declined rapidly because of 
the unprofitability of the industry, the loss of profitability 
of base.
    It would be possible to run another operation in Colombia. 
You would have to gain air control to force abandonment of a 
substantial part of the industry, in our opinion.
    Furthermore, there are other types of attacks, for example, 
that have been seen to cause substantial damage, though some of 
them are transient.
    In 1997, for example, there were PNP attacks on several of 
the very large production labs. We saw a large response from 
that.
    Senator DeWine. Large response in what sense?
    Dr. Crane. We saw positive test rates in the corporate 
sector drop 25 percent. We have many measures of merit. Dr. 
Rivolo can discuss them in more detail if you would like. We 
are prepared to go through some more detail if you would like 
to see some of these things.
    But 1997 a production attack was successful, but there were 
insufficient forces to follow through with an integrated JIATF 
attack in the summer. The plan was an excellent plan in my 
opinion--I was asked by Admiral Kramek to independently 
evaluate it--but there were not sufficient forces to conduct 
the three-prong interdiction in EASTPAC, the Central Caribbean, 
and Puerto Rico which was eventually sustained. Currently, they 
are still focusing on the north coast operations, attempting to 
interdict the air traffickers.
    In Colombia you have a situation where thousands of flights 
are undetected by either intelligence or radars. There are 
substantial efforts, for example, by the Department of Defense 
to deploy new technologies to find these flights in an ongoing 
effort.
    So I believe, if I can summarize, the things that I think 
will cause a major impact on the cocaine system, at least in 
the nearer term: You have got to gain air control in Colombia. 
You do not have that today.
    You could follow through with attacks on some of the major 
production labs. The history is replete--I have got four or 
five examples of that. You can ruin the efficiencies of these 
growing areas, and that is a very important concept here, to 
help us reduce cocaine.
    Senator DeWine. Great. Good summary. Thank you very much. 
Doctor.

 STATEMENT OF DR. A. REX RIVOLO, PRINCIPAL ANALYST, INSTITUTE 
                      FOR DEFENSE ANALYSES

    Dr. Rivolo. Thank you, Mr. Chairman.
    As a technician, it is my job to separate the facts from 
opinion as was pointed out a little while ago, and in this 
business it is very difficult to do.
    I am here to bring you some of those facts, and I have 
three things to tell you, but before I get to that point, I 
would like to point out that facts can be accurate but also 
irrelevant; in many of the things we do in the counterdrug 
business, there really is only one measure of effectiveness, 
and that is reduced use.
    All of the other things, the seizures and the number of 
people prosecuted, are all irrelevant if they fail to produce a 
reduction in use, and I need to emphasize that. When I look for 
effectiveness in what we do, the ultimate thing is to look for 
that benefit.
    I have prepared a bunch of graphics that I am not going to 
go through unless you ask specifically, but I would like to ask 
for them to be entered into the record, showing the three 
things that I came here to tell you.
    The first thing, which has already been said elegantly, is 
that drug use after a 10-year monotonic decline, has in recent 
years reversed. That is universal across all drugs.
    The second thing is that interdiction efforts----
    Senator DeWine. You say that is universal among all drugs?
    Dr. Rivolo. All drugs. All drugs, including alcohol, 
tobacco. It is really a social--now, one must look at the right 
population to make that statement, because if you simply pool 
everyone into a category over 12 years of age you are counting 
a lot of 60 and 70-year-old people that dilute the real 
measure. The drug problem resides in young people, and it is 
there that we need to focus.
    Senator DeWine. So your principal statement is what? Say it 
again.
    Dr. Rivolo. That drug use is on the increase, and that it 
is universal across all drugs, as measured where things count, 
which is in the young population.
    The second thing I am here to say is that interdiction 
efforts have been shown to be highly effective when properly 
focused, and I wish to emphasize properly focused.
    We have seen interdiction essentially stop the rapid fall 
of cocaine prices in the 1980's, ultimately arrest that drop, 
and actually reverse it. The reversals were significant, and 
during those reversals, more importantly, came a large number 
of benefits, including reduced deaths, reduced emergency room 
visits, reduced number of felons arrested for that drug, and so 
on.
    So the three basic points are that drug use is on the rise, 
and therefore the solutions we need to look at need to be 
effective. The only way to measure effectiveness is to measure 
a decrease in the prevalence of drugs, or the consequences of 
drugs.
    We can show, although in technical discussions only, that 
interdiction events can actually stop the falling prices, which 
are falling basically because of competition, and in some cases 
actually reverse them, and when prices reverse there are clear 
indications that the consequences of drug use--that is, the 
number of new initiatives, the number of people who show up in 
emergency rooms, the number of deaths, the number of people who 
test positive in our jails--all drop proportionately.
    It is really a solid argument from beginning to end that 
interdiction, when properly focused, and I again want to 
emphasize the focus, does have a benefit which is measurable in 
reduced consequences.
    That is my statement.
    Senator DeWine. Well, of course, that leads to the next 
question. What has your research found, or what have you found 
in regard to ``properly focused''? For policymakers, what do we 
need to know?
    Dr. Crane. In 1989, when the--and I am addressing the drug 
industry, which is cocaine, which is the one we know most 
about. I also might add, probably the biggest drug problem.
    In 1989, the basic route was from the producing country of 
Peru to the refining country of Colombia, and then out of 
Colombia, a straight line through the Caribbean at very, very 
low risk, landing into the shores of the United States.
    We knew that that was a clear place where we might have an 
effect, and when we mobilized, the Coast Guard essentially 
closed the Caribbean, closed the Bahamas, and the Caicos 
Islands, and we had for the next 18 months an enormous increase 
in the price of cocaine.
    Along with that price increase came a large reduction in 
emergency room visits, the number of deaths, and so on.
    We knew that the Caribbean was a place where interdiction 
efforts would be well-focused. That machinery remains in place 
today. If we go home, they will return to that.
    Senator DeWine. If we what? I just did not hear you.
    Dr. Crane. If we go home, if we just pack up and leave the 
Caribbean, we will go back to what it was in 1989. Since 1989, 
the drug industry has found an alternative. They formed a new 
industry, which was the transportation cartels, mostly 
dominated by Mexico, and the business now proceeds by growing 
region, refining region, transportation region, ultimately into 
the United States.
    But there is a price to be paid for that. The Mexicans 
charge 100 percent of the value of the drug for that service, 
and thereby the industry now has increased costs, which are 
either passed on to the consumer, which lowers the number of 
people who use, or they take reduced profits, and both of those 
things have, indeed, happened.
    We realized that early on, that that was the mechanism. 
From 1990 to about 1995 there were a few other events well 
understood that we can point out to you in detail, but in 1995, 
in March 1995, to be exact, an event evolved which we knew was 
going to be very well-focused, and that was the take-down of 
the air transportation bridge from Peru to Colombia.
    That was the only mode of transportation of raw materials 
to refiners. It was wide open, at zero risk.
    When the Peruvians agreed to take aggressive action, and 
aggressive action is, you ask someone to follow me and land, 
and when they do not, you shoot them out of the sky, and that 
is what the Peruvians did, within weeks, that bridge was shut 
down.
    Within weeks, actually within months, the consequences of 
that event were showing up in the streets of New York, where 
import prices had doubled. California was seeing the same 
thing, and in fact across the United States we had seen about a 
30 to 40 percent increase in price.
    And at the same time, when the data came in, which was 
years later, we saw that at that time we had reduced medical 
consequences, reduced prison test rates, and we have charts for 
all of that.
    Today, the Caribbean is shut down, the air bridge is shut 
down. Where is the focus? The focus is in Colombia, and I 
cannot emphasize that enough. The problem has concentrated into 
Colombia, and now, the only weak point that we can obviously 
see is in Colombia.
    That means either getting our presence into Colombia, or 
giving the Colombians a presence, which means air, air assault. 
They have neither one of those two capable of operating at the 
ranges in which Colombia finds itself. We are talking about 
600, 700 miles. The Colombians are not capable of handling that 
problem. They need some sort of assistance, either by us 
participating or by us giving them the tools and the training 
necessary.
    If we do that, if we shut down air operations in Colombia, 
you will shut down the cocaine industry and the heroin 
industry, which is more important at this point, because now we 
are seeing that because cocaine has become an unprofitable 
industry, heroin is now being substituted, by the very same 
organizations, grown right there in Colombia, because it is 
much lower risk. It is much easier to take a kilo or two of 
heroin than it is to take 500 kilos of cocaine.
    That is one place where we can increase risk. The other 
place is what Admiral Loy pointed out, that in the Caribbean, 
where the pressure is already immense, the risk is very high; 
the only way you are going to increase risk is not so much by 
putting more ships and airplanes there, but by changing the 
rules. If you shoot, not to kill necessarily, but if you shoot 
to stop boats, you will have an enormous change in the overall 
way the industry operates.
    That is what I mean by focused.
    Senator DeWine. Mr. Hinton, do you have any comments on 
that?
    Mr. Hinton. No, sir. I have not seen the results of their 
work that they have done that I could be in a position to 
comment.
    Senator DeWine. You talked earlier about basically the 
lesson learned in Peru, and I guess, Dr. Rivolo, extrapolate on 
that, or explain that. Is that correct?
    Dr. Rivolo. Yes, sir.
    Senator DeWine. That is what you were talking about is the 
lesson?
    Dr. Rivolo. Yes, sir.
    Senator DeWine. The change of operation in Peru, the air 
bridge.
    Dr. Crane. If you would look at the chart, I have got the 
prices in Peru of the raw base material averaged over time, and 
you can see, if you look around 1995, you see a large price 
increase in Peru. You see when interdiction stopped, the 
farmers produced a lot of base material, flooded the system, so 
you have to put a lot of stress on them.
    Once the air bridge was damaged in the interior of Peru and 
they were forced to use surface transportation, you can see 
that the base price and cost on the chart are about equal. This 
forces them to abandon the cocaine fields, and that has been 
observed in more recent years by satellite photography.
    Now, on top of the graph you see some of the prices in 
Colombia. If you were to interdict the Colombian air transport 
system, this would cause a large price increase and it would 
potentially be able to stop the ever-increasing coca farms that 
are being planted.
    As you recall on the map, the coca industry that affects 
the U.S. is concentrating itself, primarily in Colombia. That 
trend suggests that we are going into a smaller and smaller 
growing area, but it is also becoming a more and more difficult 
problem.
    The requirement, really--I think if you were to succeed at 
this--in Peru we were quite lucky. The example there was, we 
had two critical fighter bases at exactly the right places, 
where the traffickers had to exit the country. The results were 
achieved with as few as five or six fighter planes. I mean very 
modest resources, very good intelligence.
    In Colombia we do not have as good intelligence, so we are 
going to need surveillance aircraft, we are going to need a 
base--probably in the eastern sector that will be hard to 
defend.
    You do several of these kinds of things, and we should be 
able to cause severe damage.
    Now, by severe damage, I mean with the current rules of 
engagement, intercepting successfully and forcing to land as 
few as 3 or 4 percent will substantially damage the system 
under the current rules of engagement, so it is not a hopeless 
task by any means.
    It is not an easy task, however, because none of the 
infrastructure resources or assets are really available to do 
that.
    Senator DeWine. Mr. Hinton, the GAO has done numerous 
studies in the past several years regarding counternarcotics 
operations in the region. Your October 1997 study focused on 
interdiction efforts in the Caribbean and the Eastern Pacific. 
Can you walk us through the specific decreases in funds for 
interdiction since the late eighties and early nineties? Can 
you do that? Do you have that information in front of you?
    Mr. Hinton. Yes, sir.
    Senator DeWine. Can you just talk about which agencies have 
suffered the most cuts, maybe?
    Mr. Hinton. I do not have it down to that level, but I will 
comment basically on the graphic that you had up there this 
morning that showed the differences. Our work parallels that. 
We would agree basically with the differences after the mid-
nineties, where they dropped down into the teens on 
interdiction, and we saw that shift happening right after the 
1993 time period. What that really translated to, as to the 
Eastern Pacific and the Caribbean, was reduced flying hours, 
reduced steaming days and those type of things that did not 
allow interdiction to take place.
    And as I think about the issue of interdiction, there is no 
question that some level of interdiction needs to be 
maintained, maybe as a signal of our national resolve, but also 
a key part of the national strategy. I think the real test 
there is in determining the appropriate level of interdiction. 
The level of that effort should be commensurate with the 
relative contribution that interdiction is making or expected 
to make.
    In our work, we have been pushing ONDCP to come up with 
performance indices, and we heard the General talk about those 
this morning, and I am pleased. I think that is a good step.
    What I do not see yet as we look and hear discussion is 
whether the investment that we are making, whether it be 
enforcement, interdiction, and the other parts of it, is tied 
to the agencies' goals, and that we know we are going to get a 
return on our investment, and I think the key to that is the 
criteria to measure the goals.
    Senator DeWine. I lost you there, or you lost me. One of us 
got lost there. I guess I am lost. But what do you mean, as it 
relates to the agencies, under the performance standards?
    Mr. Hinton. Right. We heard the General lay out the goals 
this morning, and he said he was going through the budget 
process with all of the agencies and the key players, and now 
he is in the process of linking the resources to the goals, and 
as I look at it, whether it be regional goals or whether it be 
country goals, you a coordinated team that is going to 
implement them. How do those players interact to meet those 
goals? How do we know that we are having success on a 
particular region, or a particular country? What is the return 
on our investment going to be?
    I think that the goals that I have seen coming out of ONDCP 
are a step in the right direction. There are several that are 
quantifiable, there are several that are qualitative, and I 
think that, as he mentioned, that as a next step he hopes to 
have a better refinement of those indicators, which I think is 
positive.
    Senator DeWine. Dr. Crane, any other general 
recommendations as far as public policy, as far as knowing what 
interdiction is valuable and what is not? I mean, you made a 
blanket statement, then you gave a very specific example, but 
any other guidance for this committee, for Congress?
    Dr. Crane. To summarize the results, I think there are 
potential opportunities in the source zone to cause relatively 
large effects--that is, a substantial rise in prices and 
reduction in use.
    If you look at the testing rates, for example, in corporate 
America--we gather a lot of this type of data--there were large 
drops in positive testing rates when these attacks occurred on 
the cocaine system.
    So we use a lot of these measures that are much more 
refined than those used by ONDCP to look at specific 
operational events. They seem to suggest that there are really 
just three or four things in the source region that you can do. 
The first one, of course, is they require aircraft, and we 
should be able to maintain air control over some of these 
areas. We have got to do it if we want to have a successful 
strategy.
    The second thing is, while you are doing that, it forces 
them into efficiencies in their production labs. They cannot 
have them all distributed because it costs too much, so that 
gives you more lucrative targets in the production 
laboratories, which you then can strike with air assault 
forces.
    However, we should not be kidding ourselves here. The 
guerrilla forces in Colombia, the FARC, are operating at 
company and brigade-size level. We are looking at really 
relatively large military operations to survive these strikes.
    On the other hand, we have to do it. So if you first cutoff 
the air bridge, the money to the FARC gets cutoff. Then the 
potential increases to go after these labs, which they have go 
to consolidate.
    The third part of our research suggests that they have to 
consolidate efficiently the growing areas, and so there are 
certainly potentials to go after the fields themselves and make 
it difficult to plant them.
    All of these things have to be done in Colombia, in my 
opinion. They would have a significant effect on the cocaine 
business.
    Now, that said, there are still other operations. They 
still have to get it to the United States, and so we continue 
to use high technology and other things, and sufficient forces 
to cause a lot of damage.
    In the early eighties they were using all aircraft to bring 
it to the U.S. Very few aircraft, in comparison, are now used. 
However, they do adapt, and they do use other means, and so 
this always is a challenge to the interdiction coordinator.
    Senator DeWine. Gentlemen, thank you very much. This panel 
has been very helpful. We appreciate your testimony. We look 
forward to working with all of you in the future.
    [Whereupon, at 1:12 p.m., the committee adjourned.]


                            A P P E N D I X

                              ----------                              


                          Prepared Statements

                 Prepared Statement of Samuel H. Banks

    Mr. Chairmen and Members of the Committee and Caucus, I would like 
to thank you for your continued support and interest in the efforts of 
the U.S. Customs Service against the global scourge of drug 
trafficking.
    It is a pleasure to appear before the distinguished Committee and 
Caucus today to discuss S. 2341, the ``Western Hemisphere Drug 
Elimination Act,'' as it relates to the United States Customs Service, 
particularly our air and marine interdiction programs.
    As one of the agencies primarily involved in the Nation's drug 
interdiction and enforcement efforts, our mission is not only to 
disrupt the flow of illegal drugs through seizures and arrests, but 
also to dismantle drug organizations via investigations throughout our 
assigned areas of responsibility. Customs remains at the forefront of 
our Nation's narcotics interdiction and investigative efforts. Our 
foremost priority continues to be narcotics interdiction. Our counter-
narcotics efforts are focused in 3 areas: air interdiction, marine 
interdiction and interdiction at our land borders and ports of entry.
                              air program
    Comprised of 114 operational aircraft, the U.S. Customs Air Program 
is mandated to disrupt organizations that are smuggling drugs and other 
contraband into the United States by aircraft. This is accomplished 
through the utilization of a three-pronged, intelligence, interdiction 
and investigative approach. To this end, the Air Interdiction Division 
dedicates its resources throughout the hemisphere to detect, sort, 
intercept, track and ultimately apprehend traffickers and seize their 
contraband.
    Drugs coming to the United States from South America pass through a 
six million square-mile area that is roughly the size of the United 
States. This area, referred to as the Transit Zone, includes the 
Caribbean, Gulf of Mexico, and Eastern Pacific Ocean.
    Customs Double Eagle missions, a P-3 AEW flying in tandem with a P-
3 Slick, provide the most effective detection and monitoring package 
available. Flying together, these aircraft have effectively worked both 
air and maritime targets ranging from South American air bridge 
movements to high-speed go-fast boats in the Caribbean.
    Absent an effective air interdiction program, general aviation 
aircraft provide almost an ideal means for smuggling narcotics. Air 
transportation maximizes control of the load while maintaining the time 
and frequency of exposure and theft.
                             marine program
    Beginning in 1980, the Customs Service implemented a national 
marine program in response to the tremendous number of narcotics 
smuggling ventures being conducted in the U.S. Coastal waters. 
Comprised of 84 vessels, the U.S. Customs Marine Program is mandated to 
disrupt organizations that are smuggling drugs and other contraband 
into the United States by vessel. Customs has primary responsibility 
for interdicting illegal contraband in the arrival zone. Through its 
investigative efforts the Customs marine interdiction effort has 
targeted and disrupted various well organized and financed 
international smuggling organizations smuggling illegal contraband into 
the United States.
    Although the Customs Service coordinates with the U.S. Coast Guard 
and INS Border Patrol in conducting marine smuggling investigative and 
interdiction efforts, the Customs Service remains the only federal 
agency tasked with the primary goal of disrupting and dismantling 
smuggling organizations that are utilizing vessels to smuggle drugs and 
other contraband into the 19,943 kilometers of coastline around the 
U.S.
    In FY 1998 to date, the marine Program has been instrumental in the 
seizure of 37,222 pounds of cocaine, 38,211 pounds of marijuana, 39 
pounds of heroin and 85 pounds of methamphetamine.
                              land borders
    Technology plays an important role in all Customs counterdrug 
activities. It provides new capabilities to allow inspections to keep 
up with changing smuggling techniques, acts as a force multiplier, 
increases enforcement effectiveness and efficiency and allows us to 
cope with growing trade and traffic.
    The Administration has developed a comprehensive and structured 5-
year Customs technology plan to deploy counterdrug technology to the 
port of entry, subject to budget resources, to significantly increase 
the smugglers' risk of detection all along the entire Southern Tier of 
the U.S. This technology includes: non-intrusive technologies (e.g. 
fixed and mobile truck x-ray systems, gamma-ray inspection systems for 
trucks and railcars, and higher energy heavy pallet x-ray systems); 
technology for outbound currency and weapons at ports along the 
Southern Tier; dedicated commuter lanes which depend on technologies 
such as voice recognition biometric identification, ``smart cards" (a 
chip on a credit card-sized card which stores information about the 
individual), and vehicle movement control technologies along the 
Southwest border; investigative; intelligence, and encrypted, digital, 
voice communications technology; and automated targeting systems. 
Recent accomplishments in the development of new and larger-scale non-
intrusive inspection systems will provide Customs with the opportunity 
for unprecedented improvement in the intensity and number of inbound 
inspections of cargo and conveyances.
    Customs currently operates five truck x-ray systems in El Paso, 
Ysleta, and Pharr, Texas and Otay Mesa and Calexico, California. In 
addition, prototype mobile truck x-ray systems are operating in Laredo, 
Texas and Miami, Florida. One prototype gamma-ray system is in place at 
Santa Teresa, New Mexico. The prototype gamma-ray system uses gamma-ray 
radiation to penetrate the structure of heavier-bodied trucks, such as 
propane tankers, to allow Customs to examine both the conveyance and 
some cargoes for the presence of contraband. The first truck x-ray 
system became operational in July 1994. This system and the four others 
that have become operational since March 1997 have been involved in 315 
drug seizures totaling over 70,000 pounds of narcotics. By December of 
1998, Customs will have three additional fixed site truck x-ray systems 
operational in Laredo and Brownsville, Texas, and Nogales, Arizona.
    We believe this type of technology is invaluable in enhancing 
Customs narcotics enforcement capabilities without impeding the flow of 
legitimate commercial traffic. The fixed site truck x-ray and mobile 
truck x-ray can inspect approximately eight full size tractor trailer 
trucks per hour. The gamma-ray system can inspect 12-15 tractor trailer 
trucks per hour. Both of these systems can inspect any vehicle that is 
legal for operation on public roadways. Mobile x-ray systems will also 
be available for use at border patrol checkpoints along the Southwest 
border. The first mobile x-ray has been responsible for seizing over 
6,000 pounds of narcotics in the past year.
    This combination of flexible interdiction support will force the 
smugglers to utilize other, less desirable, means of smuggling.
                               conclusion
    Once again, Customs remains at the forefront of our Nation's 
narcotics interdiction and investigative efforts. Our foremost priority 
will continue to be narcotics interdiction.
    This concludes my statement for the record. Thank you again for 
your continued support of the United States Customs Service and the 
opportunity to appear before the distinguished members of the Committee 
and Caucus.

                                 ______
                                 

              Prepared Statement of William R. Brownfield

    Mr. Chairman, Members:
    It is a pleasure to present to these committees the views of the 
Department of State concerning S. 2341, the ``Western Hemisphere Drug 
Elimination Act.''
                                general
    The Department finds many things about this measure that are very 
positive, and very important. The single most important thing about it, 
and about these hearings today, is the breadth and depth of truly 
bipartisan support for effective measures to reduce the availability in 
the United States of illegal drugs that originate in other countries. 
The extent of the damage done by illegal drugs to our country is 
manifest from the fact that the Administration's requests for funding 
of programs and activities by Federal departments and agencies against 
illicit drug abuse, trafficking and production have mounted to over $17 
billion for Fiscal Year 1999.
    Those of us that spend our professional lives implementing some 
aspect of those programs realize that the American people want and 
desperately need us to succeed. They have a right to expect our utmost 
efforts. We recognize that we can do nothing without the strong support 
of the Congress. This measure is an important further demonstration of 
how strong and broad that support is. We who carry out these programs 
cannot help but welcome this.
    This measure further reflects the realistic recognition by the 
Congress that our overall efforts to reduce the abuse of drugs and its 
consequences for the American people, and the specific efforts of the 
agencies on this panel to reduce the availability of illegal drugs that 
originate beyond our borders, cannot work on will or wishes alone. 
These activities take money, and some of the more highly technical and 
resource-intensive of them take a lot of money. In light of the 
staggering costs of illegal drug abuse and the crime and violence that 
attend it, money devoted to these ends is money well spent. But we 
must, and this measure does, recognize that money we must have.
    The measure further specifies that the activities it seeks to 
advance, and the money to support those activities, should not come at 
the expense of our existing programs and funding for drug control. This 
too is entirely realistic, and important. Within the overall design 
provided by our National Drug Control Strategy, the Department of State 
and other agencies engaged in drug control activities at and beyond our 
borders seek to define and implement balanced, comprehensive and 
integrated programs to reduce the production and traffic in drugs. 
Additional resources to augment those activities cannot help but 
increase our prospects and advance the imminence of our success. Trying 
to gain the same end by robbing Peter to pay Paul would only disrupt 
and retard our programs, or so unbalance them as to actually reduce our 
chances of success.
    This measure addresses funding for drug control activities on a 
multi-year basis. The Department of State entirely agrees that 
strategic priorities for drug control activities, and funding for their 
implementation, must be established and sustained in a way that is 
persistent over time. The drug addict on the street of an American city 
does not go to Peru, Burma or Mexico for his product. He--and she--is 
supplied by a huge multinational agro-industrial complex that is as 
global, complicated and lucrative as wheat, petroleum, information 
technology or any other globally-traded products or services. Like 
other multinational enterprises, the illegal organizations that deal in 
drugs of abuse seek to diversify, functionally and geographically, to 
reduce risk and maximize profits. They invest and operate, adapt to 
changing business conditions created by our efforts against them, and 
invariably seek to outlast whatever governments do.
    We support the objectives outlined in S. 2341. But we must be 
realistic in setting our timelines. Is it realistic to expect an 
illegal multinational agro-industry with the size and complexity of the 
several illegal drug industries to be diminished substantially by 
December 2001? The National Drug Control Strategy addresses programs 
for the reduction of the supply of and demand for illicit drugs through 
comprehensive programs against illicit drug production, trafficking and 
abuse, within the United States, at our frontiers and beyond them, in 
terms of five- and ten-year timeframes. The Department of State 
considers these periods to be realistic timeframes within which such 
activities can be expected to provide objective, quantifiable and 
measurable outcomes.
     interdiction activities indispensable to drug control success
    I will turn shortly to discuss in more detail some specific aspects 
of the legislative measure under consideration here. It addresses many 
aspects of our foreign programs against the production and traffic in 
illicit drugs, but strongly emphasizes activities oriented to the 
detection and interdiction of illicit drugs as they are smuggled by 
air, sea or land toward and across our borders. Our National Drug 
Control Strategy clearly recognizes that interdiction of illicit drugs 
is an indispensable and integral element of our national efforts. These 
programs are an important, visible demonstration of our nation's will 
to fight illegal drug trafficking. They have political value as a 
demonstration of national will. They have practical value, in addition 
to intercepting and seizing illegal drug shipments, by serving also as 
a deterrent, increasing the costs and risks of smuggling drugs toward 
and into the United States.
    The Department of State is not, as such, an interdiction agency. It 
does not itself run large interdiction operations. The Department of 
State is, however, the inevitable partner to the interdiction agencies 
to enable them to carry out those activities which, as so many do, 
entail securing the consent, cooperation or independent action by other 
governments for activities carried out abroad. The Department has taken 
many actions, and operated many programs and projects, that have 
contributed importantly to the success of interdiction programs and the 
agencies that fund and operate them, and will continue to do so.
    International Narcotics Control foreign assistance funding support 
has been important to sustain cooperative actions by the Bahamas and 
Turks and Caicos Islands under OPBAT, and with other Caribbean nations 
and territories. This program sustains the transit zone-wide Joint 
Information Coordination Center or ``JICC'' program in cooperation with 
the U.S. Government's El Paso Intelligence Center. This support was 
instrumental to interdiction success in Guatemala of Operation 
``Cadence'', in which Guatemalan authorities in cooperation with DEA 
virtually hounded cocaine transit activities out of the country. The 
Department of State, in conjunction with DoD, the Coast Guard and DEA, 
has promoted establishment of maritime counterdrug agreements in the 
Caribbean region which give U.S. enforcement agencies rapid access to 
suspected drug trafficking vessels, and encourage cooperation by other 
government authorities in these efforts.
    These activities, along with our strong support for cooperation 
with the Government of Mexico, directly support the interdiction 
programs that respond to Goal IV of our National Drug Control Strategy, 
to protect our air, land and sea frontiers from smuggling of illegal 
drugs. Further from our borders, in countries where the crops that are 
the raw material from which the botanical-source drugs of abuse, 
cocaine, heroin and marijuana are derived, we are making other efforts 
in response to Goal V of the National Strategy, to break foreign drug 
sources of supply. To break foreign sources of supply, we must break 
the production of these crops at their roots. In the specific case of 
cocaine, the only sources of supply are in the three Andean countries 
in South America, Colombia, Peru and Bolivia. Acting in cooperation 
with the governments of those countries to eliminate the production of 
coca that is the raw material for illegal cocaine was defined as an 
important drug control and foreign policy priority for us by the 
President's policy directive on drug control in the Western Hemisphere, 
Presidential Decision Directive 14 of November 1993.
    In accordance with this directive, the Department of State and the 
Chiefs of Missions and U.S. Government agencies represented in the 
Country Teams of those three countries have defined and are 
implementing comprehensive programs intended to reduce and ultimately 
eliminate the cultivation of coca destined for the production of 
illicit drugs that will be smuggled to the U.S. These efforts have 
included cooperation by the Departments of State and Defense, the U.S. 
Customs Service, Coast Guard, DEA and other agencies to extend our 
direct support selectively to limited, cost-effective efforts by the 
source countries to interdict cocaine exports or movements within or 
among them. We note and welcome the fact that one of the largest single 
items in the measure now under discussion addresses specifically this 
category of U.S. Government programs.
    This class of U.S.-supported source country interdiction has a 
fundamentally different strategic purpose. Our border and near-border 
interdiction programs are the right and responsibility of any 
government to protect the integrity of its borders and the security of 
its citizens within them. Our support of source country interdiction 
efforts is not intended to simply seize or destroy drugs, or arrest 
smugglers. It is intended more strategically to attack the economic 
activity of the illegal drug industry within the source countries 
themselves. These programs, with other drug law enforcement activities 
of the foreign governments and concerned U.S. agencies, are intended to 
so disrupt the illegal drug industry as to make it possible on a long-
term basis to reduce and eliminate cocaine production at the source.
    The Congress has participated directly and importantly in this 
aspect of our international efforts in the past, by approving 
legislation in 1994 which authorized the President, subject to 
appropriate safeguards, to make available to selected source countries 
the benefits of U.S. interdiction technology, intelligence and skill. 
Since December 1994, this has been the basis for our direct support of 
and cooperation with actions by Peruvian and Colombian authorities to 
interdict exports of semi-refined cocaine base by air from Peru to 
Colombia.
    This effort, in the context of the other elements of comprehensive 
national plans by each country, has enjoyed success beyond the 
expectations of many that advanced it, and entirely out of proportion 
to the relatively limited U.S. support involved. Cocaine flown by air 
identified as moving from Peru to Colombia dropped to half or less than 
the levels of air movement observed in 1994. Drug traffickers' 
inability to make ``just-in-time'' export flights created local 
oversupplies at the production points in Peru, which caused prices paid 
to primary growers to drop precipitously to levels half or less than 
half of those of a year or two before. Farmers, no longer able to 
anticipate a reliable income, abandoned growing coca in droves. Net 
coca cultivation in Peru in 1997 is only a bit more than half the 
extent it had when it reached its maximum recorded level, in 1992.
    This was not accomplished by interdiction alone. It required many 
other elements of a comprehensive, integrated national approach, most 
significantly alternative development assistance. Maintaining this 
validated successful coca crop reduction concept in Peru, and 
establishing and sustaining other concepts appropriate to the greatly 
differing circumstances in the other two countries, will require 
continued foresight, imagination, careful planning, great 
perseverance--and sustained funding. However, in this success, the role 
of source country interdiction, and our support of it, was one of the 
indispensable elements. Without it, we are utterly certain, the success 
could not have occurred. Successes in drug control have not been as 
frequent as we would wish. This success was made possible only by the 
cooperation of the U.S. interdiction agencies, the Department of State, 
other concerned U.S. agencies and the governments concerned. It offers 
much promise for the continued imaginative employment of interdiction 
capabilities, in the source zone as well as in the transit and border 
regions, to attain our long-term national drug control goals.
                    legal and organizational concern
    Before I turn briefly to some specific aspects of S. 2341, I would 
like to identify one aspect of that measure that relates specifically 
and only to the Department of State, which the Administration considers 
infringe unacceptably upon the authority and responsibilities of the 
President and the Secretary of State. I refer to Section 206 of S. 
2341.
    Section 206(a) would legislatively prescribe certain prerequisites 
for an individual nominated by the President to serve as Assistant 
Secretary of State for International Narcotics and Law Enforcement 
Affairs. As a matter of principle, the Department of State believes 
that the Secretary of State's flexibility in personnel matters, and the 
President's appointment prerogatives, should be respected and protected 
to the maximum extent possible. The Assistant Secretary and Principal 
Deputy should have wide experience and expertise in policy development 
and implementation, and should be able to work with the Department's 
senior management, the regional and functional bureaus, and other 
agencies. The particular restriction that would be established by 
Section 206(a) would be totally inconsistent with this principle. 
Section 206(b) would intrude inappropriately upon well established and 
effective procedures for the management and implementation of United 
States foreign military assistance programs that have been 
cooperatively employed by the Departments of State and Defense. We urge 
that in any consideration of legislation on this subject, these 
provisions be excluded.
                        alternative development
    Referring to Sections 201, 202 and 203, as I described earlier, we 
consider that economic assistance that is delivered to rural 
populations responsible for the cultivation and primary processing of 
coca for the defined and specific purpose of causing them to abandon 
coca cultivation and thereby reduce the net extent of the crop has been 
an element as important as that of interdiction programs in the 
striking success of reduction of the coca crop in Peru in recent years. 
Such ``alternative development'' assistance is recognized by Peru's 
national drug control strategy, and that of other countries, as a vital 
element in attaining those countries' goals, and ours, of eliminating 
the cultivation of coca destined for illicit drug production. Our 
efforts to secure participation in these efforts by other donors, and 
to ensure that alternative development assistance intended for drug 
control is in fact designed to attain the project purpose of reducing 
drug crop cultivation, are an important element in our continuing 
diplomatic dialogue with other donor nations.
    The Department strongly favors the principle of augmenting United 
States Government resources available for alternative development and 
related counternarcotics programs in Colombia, Peru and Bolivia. 
However, we question the prudence of establishing rigid categories in 
the law itself that specify the precise use of such resources. In the 
absence of opportunity to consult with the foreign governments 
concerned, this approach could place the President in a position of 
being authorized to use funds for a purpose which the cooperating 
foreign government would not accept. S. 2341 makes no provision for 
securing from the cooperating foreign governments appropriate 
commitments regarding the employment of adequate personnel and other 
support resources, the provision of sustainment support beyond the term 
of this law, or the manner in which the United States may ensure that 
such assistance is effectively and appropriately used.
                                 mexico
    Another specific aspect of S. 2341 whose formulation is questioned 
seriously by the Department of State is Section 204, relating to 
Mexico. The Department considers that references to privileges or 
immunities of United States Government officials in Mexico in a United 
States legislative measure relating to drug control assistance to 
Mexico would almost certainly render it less, not more, likely that the 
United States can resolve the matter of assuring the appropriate and 
effective protection of its officials in Mexico through continued 
consultation with the Government of Mexico. Unilateral legislation by 
the United States Congress on this subject could prompt a political 
response within Mexico that would constrain the ability of the 
Government of Mexico to offer continued cooperation with the United 
States on a variety of other drug control issues of common concern.
    S. 2341 also calls for providing the Government of Mexico with 
additional helicopters. Mexico has in the inventory of its Attorney 
General's Office (PGR) Directorate General of Aviation Services, and 
Air Force, a number of Bell 212 helicopters which we believe is 
sufficient to meet opium eradication requirements at this time. What it 
lacks are adequate funds to support the operation and maintenance of 
those helicopters. It would thus serves little programmatic purpose 
commensurate with their cost, and would not enlarge the total number of 
Bell 212 flight hours available for this mission category, for the 
United States to offer additional helicopters whose employment would 
only further attenuate the resources available to sustain the Bell 212 
helicopters now in operation.
                international law enforcement academies
    Referring to Section 401, the Department in principle favors the 
establishment and operation of additional international law enforcement 
academies in Latin America, Asia and Africa. The existing International 
Law Enforcement Academy in Budapest, serving Europe and Russia/NIS, 
operates effectively with funding by the Department of State from 
foreign assistance funds provided for international criminal justice, 
rather than drug control, as a cooperative activity with participation 
and support of the Federal Bureau of Investigation and other Federal 
law enforcement agencies. We see these activities continuing well 
beyond December 2001. We also question the wisdom of setting precise 
funding for each that does not take into account their specific needs. 
The Department of State therefore suggests that it would be preferable 
instead to attain this purpose by corresponding augmentation of the 
portion of the foreign assistance authorization that is devoted to 
programs in the criminal justice sector.
               legislative means inappropriate to purpose
    Mr. Chairman, I have discussed the general matter of how 
interdiction programs can contribute to our foreign drug control goals 
of protecting the integrity of our frontiers and eliminating foreign 
drug sources of supply, and I have discussed some substantive aspects 
about certain other specific features of S. 2341. The Department of 
State considers that such dialogue between the Congress and the 
Executive Branch is a vital element in the elaboration and sustainment 
of our national drug control programs abroad.
    However, I wish to close my presentation with a serious concern 
about S. 2341.
    Our long experience has shown us conclusively that the 
multinational illegal drug industry is highly and rapidly adaptive, 
probably outpacing the adaptability of any legal industry I could name. 
Illegal international movement of drugs is by definition an itinerant 
activity. Criminals engaged in this traffic change operating practices 
with great rapidity in response to actions of government authorities to 
prevent them. Equally rapid adaptation of government programs, 
particularly programs for detection, monitoring and tracking of the 
nature addressed here, is indispensable to prevent successful 
circumvention by illegal activities.
    Moreover, our drug control activities abroad cannot be carried out 
without the fullest consultation, coordination and cooperation with the 
foreign governments concerned. It is not infrequent that the United 
States suggests the use of drug control assistance in a manner or for a 
purpose which the cooperating foreign government does not accept. 
Further, to effectively protect United States funds employed to assist 
other governments in drug control activities, it is necessary through 
consultation and negotiation to secure from those governments 
appropriate commitments regarding the employment of adequate personnel 
and other support resources, the provision of sustainment support 
beyond the term U.S. assistance, and the manner in which the United 
States may ensure that such assistance is effectively and appropriately 
used. The Congress has historically attached great importance to such 
monitoring of our assistance abroad, especially with regard to human 
rights.
    It is unrealistic to expect that every individual aspect of such a 
highly complex and specific authorization will prove feasible and will 
be recognized as remaining desirable. Yet the absence from S. 2341 of 
any provision for reprogramming would make it impossible to reallocate 
resources to meet emerging priorities without amending the law itself 
on each and every occasion when such an adjustment was observed to be 
necessary.
    Specification in the law of individual operating points or areas 
for specific types of counterdrug activities would provide those 
engaged in those activities with a detailed plan, well in advance of 
its implementation, as to how the preponderance of U.S. interdiction 
and other drug control activities would be carried out. It seems 
prohibitively likely that by the time material could be procured, 
agreements reached with concerned foreign governments, personnel and 
other assets deployed, training and planning conducted, and 
implementation of activities begun, the target illegal drug activity 
would long since have redeployed itself to an area which the 
authorizing law did not address.
    Authorization of funds or activities for purposes already addressed 
by existing authorities or activities of other departments or agencies 
would be confusing, redundant and would attenuate the regime of legal 
and policy controls which the Congress has desired the Executive to 
implement to provide adequate assurance that United States national 
human rights and other policies are observed, and that waste, fraud, 
abuse or mismanagement of funds or resources provided by the United 
States be prevented on a continuing basis.
    In short, while we find very many positive things contained in S. 
2341, we consider very strongly that the legislative approach adopted 
in that measure would not in fact advance, and in some instances could 
actually impede, the effective advancement of those desirable purposes 
or activities.
    Virtually all of the specific activities that are addressed by S. 
2341 are already possible under existing departmental or agency 
authorities. Many are already established elements of agency programs, 
and are being funded from appropriations now being provided for these 
purposes. Congress and the Executive have developed a comprehensive set 
of procedures relating to notifications, consultation and continuing 
coordination with the Congress in the elaboration of specific plans, 
programs and activities for which such funds will be employed, and have 
a comprehensive regime of mechanisms, controls and reporting procedures 
to account to the Congress for the disposition and use of resources 
employed for foreign drug control activities.
    The Department applauds the objectives reflected in S. 2341. The 
Department considers, however, that the most effective means of 
attaining those ends would be to provide defined multi-year 
authorizations for appropriations to the International Narcotics 
Control element of the foreign assistance program, and to the 
established budgets of the other departments and agencies concerned. 
The President should be permitted to employ funds appropriated in this 
manner in accordance with existing and effective program planning and 
financial management systems and procedures, which will ensure to the 
Congress a continuing consultative role, without the undesirable and 
imprudent particularism, lack of adaptability, confusion and potential 
redundancies to which the approach taken by S. 2341 would lead.
    In short, the best way to attain the very desirable ends that S. 
2341 seeks to advance is for the Congress to first, ensure that 
existing programs and activities in this area are fully funded at the 
levels now requested by the Administration, and then second, to augment 
those levels as may be fiscally responsible, to further enhance our 
ability to gain the very desirable purposes that S. 2341 seeks to 
serve.
    Mr. Chairman, this concludes my prepared comments. will welcome any 
questions you may have. Thank you.
                                 ______
                                 

             Prepared Statement of Senator Alfonse D'Amato

    This hearing on U.S. efforts to eliminate drugs in the Western 
Hemisphere comes on the heels of a disturbing report concerning illegal 
narcotic use among our young people. I thank the Chairmen for holding 
this timely hearing that renews our obligation to the international 
eradication and interdiction of illegal narcotics.
    Illegal drug use by our children and youth is taking an enormous 
toll on families and communities all over the country. A study released 
by the National Institute on Drug Abuse found that cocaine and 
marijuana use among high school seniors has increased 80% since 1992. 
More alarming however is that heroin use among 12th graders doubled.
    The effects of drugs are astounding. It is estimated that drug 
related illness, death and crime cost the United States approximately 
$67 billion a year. That is $1,000 for every man woman and child in 
America. The resources we spend to combat the effects of drugs could 
have been used for social and economic development. After decades of 
trying to combat the scourge of drugs, we must finally put a stop to 
it.
    New York State is no stranger to the plight created by illegal 
drugs. Last year, almost 40% of the heroin seized at our international 
borders was seized in the New York metropolitan area. This 
disproportionate amount of drugs destined for New York communities 
underscores my intentions to do what is necessary to end the flow of 
drugs into our country.
    An effective counter-narcotics control strategy should be balanced 
and coordinated--including interdiction, prevention and law 
enforcement. However, one thing is certain, we cannot ignore the 
interdiction-side of a drug control strategy, both here in the U.S. and 
abroad. Unfortunately, there has been a disturbing trend in recent 
years indicating a decline in the importance of interdiction in the 
U.S. counter-drug strategy. Since 1987, the percentage of the national 
drug control budget earmarked for interdiction and international 
efforts has decreased from 33% to just 12%.
    In order to obtain a global victory against drugs, we must work to 
contain and lessen the damage inflicted by drugs. The Western 
Hemisphere Drug Elimination Act of 1998, which I am co-sponsoring, is a 
comprehensive eradication, interdiction and crop substitution strategy. 
This $2.6 billion authorization initiative will make supply reduction a 
priority again--guaranteeing valuable equipment for our law 
enforcement, including speed boats at least as fast as those belonging 
to the drug lords. Our radars and early warning aircraft must be 
improved so that they will detect elusive planes that smuggle tons of 
narcotics destined for our streets. It will also allow for extensive 
training and crop eradication in drug source countries.
    This initiative recognizes that drug availability can be decreased 
by operating against every step in the drug process--from the growing 
fields to the clandestine laboratories to the trafficking. We must work 
with reputable law enforcement in narcotic source countries and invest 
in training for counter narcotics programs which eradicate drugs at 
their origin.
    I would again like to thank the chairmen for calling this hearing 
which sheds lights on an urgent deficiency within our national narcotic 
control strategy. This initiative will restore balance to the strategy 
and make significant inroads towards keeping drugs from reaching our 
neighborhoods.

                                 ______
                                 

                Prepared Statement of Senator Bob Graham

    Thank you Mr. Chairman, and thank you for holding this hearing to 
shed some light on one of the most serious issues facing our nation: 
the alarming increase in the number of Americans, particularly 
children, who are using illegal drugs. This increase started in 1992 
after more than a decade of declining drug use.
    We all agree that the statistics on this are very troubling. The 
question now before us is what should Congress and the nation do to 
reverse this disturbing trend. In recent years, we have approved large 
increases for domestic law enforcement and demand reduction, which 
together account for more than 87% of our counter-drug budget, leaving 
only 13% for interdiction and supply reduction activities.
    In order to address this imbalance, we have proposed the Western 
Hemisphere Drug Elimination Act of 1998, which will significantly 
strengthen our interdiction and supply reduction efforts, without any 
reduction in domestic law enforcement or demand reduction. I appreciate 
the willingness of our witnesses to provide us with their input on how 
to address the funding imbalance, and to suggest ways that we can 
improve our legislation.
    The goal of our bill is to reduce the flow of cocaine and heroin 
into the U.S. by 80 percent in three years. This is accomplished by 
providing more funding to those doing the heavy lifting in this fight--
the Coast Guard, the Customs Service, the Drug Enforcement 
Administration, and the Department of Defense.
    What is needed is a focus on resources in a more comprehensive way 
to protect the entire southern frontier, not just the southwest border 
rather than south Florida, and vice versa. The previous pattern of 
shifting resources from one part of the country to another has achieved 
a degree of qualified success, but drug smugglers quickly recognize the 
weakness in the area deprived of assets, and they shift accordingly. By 
providing improved funding levels, we will enhance our ability to 
establish a uniformed degree of coverage across the entire southern 
tier.
    On June 22 of this year, I chaired a field hearing in Miami on 
behalf of the Senate Caucus on International Narcotics Control to 
examine the flow of drugs into the United States through the Caribbean 
into Florida. We held the hearing on the deck of a U.S. Coast Guard 
Medium Endurance Cutter called the Valiant; which had just returned 
from a seven week counternarcotics patrol in the Caribbean.
    We selected the Coast Guard venue to underscore a number of very 
important facts which describe the United States' current strategy to 
fight the drug war. One of our principal interdiction forces--the 
United States Coast Guard--is conducting its mission on vessels such as 
the Valiant, a ship that is more than 30 years old, with an equally 
antiquated surface search radar. The Coast Guard needs new ships and 
newer radars. As I approached the Valiant, I noticed that there were a 
number of weapons systems on board, including two .50 caliber machine 
guns and a 25mm chain gun. These weapons reminded me that this effort 
is indeed a war. Despite the words of some officials who prefer not to 
characterize the effort as such, it is indeed. We are fighting a well-
organized, financed, and determined enemy whose objective is to 
inundate our Nation with a chemical weapon which demeans, degrades, and 
defeats the most precious asset we have-our people. What more do we 
need to know to energize ourselves to fight back?
    The individuals who testified at the field hearing painted a very 
disturbing picture. Consider the following facts:

          The United States Southern Command cannot maintain adequate 
        radar and airborne early warning coverage of the region or 
        sustain the right number of tracker aircraft to perform its 
        mission to provide counterdrug support to states in South 
        American and the Caribbean.
          The Joint Interagency Task Force East, located in Key West, 
        Florida, does not know the extent of narcotics trafficking in 
        the Eastern Pacific because the Department of Defense has not 
        provided the necessary assets to conduct the required Detection 
        & Monitoring mission.
          The Coast Guard had to end a very successful counternarcotics 
        operation in the Caribbean, OPERATION FRONTIER LANCE, because 
        of a lack of federal funding.
          The United States Customs Service is limited in its ability 
        to capture drug runners in go-fast boats because of a lack of 
        funds to procure newer and faster boats, as well as a lack of 
        personnel to adequately maintain those currently in service due 
        to lack of federal funding.
          The Drug Enforcement Administration lacks sufficient special 
        agents in the Caribbean, as well as accompanying administrative 
        and intelligence personnel, because the DEA does not have 
        sufficient funds to hire and retain these individuals.

    If there is a trend underlying all these problems, it is the lack 
of federal funds being made available to those agencies responsible for 
performing the supply reduction component of the drug war. I am 
committed to seeing that more is done, and this legislation goes a long 
way towards achieving our goals. I look forward to hearing from our 
witnesses to get their ideas on how best to restore balance to our 
counternarcotics strategy. I believe we can make a difference in this 
war, and the time to make that difference is now

                                 ______
                                 

               Prepared Statement of Henry L. Hinton, Jr.

    Mr. Chairmen and Members of the Subcommittee and Caucus:
    I am pleased to be here today to present our observations on the 
effectiveness of U.S. efforts to combat the movement of drugs into the 
United States. My statement discusses the (1) challenges of addressing 
international counternarcotics issues and (2) obstacles to implementing 
U.S. and host-nation drug control efforts. My testimony is primarily 
based on our recent reports concerning U.S. counternarcotics efforts in 
the Caribbean, Colombia, and Mexico.\1\
---------------------------------------------------------------------------
    \1\ Drug Control: U.S.-Mexican Counternarcotics Efforts Face 
Difficult Challenges (GAO/NSIAD-98-154, June 30, 1998); Drug Control: 
U.S. Counternarcotics Efforts in Colombia Face Continuing Challenges 
(GAO/NSIAD-98-60, Feb. 12, 1998); Drug Control: Update on U.S. 
Interdiction Efforts in the Caribbean and Eastern Pacific (GAO/NSIAD-
98-30, Oct. 15, 1997).
---------------------------------------------------------------------------
                                summary
    Our work over the past 10 years indicates that there is no panacea 
for resolving all of the problems associated with illegal drug 
trafficking. Despite long-standing efforts and expenditures of billions 
of dollars, illegal drugs still flood the United States. Although U.S. 
and host-nation counternarcotics efforts have resulted in the arrest of 
major drug traffickers and the seizure of large amounts of drugs, they 
have not materially reduced the availability of drugs in the United 
States. A key reason for the lack of success of U.S. counternarcotics 
programs is that international drug-trafficking organizations have 
become sophisticated, multibillion-dollar industries that quickly adapt 
to new U.S. drug control efforts. As success is achieved in one area, 
the drug-trafficking organizations quickly change tactics, thwarting 
U.S. efforts.
    Other significant, long-standing obstacles also impede U.S. and 
source and transit countries' \2\ drug control efforts. In the drug-
producing and transiting countries, counternarcotics efforts are 
constrained by corruption; limited law enforcement resources and 
institutional capabilities; and internal problems such as insurgencies 
and civil unrest. Moreover, drug traffickers are increasingly 
resourceful in corrupting the countries' institutions.
---------------------------------------------------------------------------
    \2\The major source countries for cocaine are Bolivia, Colombia, 
and Peru. The major source nations for heroin in the Western Hemisphere 
are Colombia and Mexico. The major drug transit areas include Mexico, 
the Caribbean, the eastern Pacific, and Central America.
---------------------------------------------------------------------------
    Some countries, with U.S. assistance, have taken steps to improve 
their capacity to reduce the flow of illegal drugs into the United 
States. Among other things, these countries have taken action to 
extradite criminals; enacted legislation to control organized crime, 
money laundering, and chemicals used in the production of illicit 
drugs; and instituted reforms to reduce corruption. While these actions 
represent positive steps, it is too early to determine their impact, 
and challenges remain.
    U.S. counternarcotics efforts have also faced obstacles that limit 
their effectiveness. These include (1) organizational and operational 
limitations, and (2) planning and management problems. Over the years, 
we have reported on problems related to competing foreign policy 
priorities, poor operational planning and coordination, and inadequate 
oversight over U.S. counternarcotics assistance. We have also 
criticized ONDCP and U.S. agencies for not having good performance 
measures to evaluate results. Our work has identified ways to improve 
U.S. counternarcotics efforts through better planning, sharing of 
intelligence, and the development of measurable performance goals.
                               background
    Illegal drug use, particularly of cocaine and heroin, continues to 
be a serious health problem in the United States. According to the 
Office of National Drug Control Policy (ONDCP), drug-related illness, 
death, and crime cost the nation approximately $67 billion annually. 
Over the past 10 years, the United States has spent over $19 billion on 
international drug control and interdiction efforts to reduce the 
supply of illegal drugs. ONDCP has established goals of reducing the 
availability of illicit drugs in the United States by 25 percent by 
2002 and by 50 percent by 2007.
    ONDCP is responsible for producing an annual National Drug Control 
Strategy and coordinating its implementation with other federal 
agencies. The 1998 National Drug Control Strategy includes five goals: 
(1) educate and enable America's youth to reject illegal drugs as well 
as alcohol and tobacco; (2) increase the safety of U.S. citizens by 
substantially lowering drug-related crime and violence; (3) reduce 
health and social costs to the public of illegal drug use; (4) shield 
America's air, land, and sea frontiers from the drug threat; and (5) 
break foreign and domestic drug supply sources. The last two goals are 
the primary emphasis of U.S. interdiction and international drug 
control efforts. These are focused on assisting the source and 
transiting nations in their efforts to reduce drug cultivation and 
trafficking, improve their capabilities and coordination, promote the 
development of policies and laws, support research and technology, and 
conduct other related initiatives. For fiscal year 1998, ONDCP 
estimated that about 13 percent of the $16 billion federal drug control 
budget would be devoted to interdiction and international drug control 
activities--in 1988, these activities represented about 24 percent of 
the $4.7 billion federal drug control budget.
    ONDCP also has authority to review various agencies' funding levels 
to ensure they are sufficient to meet the goals of the national 
strategy, but it has no direct control over how these resources are 
used. The Departments of State and Defense and the Drug Enforcement 
Administration (DEA) are the principal agencies involved in 
implementing the international portion of the drug control strategy. 
Other U.S. agencies involved in counternarcotics activities overseas 
include the U.S. Agency for International Development, the U.S. Coast 
Guard, the U.S. Customs Service, various U.S. intelligence 
organizations, and other U.S. agencies.
challenges in stemming the flow of illegal drugs into the united states
    Over the past 10 years, the U.S. agencies involved in 
counternarcotics efforts have attempted to reduce the supply and 
availability of illegal drugs in the United States through the 
implementation of successive drug control strategies. Despite some 
successes, cocaine, heroin, and other illegal drugs continue to be 
readily available in the United States.
    According to ONDCP, the cocaine source countries had the potential 
of producing about 650 metric tons of cocaine in 1997. Of this amount, 
U.S. officials estimate that about 430 metric tons were destined for 
U.S. markets, with the remainder going to Europe and elsewhere. 
According to current estimates, about 57 percent of the cocaine 
entering the United States flows through Mexico and the Eastern 
Pacific, 33 percent flows through the Caribbean, and the remainder is 
moved directly into the United States from the source countries. 
According to ONDCP estimates, the U.S. demand for cocaine is 
approximately 300 metric tons per year.
    According to DEA, Colombia was also the source of 52 percent of all 
heroin seized in the United States during 1996. The current U.S. demand 
for heroin is estimated to be approximately 10 metric tons per year.
      drug-trafficking organizations have substantial resources, 
               capabilities, and operational flexibility
    A primary challenge that U.S. and foreign governments' 
counternarcotics efforts face is the power, influence, adaptability, 
and capabilities of drug-trafficking organizations. Because of their 
enormous financial resources, power to corrupt counternarcotics 
personnel, and operational flexibility, drug-trafficking organizations 
are a formidable threat. Despite some short-term achievements by U.S. 
and foreign government law enforcement agencies in disrupting the flow 
of illegal drugs, drug-trafficking organizations have found ways to 
continue to meet the demand of U.S. drug consumers.
    According to U.S. law enforcement agencies, drug-traffickers' 
organizations use their vast wealth to acquire and make use of 
expensive modern technology such as global positioning systems, 
cellular communications equipment and communications encryption 
devices. Through this technology, they can communicate and coordinate 
transportation as well as monitor and report on the activities of 
government organizations involved in counterdrug efforts. In some 
countries, the complexity and sophistication of drug traffickers' 
equipment exceed the capabilities of the foreign governments trying to 
stop them.
    When confronted with threats to their activities, drug-trafficking 
organizations use a variety of techniques to quickly change their modes 
of operation, thus avoiding capture of their personnel and seizure of 
their illegal drugs. For example, when air interdiction efforts have 
proven successful, traffickers have increased their use of maritime and 
overland transportation routes.\3\ According to recent U.S. government 
reports, even after the capture or killing of several drug cartel 
leaders in Colombia and Mexico, other leaders or organizations soon 
filled the void and adjusted their areas of operations. For example, we 
reported in February 1998 that, although the Colombian government had 
disrupted the activities of two major drug-trafficking organizations, 
the disruption had not reduced drug-trafficking activities, and a new 
generation of relatively young traffickers was emerging.\4\
---------------------------------------------------------------------------
    \3\ Drug Control: Revised Drug Interdiction Approach Is Needed in 
Mexico (GAO/NSIAD-93-152, May 10, 1993).
    \4\ Drug Control (GAO/NSIAD-98-60, Feb. 12, 1998).
---------------------------------------------------------------------------
     obstacles in foreign countries impede counternarcotics efforts
    The United States is largely dependent on the countries that are 
the source of drug production and drug transiting points to reduce the 
amount of coca and opium poppy being cultivated and to make the drug 
seizures, arrests, and prosecutions necessary to stop the production 
and movement of illegal drugs. While the United States can provide 
assistance and support for drug control efforts in these countries, the 
success of those efforts depends on the countries' willingness and 
ability to combat the drug trade within their borders. Some countries, 
with U.S. assistance, have taken steps to improve their capacity to 
reduce the flow of drugs into the United States.
    Drug source and transiting countries face long-standing obstacles 
that limit the effectiveness of their drug control efforts. These 
obstacles, many of which are interrelated, include corruption; limited 
law enforcement resources and institutional capabilities; and 
insurgencies and internal unrest.
Corruption Permeates Institutions in Countries Involved in Drug 
        Production and Movement
    Narcotics-related corruption is a long-standing problem affecting 
U.S. and foreign governments' efforts to reduce drug-trafficking 
activities. Over the years, U.S. officials have identified widespread 
corruption problems in Bolivia, Colombia, Mexico, Peru, and the 
countries of Central America and the Caribbean--among the countries 
most significantly involved in the cultivation, production, and transit 
of illicit narcotics.
    Our more recent reports have discussed corruption problems in the 
Caribbean, Colombia and Mexico.\5\ For example, in October 1997, we 
reported that the State Department had identified narcotics-related 
corruption in various transit zone countries in the Caribbean, 
including Antigua, Aruba, Belize, Dominica, the Dominican Republic, 
Jamaica, St. Kitts, St. Vincent, and others.\6\ We also reported that 
once the influence of drug trafficking becomes entrenched, corruption 
inevitably follows and democratic governments may be placed in 
jeopardy. In March 1998, the State Department reported that narcotics-
related corruption problems continue in many Caribbean countries.
---------------------------------------------------------------------------
    \5\ Drug War: Observations on the U.S. International Drug Control 
Strategy (GAO/T-NSIAD-95-182, June 27, 1995); Drug Control: 
Counternarcotics Efforts in Mexico (GAO/NSIAD-96-163, June 12, 1996); 
Drug Control (GAO/NSIAD-98-30, Oct. 15, 1997); Drug Control (GAO/NSIAD-
98-60, Feb. 12, 1998; and Drug Control GAO/NSIAD-98-154, June 30, 
1998).
    \6\ Drug Control (GAO/NSIAD-98-30, Oct. 15, 1997).
---------------------------------------------------------------------------
    In June 1998, we reported that persistent corruption within Mexico 
continued to undermine both police and law enforcement operations.\7\ 
Charged with corruption, many law enforcement officers had been 
arrested and dismissed. One of the most noteworthy arrests involved 
General Jose Gutierrez Rebollo--former head of the Mexican equivalent 
of DEA. In February 1997, he was charged with drug trafficking, 
organized crime and bribery, illicit enrichment, and association with 
one of the leading drug-trafficking organizations in Mexico.
---------------------------------------------------------------------------
    \7\ Drug Control (GAO/NSIAD-98-154, June 30, 1998).
---------------------------------------------------------------------------
    Despite attempts by Mexico's Attorney General to combat corruption, 
it continues to impede counternarcotics efforts. For example, in 
February 1998, the U.S. embassy in Mexico City reported that three 
Mexican law enforcement officials who had successfully passed screening 
procedures were arrested for stealing seized cocaine--illustrating that 
corruption continues despite measures designed to root it out.
Inadequate Resources and Institutional Capabilities Limit Arrests and 
        Convictions of Drug Traffickers
    Effective law enforcement operations and adequate judicial and 
legislative tools are key to the success of efforts to stop the flow of 
drugs from the source and transiting countries. Although the United 
States can provide assistance, these countries must seize the illegal 
drugs and arrest, prosecute, and extradite the traffickers, when 
possible, in order to stop the production and movement of drugs 
internationally. However, as we have reported on several occasions, 
these countries lack the resources and capabilities necessary to stop 
drug-trafficking activities within their borders.
    In 1994, we reported that Central American countries did not have 
the resources or institutional capability to combat drug trafficking 
and depended heavily on U.S. counternarcotics assistance.\8\ Two years 
later, we said that equipment shortcomings and inadequately trained 
personnel limited the government of Mexico's ability to detect and 
interdict drugs and drug traffickers.\9\ These problems still exist. 
For example, we reported in June 1998 that the Bilateral Border Task 
Forces, which were established to investigate and dismantle the most 
significant drug-trafficking organizations along the U.S.-Mexico 
border, face operational and support problems, including inadequate 
Mexican government funding for equipment, fuel, and salary supplements 
for personnel assigned to the units.\10\
---------------------------------------------------------------------------
    \8\ Drug Control: U.S. Counterdrug Activities in Central America 
(GAO/NSIAD-94-233, Aug. 2, 1994).
    \9\ Drug Control (GAO/NSIAD-96-163, June 12, 1996).
    \10\ Drug Control (GAO/NSIAD-98-154, June 30, 1998).
---------------------------------------------------------------------------
    Countries in the Caribbean also have limited drug interdiction 
capabilities. For example, we reported in October 1997 that many 
Caribbean countries continue to be hampered by inadequate 
counternarcotics capabilities and have insufficient resources for 
conducting law enforcement activities in their coastal waters.\11\ We 
reported that St. Martin had the most assets for anti-drug activities, 
with three cutters, eight patrol boats, and two fixed-wing aircraft, 
whereas other Caribbean countries had much less.
---------------------------------------------------------------------------
    \11\ Drug Control (GAO/NSIAD-98-30, Oct. 15, 1997).
---------------------------------------------------------------------------
Insurgency and Civil Unrest Limit Counternarcotics Efforts
    Over the years, our reports have indicated that internal strife in 
Peru and Colombia have limited counternarcotics efforts in these 
countries. In 1991, we reported that counternarcotics efforts in Peru 
were significantly hampered because of the threat posed by two 
insurgent groups.\12\ Currently, Colombia's counternarcotics efforts 
are also hindered by insurgent and paramilitary activities. In 1998, we 
reported that several guerrilla groups made it difficult to conduct 
effective antidrug operations in many areas of Colombia.\13\ Since our 
report, the situation has worsened. For example, during this past 
summer the insurgents overran a major police base that was used as a 
staging area for aerial eradication efforts.
---------------------------------------------------------------------------
    \12\ The Drug War: U.S. Programs in Peru Face Serious Obstacles 
(GAO/NSIAD-92-36, Oct. 21, 1991).
    \13\ Drug Control (GAO/NSIAD-98-60, Feb. 12, 1998).
---------------------------------------------------------------------------
            efforts to improve counternarcotics capabilities
    Some countries, with U.S. assistance, have taken steps to improve 
their capacity to reduce the flow of illegal drugs into the United 
States. For example, in June 1998, we reported that Mexico had taken 
efforts to (1) increase the eradication and seizure of illegal drugs, 
(2) enhance counternarcotics cooperation with the United States, (3) 
initiate efforts to extradite Mexican criminals to the United States, 
(4) pass new laws on organized crime, money laundering, and chemical 
control, (5) institute reforms in law enforcement agencies, and (6) 
expand the role of the military in counternarcotics activities to 
reduce corruption.\14\ Many of these initiatives are new, and some have 
not been fully implemented.
---------------------------------------------------------------------------
    \14\ Drug Control (GAO/NSIAD-98-154, June 30, 1998).
---------------------------------------------------------------------------
    Colombia has also made progress in making efforts to improve its 
counternarcotics capabilities. In February 1998, we reported that 
Colombia had passed various laws to assist counternarcotics activities, 
including money laundering and asset forfeiture laws, reinstated 
extradition of Colombian nationals to the United States in November 
1997, and signed a maritime agreement.\15\
---------------------------------------------------------------------------
    \15\ Drug Control (GAO/NSIAD-98-60, Feb.12, 1998).
---------------------------------------------------------------------------
 obstacles inhibit success in fulfilling u.s. counternarcotics efforts
    Our work over the past 10 years has identified obstacles to 
implementing U.S. counternarcotics efforts, including (1) 
organizational and operational limitations, and (2) planning and 
management problems. Over the years, we have criticized ONDCP and U.S. 
agencies involved in counternarcotics activities for not having good 
performance measures to help evaluate program results. Efforts to 
develop such measures are currently underway.
Organizational and Operational Limitations
    The United States faces several organizational and operational 
challenges that limit its ability to implement effective antidrug 
efforts. Many of these challenges are long-standing. Several of our 
reports have identified problems involving competing priorities, 
interagency rivalries, lack of operational coordination, inadequate 
staffing of joint interagency task forces, lack of oversight, and lack 
of knowledge about past counternarcotics operations and activities.
    For example, our 1995 work in Colombia indicated that there was 
confusion among U.S. embassy officials about the role of the offices 
involved in intelligence analysis and related operational plans for 
interdiction.\16\ In 1996 and 1997, we reported that several agencies, 
including the U.S. Customs Service, DEA, and the Federal Bureau of 
Investigation, had not provided personnel, as they had agreed, to the 
Joint Interagency Task Force in Key West because of budgetary 
constraints.\17\
---------------------------------------------------------------------------
    \16\ Drug War (GAO/T-NSIAD-95-182, June 27, 1995).
    \17\ Drug Control (GAO/NSIAD-98-30, Oct. 15, 1997) and Drug 
Control: U.S. Interdiction Efforts in the Caribbean Decline (GAO/NSIAD-
96-119, Apr. 17, 1996).
---------------------------------------------------------------------------
    In October 1997, we reported that according to U.S. officials, the 
small amount of aircraft and maritime assets hindered U.S. interdiction 
efforts in the Eastern Pacific and that their ability to interdict 
commercial and noncommercial fishing vessels was limited.\18\ We also 
reported in 1993 and 1997 that reduced radar capability was limiting 
operational successes in this region \19\
---------------------------------------------------------------------------
    \18\ Drug Control (GAO/NSIAD-98-30, Oct. 15, 1997).
    \19\ Drug Control (GAO/NSIAD-93-152, May 10, 1993) and Drug Control 
(GAO/NSIAD-98-30, Oct. 15, 1997).
---------------------------------------------------------------------------
    We also reported on instances where lessons learned from past 
counternarcotics efforts were not known to current planners and 
operators, both internally in an agency and within the U.S. antidrug 
community.\20\ For example, in the early 1990's the United States 
initiated an operation to support Colombia and Peru in their efforts to 
curtail the air movement of coca products between the two countries. 
However, U.S. Southern Command personnel stated in 1996 that while they 
were generally aware of the previous operation, they were neither aware 
of the problems that had been encountered nor of the solutions 
developed in the early 1990s. U.S. Southern Command officials 
attributed this problem to the continual turnover of personnel and the 
requirement to destroy most classified documents and reports after 5 
years. These officials stated that an after-action reporting system for 
counternarcotics activities is now in place at the U.S. Southern 
Command.
---------------------------------------------------------------------------
    \20\ Drug Control: Long-Standing Problems Hinder U.S. International 
Efforts GAO/NSIAD-97-75, Feb. 27, 1997).
---------------------------------------------------------------------------
    We have also reported that a key component of the U.S. operational 
strategy is having reliable and adequate intelligence to help plan 
interdiction operations. Having timely intelligence on trafficking 
activities is important because traffickers frequently change their 
operational patterns and increasingly use more sophisticated 
communications, making it more difficult to detect their modes of 
operations.\21\ ONDCP is in the process of reviewing U.S. 
counternarcotics intelligence efforts.
---------------------------------------------------------------------------
    \21\ Drug Control (GAO/NSIAD-97-75, Feb. 27, 1997).
---------------------------------------------------------------------------
Planning and Management Limitations
    Over the years, our reviews of U.S. counternarcotics efforts have 
indicated planning and management limitations to U.S. counternarcotics 
efforts. Our recent reports on Colombia and Mexico have shown that the 
delivery of U.S. counternarcotics assistance was poorly planned and 
coordinated.
    In February 1998, we reported that the State Department did not 
take adequate steps to ensure that equipment included in a 1996 $40-
million Department of Defense assistance package could be integrated 
into the U.S. embassy's plans and strategies to support the Colombian 
police and military forces.\22\ As a result, the assistance package 
contained items that had limited immediate usefulness to the Colombian 
police and military and will require substantial additional funding 
before the equipment can become operational.
---------------------------------------------------------------------------
    \22\ Drug Control (GAO/NSIAD-98-60, Feb. 12, 1998).
---------------------------------------------------------------------------
    We reported a similar situation in Mexico. In June 1998, we noted 
that key elements of the Defense Department's counternarcotics 
assistance package were of limited usefulness or could have been better 
planned and coordinated by U.S. and Mexican officials.\23\ For example, 
we reported that the Mexican military was not using the four C-26 
aircraft provided by the United States because there was no clearly 
identified requirement for the aircraft and the Mexican military lacked 
the funds needed to operate and maintain the aircraft. In addition, 
inadequate coordination between the U.S. Navy and other Defense 
Department agencies resulted in the transfer of two Knox-class frigates 
to the Mexican Navy that were not properly outfitted and are currently 
inoperable. Further, Mexican Navy personnel were trained in the 
frigates' operation, but these personnel may not be fully utilized 
until the two frigates are activated.
---------------------------------------------------------------------------
    \23\ Drug Control (GAO/NSIAD-98-1 54, June 30, 1998).
---------------------------------------------------------------------------
    Our work has also shown that, in some cases, the United States did 
not adequately control the use of U.S. counternarcotics assistance and 
was unable to ensure that it was used as intended. Despite legislative 
requirements mandating controls over U.S.-provided assistance, we found 
instances of inadequate oversight of counternarcotics funds. For 
example, between 1991 and 1994, we issued four reports in which we 
concluded that U.S. officials lacked sufficient oversight of aid to 
ensure that it was being used effectively and as intended in Peru and 
Colombia.\24\ We also reported that the government of Mexico had 
misused U.S.-provided counternarcotics helicopters to transport Mexican 
military personnel during the 1994 uprising in the Mexican state of 
Chiapas.\25\
---------------------------------------------------------------------------
    \24\ The Drug War: Colombia Is Undertaking Antidrug Programs, But 
Impact Is Uncertain (GAO/NSIAD-93-158, Aug. 10, 1993); The Drug War: 
Observations on Counternarcotics Programs in Colombia and Peru (GAOT-
NSIAD-92-2, Oct. 23, 1991); Drug War (GAO/NSIAD-92-36, Oct. 21, 1991); 
and Drug War: Observations on Counternarcotics Aid to Colombia (GAO/
NSIAD-91-296, Sept. 30, 1991).
    \25\ Drug Control (GAO/NSIAD-96-163, June 12, 1996).
---------------------------------------------------------------------------
    Our recent work in Mexico indicated that oversight and 
accountability of counternarcotics assistance continues to be a 
problem. We found that embassy records on UH-1H helicopter usage for 
the civilian law enforcement agencies were incomplete. Additionally, we 
found that the U.S. military's ability to provide adequate oversight is 
limited by the end-use monitoring agreement signed by the governments 
of the United States and Mexico.
Importance of Measuring Performance
    We have been reporting since 1988 that judging U.S. agencies' 
performance in reducing the supply of and interdicting illegal drugs is 
difficult because the agencies have not established meaningful measures 
to evaluate their contribution to achieving the goals contained in the 
National Drug Control Strategy.
    In February 1998, ON DCP issued its annual National Drug Control 
Strategy, establishing a 10-year goal of reducing illicit drug 
availability and use by 50-percent by 2007. In March 1998, ONDCP 
established specific performance effectiveness measures to evaluate 
progress in meeting the strategy's goals and objectives. While we have 
not reviewed the performance measures in detail, we believe they 
represent a positive step to help gauge the progress in attaining the 
goals and objectives.
   ways to improve the effectiveness of u.s. counternarcotics efforts
    We recognize that there is no easy remedy for overcoming all of the 
obstacles posed by drug-trafficking activities. International drug 
control efforts aimed at stopping the production of illegal drugs and 
drug-related activities in the source and transit countries are only 
one element of an overall national drug control strategy. Alone, these 
efforts will not likely solve the U.S. drug problem. Overcoming many of 
the long-standing obstacles to reducing the supply of illegal drugs 
requires a long-term commitment. Over the years, we have recommended 
ways in which the United States could improve the effectiveness of the 
planning and implementation of its current counternarcotics efforts. 
These recommendations include (1) developing measurable goals, (2) 
making better use of intelligence and technologies and increasing 
intelligence efforts, (3) developing a centralized system for recording 
and disseminating lessons learned by various agencies while conducting 
law enforcement operations, and (4) better planning of counternarcotics 
assistance.
    Mr. Chairmen, this concludes my prepared testimony. I would be 
happy to respond to any questions.

                                 ______
                                 

            Prepared Statement of Admiral James M. Loy, USCG

    Good morning, Mr. Chairman Grassley, Chairman Coverdell, and 
distinguished Committee and Caucus members. It is a pleasure to appear 
before you today to comment on Coast Guard drug interdiction and the 
proposed Western Hemisphere Drug Elimination Act.
    I applaud the Act's goal of strengthening our Nation's counterdrug 
effort. This legislation recognizes that the security of our maritime 
borders is a critical component of a balanced national strategy to 
reduce drug use and its destructive consequences. The National Drug 
Control Strategy's supply reduction target looks to reduce drug 
availability in the United States 25 percent by 2002, and 50 percent by 
2007 as compared to a 1996 base year. The Coast Guard has developed a 
comprehensive maritime interdiction strategy, Campaign STEEL WEB, 
designed to meet the Coast Guard's portion of these national goals. 
This Coast Guard strategy is supported by a 5-year drug control budget 
that is submitted to the Office of Drug Control Policy (ONDCP) annually 
as required by law. Fully implementing this strategy will require that 
adequate resources be provided over the next several years. This Coast 
Guard strategy is supported by a 5-year drug control budget that is 
submitted to the Office of National Drug Control Policy (ONDCP) 
annually as required by law. The Western Hemisphere Drug Elimination 
Act includes many policy initiatives and budget authorities that could 
be used to increase counterdrug performance. In many instances, the Act 
does address valid Coast Guard requirements and identifies the types of 
capabilities required to implement STEEL WEB. However, I do have 
serious concerns with the legislation as currently drafted. While this 
bill authorizes funding
    This bill's authorization levels for increased Coast Guard 
counterdrug operations in fiscal years 1999, 2000, and 2001, are 
inconsistent with the President's budget. First and foremost the Coast 
Guard must be able to maintain current services for all mission areas 
in fiscal year 1999 as requested by the President. As a 3-year 
authorization, this legislation could result in outyear funding risks. 
Without adequate outyear funding, I will not be able to operate 
additional assets or to sustain the operational increases for assets 
now in the Coast Guard inventory. I am also concerned, from a personnel 
management perspective, about the potential for a relatively large 
increase in work force strength that may only be authorized for 3 
years.
    I am also concerned about the executability cost effectiveness of 
some items specified in the Act. For example, any decision to build new 
cutters should be made in the context of the Deepwater Capability 
Replacement Project, which is currently in the planning phase. Through 
the Deepwater process, we will determine the most cost-effective new 
construction of cutters would require long lead-time and significant 
personnel increases.way to meet future Coast Guard mission requirements 
beyond 50 miles from shore. It may be the case, for example, that 
converting retired Navy vessels is more sensible than building new 
cutters. Additionally, the goal to reduce the flow of drugs into the 
United States 80 percent by the end of 2001 is overly optimistic and is 
not achievable.
    Finally, we face significant source and Transit Zone interdiction 
challenges. The Act does not include some key resources proposed in the 
President's 1999 Budget that would be necessary to meet these 
challenges. For example, the Act does not address increased 
intelligence collection and support or the deployable logistics 
required to support expeditionary pulse operations, capabilities that 
are critical to interdiction success and can reduce the need for 
expensive, single-mission assets.
    The task of maintaining a comprehensive overview of activity and 
sorting targets of interest from legitimate air and surface traffic is 
daunting. Equally difficult is the logistical challenge of supporting 
our forces in such an expansive theater of operations, particularly in 
the Eastern Pacific. As previously stated, Campaign STEEL WEB is the 
Coast Guard's multiyear plan to position the requisite interdiction 
forces where they best counter the ever-evolving drug trafficking 
threats. The strategic concept is to deny drug smugglers access to 
maritime routes by a sequence of operations in which interdiction 
forces are concentrated in high-threat areas of the Caribbean and 
Eastern Pacific to significantly disrupt drug traffic. Coast Guard 
operations in these high threat areas complement and support Joint 
Interagency Task Force (JIATF) East and JIATF West operations. Once a 
credible law enforcement presence is established, interdiction forces 
will be redeployed to other high-threat areas, leaving an enhanced 
presence to deter and interdict subsequent smuggling. Ultimately, 
successful pulse operations in each high-threat area will 
systematically reduce drug flow through the Transit Zone. This concept 
was successfully demonstrated during the Coast Guard's Operation 
FRONTIER SHIELD.
    In addition, STEEL WEB is focused on strengthening ties with source 
and transit zone nations to increase their capacities to reduce 
internal production and trafficking, and supports interagency efforts 
to combat drug smuggling. Continued success of Campaign STEEL WEB 
requires resource investments and the flexibility to employ resources 
where they can have the most impact.
    The Coast Guard received a $34.3 million increase in budget 
authority for fiscal year 1998, an investment in the long-term campaign 
to satisfy obligations under the National Drug Control Strategy. Fiscal 
year 1998 drug funding has allowed the Coast Guard to institutionalize 
FRONTIER SHIELD, and continue Operations GULF SHIELD and BORDER SHIELD 
to anchor the flanks of the Southwest Border.
    The fiscal year 1999 budget request includes operating expenses and 
capital investments necessary to maintain the current law enforcement 
presence in the transit and arrival zones. As long as more than 400 
metric tons of cocaine are moving through the Transit Zone each year, 
the value of, and necessity for, agile interdiction forces is 
undeniable.
    The Coast Guard shields America's sea frontiers from a broad 
spectrum of threats and challenges, with the scourge of drugs being 
perhaps the most visible right now. The need for effective control of 
America's seaward borders, territorial sea, and Exclusive Economic Zone 
extends well beyond the drug threat and will become even more essential 
in the first decades of the 21st century.
    Future threats to U.S. security interests will be even more varied 
than they are today. The dangers we face are unprecedented in their 
complexity. Terrorism, drugs, illegal migrants, organized crime, and 
proliferation of weapons of mass destruction are global concerns that 
transcend national borders, and environmental damage and rapid 
population growth undermine economic prosperity and political stability 
in many countries.
    Since these challenges to America's maritime security are not 
strictly military in nature, they underscore the importance, relevance, 
and vitality of the Coast Guard's law enforcement role--a core 
competency developed during more than 200 years of service to America--
and a core competency that addresses more than drug interdiction.
    The multimission Coast Guard has traditionally provided a high rate 
of return to the public. In fiscal year 1997, overall interdiction 
efforts resulted in a record year for Coast Guard drug seizures. The 
Coast Guard seized (or assisted in the seizure of) 103,617 pounds of 
cocaine and 102,538 pounds of marijuana products. Cocaine seizures 
easily surpassed the previous record set in 1991--90,335 pounds.
    Through effective interdiction efforts last year, the Coast Guard 
kept more than 468 million cocaine ``hits'' and 100 million marijuana 
``joints'' off our streets, preventing those drugs from poisoning 
schools and destroying homes. The estimated street value of these 
seizures is more than $4.2 billion--$1 billion more than the Coast 
Guard's entire 1997 discretionary budget.
    In order to meet future drug interdiction obligations, the Coast 
Guard will need the full support of Congress for its budget requests. 
As Commandant, however, I have a responsibility to effectively perform 
the Coast Guard's many other mission requirements, such as protection 
of fisheries stocks and the marine environment. To do this, the Coast 
Guard must at least be funded at current services level through annual 
appropriations.receive the funding levels requested by the President 
for these programs.
    As we approach the 21st century, many of our existing assets are 
nearing the end of their service lives. Loss of capability and 
increased operational costs concern us greatly, as the threats we must 
counter are becoming increasingly more sophisticated and capable. In 
short, our ability to remain Semper Paratus--Always Ready--to carry out 
our many missions is a major Coast Guard concern. We are taking the 
necessary steps through our Roles and Missions Review and Deepwater 
Capability Analysis to address these concerns. We must be ready to meet 
tomorrow's challenges.
    In closing, I would like to recognize your leadership and 
commitment to strengthening the national counterdrug effort. As America 
moves into the next century, the Coast Guard stands ready to meet our 
responsibilities in this important effort. Thank you for the 
opportunity to discuss Coast Guard drug interdiction concerns. I will 
be happy to answer any questions you may have.
                               __________

                Prepared Statement of Donnie R. Marshall

    Chairman Coverdell, Chairman Grassley, and members of the 
Subcommittee and the caucus: I appreciate the opportunity to appear 
today at this hearing on the Western Hemisphere Drug Elimination Act, 
which makes a number of proposals intended to increase funding for 
interdiction and interdiction- related activities. My testimony will 
provide you with an objective assessment of the law enforcement issues 
involving international organized criminal groups, drug trafficking 
problems associated with these groups, and how DEA participates in drug 
interdiction. During my testimony, I will attempt to provide the 
members with a full picture of how organized crime groups operate, 
harming so many aspects of life in America today, and how the DEA takes 
action to counter these groups.
    Interdiction, in its narrow sense, physically stopping drugs moving 
through the transit zone, across international borders, and into the 
United States--is more properly the responsibility of the other 
agencies testifying here today. DEA's primary mission is to target the 
highest levels of the international drug trafficking organizations 
operating today. It is through targeting the command and control 
elements of international drug syndicates that DEA makes its major 
contribution to the overall interdiction effort. Moreover, DEA makes 
significant contributions to drug interdiction with its law enforcement 
efforts within the United States. I will, therefore, discuss in some 
detail DEA's role in the interdiction of drugs both overseas and 
domestically and how those efforts interface and contribute in our 
joint efforts to counter these organize crime groups.
                     international organized crime
    It is important to demonstrate at the outset why the threat posed 
by international drug syndicates is so ominous. The United States must 
be able to attack the command and control functions of the 
international syndicates which are directing the flow of drugs into 
this country. Focusing the attention of law enforcement on the 
criminals who direct these organizations is the key to combating 
international drug trafficking. DEA directs its resources against the 
leaders of these criminal organizations, seeking to have them located, 
arrested, prosecuted, and given sentences commensurate with the heinous 
nature of their crimes.
    Many phrases have been used to describe the complex and 
sophisticated international drug trafficking groups operating out of 
Colombia and Mexico, and frankly, the somewhat respectable titles of 
``cartel'' or ``federation'' mask the true identity of these vicious, 
destructive entities. The Cali organization, and the four largest drug 
trafficking organizations in Mexico operating out of Juarez, Tijuana, 
Sonora, and the Gulf region--are simply organized crime groups. They 
are not legitimate businessmen as the word ``cartel'' implies, nor are 
they ``federated'' into a legitimate conglomerate. These syndicate 
leaders--the Rodriguez Orejuela brothers in Colombia to Amado Carrillo-
Fuentes, Juan Garcia-Abrego, Miguel Caro-Quintero, and the Arellano-
Felix brothers--are simply the 1990's versions of the mob leaders U.S. 
law enforcement has fought since shortly after the turn of this 
century.
    International organized crime leaders are far more dangerous, far 
more influential and have a greater impact on our day-to-day lives than 
did their domestic predecessors. While organized crime in the United 
States during the 1950's through the 1970's affected certain aspects of 
American life, its influence pales in comparison to the violence, 
corruption, and power that today's drug syndicates wield. These 
individuals, from their headquarters locations, undeniably influence 
the choices that too many Americans make about where to live, when to 
venture out of their homes, or where they send their children to 
school. The drugs--and the attendant violence which accompanies the 
drug trade--have reached into every American community and have robbed 
many Americans of the dreams they once cherished.
    Organized crime in the United States was addressed over time, but 
only after Americans recognized the dangers that organized crime posed 
to our way of life. But it did not happen overnight. American organized 
crime was exposed to the light of day systematically, stripping away 
the pretense that mob leaders were anonymous businessmen. The 
Appalachian raid of 1957 forced law enforcement to acknowledge that 
these organized syndicates did indeed exist. As a result, strong 
measures were taken to go after the top leadership, a strategy used 
effectively throughout our national campaign against the mob. During 
the 1960's, Attorney General Bobby Kennedy was unequivocal in his 
approach to ending the reign of organized crime in America, and 
consistent law enforcement policies were enacted which resulted in real 
gains. Today, traditional organized crime, as we knew it in the United 
States, has been eviscerated, a fragment of what it once was.
    At the height of its power, organized crime in this nation was 
consolidated in the hands of few major families whose key players live 
in this nation, and were within reach of our criminal justice system. 
All decisions made by organized crime were made within the United 
States. Orders were carried out on U.S. soil. While it was not easy to 
build cases against the mob leaders, law enforcement knew that once a 
good case was made against a boss, he could be located within the U.S., 
arrested, and sent to jail.
    That is not the case with today's organized criminal groups. They 
are strong, sophisticated, and destructive organizations operating on a 
global scale. In places like Cali, Colombia, and Guadalajara, Mexico, 
even operational decisions are made, such as where to ship cocaine, 
which cars their workers in the United States should rent, which 
apartments should be leased, which markings should be on each cocaine 
package, which contract murders should be ordered, which officials 
should be bribed, and how much. They send thousands of workers into the 
United States who answer to them via daily faxes, cellular phone, or 
pagers. Their surrogates carry out killings even within the United 
States--one day an outspoken journalist, one day a courier who had lost 
a load, the next, an innocent bystander caught in the line of fire--on 
orders from the top leadership. These syndicate bosses have at their 
disposal airplanes, boats, vehicles, radar, communications equipment, 
and weapons in quantities which rival the capabilities of some 
legitimate governments. Whereas previous organized crime leaders were 
millionaires, the Cali drug traffickers and their counterparts from 
Mexico are billionaires. They must be located, arrested, prosecuted, 
and given sentences commensurate with the heinous nature of their 
crimes.
    The international drug syndicates who control drug trafficking 
today from the source zone, through the transit zones in the Caribbean 
and through Mexico, and into the United States, are interconnected. We 
cannot discuss the trafficking situation today without looking at the 
evolution of the groups from Colombia--how they began, what their 
status is today, and how the groups from Mexico have learned important 
lessons from them, thereby becoming major trafficking organizations in 
their own right.
    During the late 1980's the Cali group assumed greater and greater 
power as their predecessors from the Medellin cartel self-destructed. 
Where the Medellin cartel was brash and publicly violent in their 
activities, the criminals, who ran their organization from Cali, 
labored behind the pretense of legitimacy, by posing as businessmen 
carrying out their professional obligations. The Cali leaders--the 
Rodriguez Orejuela brothers, Jose Santacruz Londono, Helmer ``Pacho'' 
Herrera-Buitrago--amassed fortunes and ran their multi-billion dollar 
cocaine businesses from high-rises and ranches in Colombia. Miguel 
Rodriguez Orejuela and his associates composed what was, until then, 
the most powerful international organized crime group in history. They 
employed 727 aircraft to ferry drugs to Mexico, from where they were 
smuggled into the United States, and then return to Colombia with the 
money from U.S. drug sales. Using landing areas in Mexico, they were 
able to evade U.S. law enforcement officials and make important 
alliances with transportation and distribution experts in Mexico.
    With intense law enforcement pressure focused on the Cali 
leadership by the brave men and women in the Colombian National Police 
during 1995 and 1996, all of the top leadership of the Cali syndicate 
are either in jail, or dead. Since the Cali leaders' imprisonment, on 
sentences that in no way matched the severity of their crimes, 
traffickers from Mexico took on greater prominence. The alliance 
between the Colombian traffickers and the organizations from Mexico 
benefited for both sides. Traditionally, the traffickers from Mexico 
have long been involved in smuggling marijuana, heroin, and cocaine 
into the United States, and had established solid distribution routes 
throughout the nation. Because the Cali syndicate was concerned about 
the security of their loads, they brokered a commercial deal with the 
traffickers from Mexico, in order to reduce their potential losses.
    This agreement entailed the Colombians moving cocaine from the 
Andean region to the Mexican organizations, who then assumed the 
responsibility of delivering the cocaine to the United States. Now, 
trafficking groups from Mexico are routinely paid for their services in 
multi-ton quantities of cocaine, making them formidable cocaine 
traffickers in their own right.
                          drugs at the source
    The international drug syndicates discussed above control both the 
sources and the flow of drugs into the United States. The vast majority 
of the cocaine entering the United States continues to come from the 
source countries of Colombia, Bolivia, and Peru. According to DEA's 
Heroin Signature Program, which provides a chemical analysis of 
domestic heroin seizures and purchases to determine the geographic 
sources of origin, South American heroin comprised 75 percent of all 
heroin seized in the United States in 1997. Virtually all of the six 
metric tons of heroin produced in Colombia in 1997 was destined for the 
U.S. market. For nearly two decades, crime groups from Colombia have 
ruled the drug trade with an iron fist, exponentially increasing their 
profit margin by controlling the entire continuum of the cocaine 
market. Their control ranged from the coca leaf production in Peru, 
Bolivia, and Colombia, to the cocaine hydrochloride (HCl) production 
and processing centers in Colombia, to the wholesale distribution of 
cocaine on the streets of the United States.
    Colombian traffickers continue to dominate the movement of cocaine 
from the jungles of Bolivia and Peru to the large cocaine HCl 
conversion laboratories in Southern Colombia. An estimated twenty-two 
percent of the world's coca leaf is grown in Colombia and the vast 
majority of the cocaine base and cocaine HCl is produced in these 
laboratories throughout Colombia. Many of these activities take place 
in the southern rain forests and eastern lowlands of Colombia. Most of 
the coca cultivation in Colombia occurs in the Departments of Guaviare, 
Caqueta, and Putumayo. Also, cultivation occurs in areas of high 
insurgency that are effectively beyond the control of the Colombian 
Government. Cocaine conversion laboratories range from smaller 
``family'' operations to much larger facilities, employing dozens of 
workers. Once the cocaine HCl is manufactured, it is either shipped via 
maritime or aircraft to traffickers in Mexico, or shipped through the 
Caribbean corridor, including the Bahamas Island Chain, to U.S. entry 
points in Puerto Rico, Miami, and New York.
                            drugs in transit
    Over half of the cocaine entering the United States continues to 
come from Colombia through Mexico and across U.S. border points of 
entry. Most of the cocaine enters the United States in privately-owned 
vehicles and commercial trucks. There is new evidence that indicates 
traffickers in Mexico have gone directly to sources of cocaine in 
Bolivia and Peru in order to circumvent Colombian middlemen. In 
addition to the supply of cocaine entering the U.S., trafficking 
organizations from Mexico are responsible for producing and trafficking 
thousands of pounds of methamphetamine. They have been major 
distributors of heroin and marijuana in the U.S. since the 1970's.
    Drug trafficking in the Caribbean is overwhelmingly influenced by 
Colombian organized criminal groups. The Caribbean had long been a 
favorite smuggling route used by the Cali and Medellin crime groups to 
smuggle thousands of tons of cocaine to the United States. During the 
late 1970's and the 1980's, drug lords from Medellin and Cali, Colombia 
established a labyrinth of smuggling routes throughout the central 
Caribbean, including Haiti, the Dominican Republic and the Bahamian 
Island chain to South Florida, using a variety of smuggling techniques 
to transfer their cocaine to U.S. markets. Smuggling scenarios included 
airdrops of 500-700 kilograms in the Bahamian Island chain and off the 
coast of Puerto Rico, mid-ocean boat-to-boat transfers of 500 to 2,000 
kilograms, and the commercial shipment of multi-tons of cocaine through 
the port of Miami.
    Our focus on the Calli organization's command and control functions 
in the U.S. enabled us to build formidable cases against the Cali 
leaders, which allowed our Colombian counterparts to accomplish the 
almost unimaginable--the arrest and incarceration of the entire 
infrastructure of the most powerful crime group in history. Although 
Miguel Rodriguez Orejuela and his confederates continue to direct a 
portion of their operations from prison they are no longer able to 
maintain control over this once monolithic giant. Now, independent 
groups of traffickers from the Northern Valle dal Cauca, and splinter 
groups from the Cali syndicate have risen to prominence and are 
responsible for huge volumes of cocaine and heroin being shipped to the 
United States through the Caribbean. These groups, who have replaced 
the highly structured, centrally controlled business operations of the 
Cali group, tend to be smaller and less organized, however, they 
continue to rely on fear and violence to expand and control their 
trafficking empires.
    DEA has identified four major organizations based on the northern 
coast of Colombia that have deployed command and control cells in the 
Caribbean Basin to funnel tons of cocaine to the United States each 
year. Colombian managers, who have been dispatched to Puerto Rico and 
the Dominican Republic, operate these command and control centers and 
are responsible for overseeing drug trafficking in the region. These 
groups are also directing networks of transporters that oversee the 
importation, storage, exportation, and wholesale distribution of 
cocaine destined for the continental United States.
               drug trafficking organizations in the u.s.
    However powerful these international organizations appear to be, 
the very feature of their operations which makes them most formidable--
the ability to exercise effective command and control over a far flung 
criminal enterprise--is the feature that law enforcement can use 
against them, turning their strength into a weakness. The 
communications structure of international organized crime operating in 
the United States is, therefore, the prime target for drug law 
enforcement. Information on drug flows developed during investigations 
of these organizations, which mostly take place in the United States, 
underscores the seamless nature of the continuum of international drug 
trafficking from foreign sources to markets in the United States.
    The organizational structures we target resemble those set up by 
the Colombians in the 1980s. The Colombians organized their cocaine 
trafficking groups in the U.S. organized around ``cells'' that operate 
within a given geographic area. Some cells specialize in a particular 
facet of the drug trade, such as cocaine transport, storage, wholesale 
distribution, or money laundering. Each cell, which may be comprised of 
10 or more employees, operates with little or no knowledge about the 
membership in, or drug operations of, other cells.
    The head of each cell reports to a regional director who is 
responsible for the overall management of several cells. The regional 
director, in turn, reports directly to one of the drug lords heads of a 
particular organization or heir designate based in Colombia. A rigid 
top down command and control structure is characteristic of these 
groups. Trusted lieutenants of the organization in the U.S. have 
discretion in the day-to-day operations, but ultimate authority rests 
with the leadership abroad.
    Upper echelon and management levels of these cells are frequently 
comprised of family members or long-time close associates who can be 
trusted by the drug lords to handle their day-to-day drug operations in 
the United States. They report back via cell phone, fax and other 
sophisticated communications methods. Drug traffickers continually 
employ a wide variety of counter-surveillance techniques and other 
tactics, such as staging fake drug transactions, using telephones they 
suspect are monitored, limited-time use of cloned cellular telephones 
(frequently a week or less), limited-time use of pagers (from 2 to 4 
weeks), and the use of calling cards. Organized crime groups continue 
to show an active interest in acquiring secure communications 
capabilities. The communication systems which make the top-down command 
and control of these organizations possible is the exact target for 
both intelligence analysis and law enforcement operations against the 
organizations, working hand in hand with interdiction efforts.
                         a hemispheric response
    DEA's role in countering the threat posed to the American way of 
life by these international drug trafficking organizations has been, 
and will continue to be to target the most significant drug traffickers 
and their organizations. It is in this area that we make our 
contribution to interdicting the flow of drugs into the United States. 
Naturally, we cooperate fully with other elements of the United States 
government and foreign authorities, that are directly involved in 
physically interdicting smuggled drugs and in eradicating drugs at the 
source.
    Our law enforcement experience shows us that, over time, the United 
States has been able to effectively counter organized crime, both 
domestic and foreign, by attacking the command and control systems of 
the syndicates through the use of court approved intercepts. Successful 
investigations against the leaders of international drug trafficking 
groups most often originate from investigations being conducted in the 
United States. Through what was originally designated our Southwest 
Border Initiative, has become a strategy employed throughout the 
hemisphere, DEA and our counterparts direct their resources against the 
communications systems of the command and control functions of the 
organized crime groups in both the Caribbean and South America.
The Continuum of Domestic Investigations and International Drug 
        Trafficking
    Some of our efforts within this Hemispheric response point to the 
connection between domestic law enforcement in the United States and 
the problems posed by drug trafficking organizations in Mexico. 
Operations RECIPROCITY and LIMELIGHT, are two examples of inter-agency 
investigations which clearly prove the interrelation between high level 
traffickers headquartered in Mexico and their organizations in many 
U.S. cities. The Amado Carrillo-Fuentes organization was deeply 
involved in a sophisticated drug operation that stretched from Mexico 
to New York, Chicago, Grand Rapids, Tucson, and other parts of the U.S. 
At one point, several independent and seemingly unrelated 
investigations were being conducted in Texas, Arizona, Illinois, 
Michigan, and New York. Eventually these separate cases were combined 
under the umbrella investigations known as RECIPROCITY and LIMELIGHT.
    These operations show, as do most of our investigations, that 
arresting the leaders of international organized crime rings often 
ultimately begins with a seemingly routine event in the United States. 
For example, two troopers from the Texas Department of Public Safety 
stopped a van with New York plates on Interstate 30. They became 
suspicious when they learned that one man was from New York while the 
other was from El Paso, and they were not well acquainted. Neither man 
owned the van and their stories conflicted regarding where they were 
going and where they had been. The troopers found 99 bundles of money 
hidden in the vehicle's walls.
    It took three hours to count the $1.3 million they had found. As 
the officers continued their search, they discovered another $700,000, 
bringing the total to $2 million. On December 3, 1996, after receiving 
an anonymous call, the Tucson Police Department and drug task force 
officers raided a warehouse containing 5.3 tons of cocaine. On December 
13, 1996, the same Texas troopers stopped a northbound tractor trailer 
and seized 2,700 pounds of marijuana. Follow-up investigation connected 
this interdiction to their previous seizure of money, to the cocaine 
warehouse in Tucson, and to ongoing investigations in Texas, Arizona, 
Illinois, Michigan, and New York.
    All of these investigations provided our Special Agents and federal 
prosecutors with the key to investigating the operations of the Amado 
Carrillo-Fuentes organization. This powerful Mexican syndicate was 
apparently using U.S. trucks and employees to transport huge amounts of 
cocaine to various U.S. destinations. The resulting investigation, 
Operation LIMELIGHT, secured 40 arrests, the seizure of $11 million in 
cash, 7.4 tons of cocaine and 2,700 pounds of marijuana.
    A parallel investigation, Operation RECIPROCITY, resulted in the 
seizure of more than 4,000 kilos of cocaine, almost 11,000 pounds of 
marijuana, over $7 million in cash, and 48 arrests. RECIPROCITY showed 
that just one Juarez-based organized crime cell shipped over 30 tons of 
cocaine into American communities and returned over $100 million in 
profits to Mexico in less than two years. Distribution of multi-ton 
quantities of cocaine, once dominated by the Cali-based drug 
traffickers, was now controlled from Mexico in cities such as Chicago, 
Dallas, Denver, Houston, Los Angeles, Phoenix, San Diego, San 
Francisco, and Seattle. The Carrillo-Fuentes organization was also 
beginning to make inroads into the distribution of cocaine in the East 
Coast, particularly New York City, the traditional stronghold of the 
Cali drug cartel.
    These operations support the point that the Mexican transportation 
groups have added the United States East Coast to their sphere of 
influence and now deliver cocaine directly to New York City and other 
East coast markets. This role was once reserved for traffickers from 
Colombia and the Dominican Republic. These two operations show that law 
enforcement can strike major blows against foreign drug syndicates 
through the combination of interdiction efforts and by targeting their 
command and control functions.
    Through multi-agency domestic drug investigations, such as 
RECIPROCITY and LIMELIGHT, and with the assistance of our country 
office in Mexico, DEA has been able to build cases that have led to the 
indictment of the leaders of every major drug trafficking organization 
in Mexico. More than one-half of the priority requests for provisional 
arrest for extradition filed by the Department of Justice are for major 
drug traffickers.
The Hemispheric Response in the Caribbean
    As part of the hemispheric response to the threat posed in the 
Caribbean, DEA has put a number of initiatives in place. In July 1997, 
DEA put into practice the Caribbean Regional Operational Plan (CROP) 
which combined the joint law enforcement resources of DEA, Federal 
Bureau of Investigation, United States Customs Service, and the 
Immigration and Naturalization Service. This plan includes a multi-
agency and multi-jurisdictional effort, coordinating the counter-drug 
operations of the DEA offices in San Juan, Puerto Rico, Miami, Florida 
with activities of the U.S. Embassy Country Teams, and the law 
enforcement agencies of the Caribbean nations. This plan was built on 
the successful strategies implemented in Operation BAT, Operation 
GATEWAY, and the Southwest Border Initiative. From an organizational 
perspective, DEA enhanced its Caribbean Field Division by 25 Special 
Agents. In fiscal year 1997, the Caribbean Division arrested 652 
defendants, initiated 124 criminal cases and documented over $13 
million in asset seizures.
    In July, 1997, to disrupt the flow of drug traffic in the 
Caribbean, DEA initiated Operation Summer Storm and Operation Blue 
Skies. Both operations were coordinated with Caribbean law enforcement 
personnel to target air, land, and maritime smuggling networks. More 
recently, in April 1998, Operation Frontier Lance began to focus 
investigative resources on air and maritime smuggling throughout the 
Southern and Northern areas of Hispaniola in an effort to enhance the 
interdiction of drug trafficking through Haiti and the Dominican 
Republic.
The Hemispheric Response: Domestic Interdiction
    There is of course a domestic component to our hemispheric 
strategy, which should also be understood as part of DEA's contribution 
to the overall national strategy to reduce drug smuggling into the 
United States. The United States has initiated a wide range of law 
enforcement and intelligence programs that aim to prevent illicit drugs 
from entering the country. One of the nation's most effective drug 
interdiction programs--Operation Pipeline--has been carried out on its 
highways for over a decade, and has been responsible for seizures that 
match or exceed those of other, more costly programs. Operation 
Pipeline is a highway drug interdiction program led by state and local 
agencies, and supported by DEA's El Paso Intelligence Center [EPIC]. 
Through EPIC, state and local agencies can share real-time information 
on arrests and seizures with other agencies, obtain immediate results 
to record check requests, and receive detailed analysis of drug 
seizures to support investigations.
    Beginning in the early 1980s, the rate of seizures and arrests 
signaled to State and local law enforcement officers that the nation's 
highways had become major arteries for drug transportation. Tons of 
illicit drugs were flowing North and East from Florida and the 
Southwest border, while millions in drug money returned South and 
West--as if traveling through a pipeline. During annual conferences and 
other multi agency gatherings, officers shared their experiences in 
highway interdiction, which the state and local police communities 
termed ``Pipeline'' investigations. DEA retained this name in 1984 when 
it established Operation Pipeline, which targeted only private 
passenger vehicles. In 1990, Operation Convoy, Pipeline's sister 
operation, was created to target the commercial operations of drug 
transportation organizations.
    Operation Pipeline is now active along the highways and interstates 
most often used by drug organizations to move illicit drugs North and 
East and illicit money South and West. During the first nine years of 
the program, the following seizures were made on the nations highways: 
$379,000,000 in U.S. currency; 696,000 kilograms of marijuana; 94,000 
kilograms of cocaine; 642 kilograms of crack; 278 kilograms of heroin, 
and 1,943 kilograms of methamphetamine. In the last year alone, from 
September 1997 through August 1998, Pipeline Seizures totaled: 
$451,000,000 in U.S. currency; 801,610 kilograms of marijuana; 104,742 
kilograms of cocaine; 724 kilograms of crack; 346 kilograms of heroin; 
and 2,975 kilograms of methamphetamine. These increasingly more 
effective interdiction results dramatically show the high value of this 
interdiction program. The results were achieved with no more than the 
initiative of state and local police officers and the cost of training 
provided by the Drug Enforcement Administration.
    With support from DEA Agents across the country, state and local 
highway officers are able to execute controlled deliveries of the drug 
shipments they seize, thereby furthering their own criminal 
investigations and contributing to federal and international 
investigations. By identifying and arresting members of the 
transportation cells of drug trafficking organizations, along with the 
U.S. customers, law enforcement authorities are better positioned to 
target the command, control, and communication of a criminal 
organization, and arrest its leadership.
    It is important to note that these interdiction operations form an 
integral part of DEA's over-all strategy. As was the case with 
RECIPROCITY and LIMELIGHT, a seemingly unconnected series of seizures 
on America's highways can turn into a major investigation, leading to a 
significant blow against an international drug trafficking 
organization. With its strategy of mounting strategic strikes on 
command and control, DEA is able to degrade the ability of the 
organizations to conduct business and impede their ability to import 
drugs into the United States. Each time we demolish an organization as 
part of this strategy, we will further facilitate the intelligence 
collection process which is critical to the interdiction of drugs. DEA 
will gain vital intelligence about the rest of the organization to use 
both in further strikes and in increasing the accuracy of information 
provided to interdiction operations conducted by other agencies.
                         the problem continues
    Recent events highlight the ever-changing nature of drug law 
enforcement efforts against international drug traffickers. The 
Mexican-Central American corridor has been the primary smuggling 
corridor for cocaine destined for the United States since the 1980s. 
Events in Mexico and along the border bring emphasis to the fact that 
trafficking groups from Mexico are a significant force in international 
organized crime. These organizations are no longer simply middlemen in 
the cocaine transportation business. With the disruption of the Cali 
syndicate, groups such as the Amado Carrillo-Fuentes organization, the 
Arellano-Felix cartel, the Amezcua Contreras brothers, the Guzman-Loera 
organization, and the Caro-Quintero group have consolidated their power 
and now dominate drug trafficking along the U.S./Mexico border and in 
many U.S. cities. These organizations can reach even into the very 
elements of the Mexican government which are intended to fight drugs, 
as the traffickers continue a reign of terror and violence along the 
border with the United States.
    The violence that is an essential part of these ruthless and 
powerful organizations impacts innocent citizens who live in the Untied 
States. The traffickers' willingness to murder and intimidate witnesses 
and public officials has allowed these organizations to develop into 
the present day threat they are to the citizens of the United States 
and Mexico. Drug traffickers continue their brazen attacks against both 
U.S. and Mexican law enforcement officials and their sources of 
information.
    For example, on June 3, 1998, as two Border Patrol Agents responded 
to a ground sensor detection of a possible illegal entry shortly after 
midnight two miles north of the U.S.-Mexico border they encountered 
five men carrying backpacks full of marijuana. During the initial 
encounter the Border Patrol Agents identified themselves and instructed 
the men to sit down. As Agent Alexander Kripnick was preparing to 
arrest two of the men, one got up and began running. When Agent 
Kripnick turned around, Bernardo Velardez Lopez shot him in the head. 
The suspects then fled the scene. Agent Kripnick was pronounced dead 
four hours later. Manuel Gamez, one of the smugglers, was arrested by 
U.S. authorities several hours later. Mexican authorities arrested 
Velardez Lopez in Nogales on June 11th. U.S. officials have begun an 
extradition request for him.
    The traffickers' ability to corrupt government officials is 
highlighted by events during the week of August 9, 1998, when twenty 
(20) Mexican military officials assigned to a ``Grupo Armado de Fuerzas 
Especiales'' (GAFES) unit were arrested in Mexico City on charges of 
drug trafficking and alien smuggling. Among the arrested officials were 
several military personnel, captains and majors, all of whom had been 
assigned to the Attorney General's Office as anti-narcotics agents of 
the Federal Judicial Police. In addition, on August 11, 1998, another 
sixty (60) officials were removed from the unit which was based at the 
Mexico City international airport and remain in custody for 
questioning. The arrests were conducted by elements of the Attorney 
General's Office and from the Secretariat of National Defense (SDN). 
These officials had been pursing this investigation for several months, 
based on information indicating that GAFE officials assigned to the 
international airport were involved in protection of drug shipments.
    The reign of terror, as drug traffickers use violence, 
intimidation, and assassination to protect their turf, continues along 
the border. On September 9, 1998, Rafael Munoz Talavera was abducted, 
tortured and murdered in Ciudad Juarez, in close proximity to the 
residence occupied by Munoz's father. This could have possibly been a 
message to other members of the Munoz Talavera organization. Munoz was 
a lieutenant of the late Amado Carrillo-Fuentes, and was fighting to 
gain control of the ACF organization. Evidently, he was assassinated as 
part of the on-going power struggle, the outcome of which will clearly 
influence who controls the flow of drugs across the Mexican border 
through the Juarez corridor. Munoz' rivals will now seek to divide 
control between them.
    Not only in Mexico, but in other nations the level of violence 
against law enforcement personnel continues to be high, demonstrating 
the deadly power of the trafficking organizations that control the flow 
of drugs into the United States. Just last month, in Colombia, leftist 
rebels handed Colombian authorities another in a string of defeats, 
raising concern about the Colombian government's ability to contain 
trafficking within its borders. In the final days of the Samper 
Presidency, rebels launched attacks in 17 of Colombia's 32 states, 
killing an estimated 140 soldiers and police officers and scores of 
civilian bystanders. The most stunning attack was that on August 3-4 at 
the base at Miraflores (275 miles south of Bogota) used for coca 
eradication operations. Three police officers were killed, eight 
wounded, and 54 were taken prisoner. Fortunately, no Americans were 
based at any of the locations attacked by the rebels, not were any 
Americans harmed in Colombia during the attacks. For the Colombians, 
however, the terror continues. Only last week, 20 policemen were taken 
prisoner in a National Liberation Army (ELN) attack on Las Mercedes, a 
small town in Norte de Santander province. According to press reports, 
this incident brings to about 270 the number of security force officers 
now being held by the ELN and the larger Revolutionary Armed Forces of 
Colombia (FARC), both of which are closely associated with Colombian 
trafficking organizations.
                               conclusion
    The DEA remains committed to targeting and arresting the most 
significant drug traffickers in the world today. We will continue to 
work with our law enforcement partners throughout the world in support 
of their efforts and to improve our cooperative efforts against 
international drug smuggling.
    Thank you for the opportunity to testify today. I will be happy to 
respond to any questions you may have.

                                 ______
                                 

             Prepared Statement of Gen. Barry R. McCaffrey

                              introduction
    Chairmen Coverdell and Grassley, Caucus and Committee members, 
thank you for the opportunity to testify on U.S. drug interdiction 
efforts. All of us at the Office of National Drug Control Policy 
(ONDCP) appreciate your longstanding support and interest in all 
aspects of drug control policy, as well as the guidance and leadership 
of the Caucus and the Committee. We all appreciate this opportunity to 
share our views of the Western Hemisphere Drug Elimination Act.
    As you know, goals 4 (Shield America's air, land and sea frontiers 
from the drug threat) and five (Break drug sources of supply) of the 
ten-year 1998 National Drug Control Strategy focus on reducing the 
availability of illegal drugs within the United States. The Strategy's 
mid-term goal is to reduce illegal drug availability by 25 percent by 
the year 2002; our long-term goal is to reduce availability by 50 
percent by the year 2007.
    In March, we submitted to you a detailed set of Performance 
Measures of Effectiveness. The nucleus of the system consists of twelve 
targets that define specific results to be achieved under the 
Strategy's five goals. Eighty-two supporting performance measures 
delineate mid-term and long-term outcomes for the Strategy's thirty-two 
supporting objectives. Our basic aim is to reduce drug use and 
availability by 50 percent in the next ten years. These measures of 
effectiveness were developed in full consultation with all federal 
drug-control program agencies. The Strategy's mid-term Goal 4 objective 
is to reduce by 10 percent the rate at which illegal drugs successfully 
enter the United States by the year 2002. The long-term objective is a 
20 percent reduction in this rate by the year 2007. The Strategy's mid-
term (5-year) objective for goal 5 is a 15 percent reduction in the 
flow of illegal drugs from source countries; the long-term (10-year) 
objective is a 30 percent reduction. ONDCP also submitted for the 
Congress' consideration the first-ever five year federal drug control 
budget. It is our view that the Strategy, the Performance Measures of 
Effectiveness, and the Budget Summary outline a credible program for 
reducing drug use and its consequences and drug availability.
     an update on cocaine-control efforts in the western hemisphere
    Potential cocaine production declined significantly in 1997. Our 
source country strategy has achieved greatest success in Peru, 
contributing to a disruption of the Peruvian cocaine economy. Peruvian 
coca cultivation declined by 27 percent last year, and is down 40 
percent in the last two years. Bolivia has achieved modest decreases in 
coca cultivation and potential cocaine production over the last two 
years. However, these gains have been partially offset by surging coca 
cultivation in Colombia. Colombia now has more hectares of coca under 
cultivation than any other country. The area under cultivation has 
increased by 56 percent in the past two years. Nonetheless, total 
Andean cultivation declined seven percent and estimates of total 
potential cocaine production declined by 15 percent--from 760 to 650 
metric tons in 1997. This is the lowest figure this decade. An analysis 
of the situation in each of the three South American cocaine producing 
countries follows:

    <bullet> Bolivia. Bolivia eradicated 3,934 hectares in the first 
six months of 1998, compared to 2,858 for the same period in 1997. This 
promising outcome underscores the Banzer administration's resolve to 
confront the coca trade. Earlier this year, President Banzer released a 
national strategy entitled Con Dignidad that establishes the objective 
of eliminating illicit coca cultivation within five years. The 
Government of Bolivia estimated in their anti-drug strategy that the 
total financing requirement to meet their objective of completely 
withdrawing from the coca-cocaine circuit between 1998 and 2002 would 
require 952 million dollars to support alternative development, 
eradication, prevention and rehabilitation. Thirty-five thousand 
Bolivian families currently depend on the illegal cocaine trade for 
their livelihood. It is unlikely that the international community will 
provide Bolivia the support its government believes is required to 
attain this ambitious objective.
    <bullet> Colombia. As a result of surging coca cultivation, 
Colombia now grows more hectares of coca than Peru or Bolivia. Colombia 
also continues to be the world's leading producer of cocaine HCl, 
processing much of Peru's coca base. It will be difficult to achieve a 
decrease in cocaine production in Colombia in the short term. The 
current conditions (weak government, security forces not in control of 
substantial areas of the country, increasingly stronger guerrilla and 
paramilitary forces, weak legitimate economy, broken judicial system, 
and official corruption) are conducive to drug trafficking and will 
take time to reverse. The new Pastrana administration has stated its 
commitment to tackling these issues, but it would not be realistic to 
expect a complete turn around in a short period of time.
    ONDCP believes that we will see continued expansion of coca 
cultivation, especially in areas outside of the Colombian Government's 
effective control. The aggressive aerial eradication campaign being 
conducted by the Colombian National Police with the help from the U.S. 
State Department will only slow this expansion. Colombian trafficking 
organizations appear to be determined to offset declines in Bolivian 
and Peruvian coca production with increased domestic production. The 
recent national narco-guerrilla offensive and the resulting significant 
military defeats suggest that Colombian security forces will not be 
able to conduct effective anti-drug operations in regions where 
guerrilla forces are dominant and control the ground.
    <bullet> Peru. Through June, Peru's manual eradication program had 
met 75 percent of its 1998 target of 4,800 hectares. The overall impact 
on production has been limited because efforts have focused on semi-
abandoned fields in national forests. Peruvian Drug Czar Marino Costa 
Bauer stated in June that record-low coca leaf prices combined with 
continuing eradication efforts would result in the virtual elimination 
of illicit coca cultivation in Peru within five years. However, it 
would seem unlikely that coca leaf prices will remain low if demand in 
consumer nations exceeds the available supply.

    1997 saw significant cocaine seizures in the transit zone. Drugs 
coming to the United States from South America pass through a six-
million square-mile area that is roughly the size of the continental 
United States. This transit zone includes the Caribbean, Mexico, 
Central America, the Gulf of Mexico, and the eastern Pacific Ocean. 
Event-based estimates suggest that perhaps 430 metric tons of cocaine 
passed through the transit zone in 1997, and 85 metric tons were seized 
there; 60 percent more than in 1996. 1997 was the third consecutive 
year of increased transit-zone seizures. Coast Guard supported cocaine 
seizures in 1997 totaled 47 metric tons. U.S. interdiction operations 
in the Caribbean focused on Puerto Rico with good results. Thirteen 
metric tons of cocaine were seized in the Puerto Rico area. 
Interdiction operations contributed to a reduction in the flow of 
cocaine to the island, forcing traffickers to divert shipments to the 
Dominican Republic and Haiti. Drug-related crime in Puerto Rico plunged 
by 37 percent.
    1998 cocaine seizures are on a par with 1997's levels. An estimated 
127 metric tons of cocaine were seized worldwide (excluding U.S. 
internal seizures) during the first six months of this year. This 
amount is slightly less than the corresponding 1997 figure of 131 
metric tons. Transit zone seizures were about 45 metric tons compared 
to 43 metric tons during the same time in 1997. Seizures in Central 
America totaled 19 metric tons, nearly double the ten metric tons 
seized during the same period in 1997. Mexican seizures of 15 metric 
tons are below last year's corresponding figure of 24 metric tons. 
Seizures in the Caribbean totaled about 14 metric tons, up from 9 
metric tons for the same period in 1997. Within the arrival zone, U.S. 
law enforcement agencies have seized 36 metric tons, compared with 24 
tons during the same time in 1997.
    Trafficking trends: January-June 1998. Peru continues to export 
most of its coca base to Colombia for processing into cocaine HCl and 
subsequent smuggling to consumer nations. Traffickers are exploiting 
the plentiful waterways in northern Peru to move cocaine base. They are 
also prepared to revert to the use of aircraft as the primary means of 
transportation should we let up on the successful airbridge denial 
campaign. The movement of cocaine HCl from processing locations to 
international departure points within Colombia is mostly undetected. An 
estimated 232 metric tons were smuggled out of South America destined 
for the United States:

    <bullet> Mexico/Central America corridor. Fifty-two percent (121 
metric tons) of the cocaine destined for the United States is estimated 
to have been routed along this corridor. Fifty-four metric tons were 
seized along this corridor, 34 in the transit zone and 20 in the 
arrival zone. Sixty-seven metric tons were estimated to have entered 
the United States via this corridor.
    <bullet> Caribbean corridor. Thirty-two percent (74 metric tons) is 
estimated to have passed through the Caribbean. Fourteen metric tons 
were seized along this corridor, 11 in the transit zone and 3 in the 
arrival zone. Sixty metric tons were estimated to have entered the 
United States via this corridor.
    <bullet> Direct Transportation. Sixteen percent (37 metric tons) is 
estimated to have proceeded directly from South America to the United 
States. Thirteen metric tons were seized in the arrival zone. Twenty-
four metric tons were estimated to have entered the United States via 
this corridor.

    In summary, an estimated 232 metric tons of cocaine departed South 
America in the first six months of this year. Forty-five metric tons 
were seized in the transit zone, while 36 were seized in the arrival 
zone. An estimated 153 metric tons were smuggled into the United States 
during this period. One third of the cocaine destined for the United 
States was interdicted in either the transit or the arrival zones. This 
interdiction performance is consistent with that of previous years, but 
it is not good enough. We need to do better.
    Smuggling techniques continue to change in response to interdiction 
efforts. Traffickers continue to move cocaine via a wide variety of 
modes and conveyances and to adapt their methods and routes to avoid 
detection and apprehension.

    <bullet> Mexico/Central America corridor. Containerized commercial 
cargo is a common method for smuggling cocaine into the Duty Free Zone 
in Colon, Panama. Cocaine is transported in smaller quantities in both 
commercial and private vehicles along the Pan-American Highway in 
Central America to reduce the risk of detection. Cocaine is also 
introduced throughout Central America via maritime commerce. Seizure 
data along the U.S.-Mexico border suggests that cocaine is evenly 
distributed between commercial cargo and private cars.
    <bullet> Caribbean corridor. Traffickers mostly use non-commercial 
aircraft and non-commercial maritime vessels to smuggle cocaine into 
Caribbean islands. Haiti has become a more prominent transshipment 
point despite our efforts to develop capable law enforcement agencies. 
``Go-fast'' boats travel with virtual impunity between Colombia and 
Haiti. Airdrops off the southern Haitian coast are common. Cocaine 
passing through Haiti either is smuggled directly to the United States 
and Western Europe or is routed through the Bahamas, the Dominican 
Republic, or Puerto Rico. Traffickers also use small aircraft and go-
fast boats to deliver cocaine to Puerto Rico. There are reports that 
traffickers track U.S. Coast Guard movements and select the time and 
location of deliveries to avoid interdiction. Recent interdiction 
operations illustrate how traffickers are operating.

          <bullet> On July 9th, the USS John L. Hall (FFG 32) 
        intercepted two go-fast boats off the coast of Panama and 
        seized 2,000 pounds of cocaine.
          <bullet> On July 24th, the Coast Guard Cutter Gallatin 
        conducted a consensual boarding of the coastal freighter 
        Apemagu and discovered numerous suspicious items. The Apemagu 
        was escorted to Guantanamo Bay where a detailed search found 
        1500 pounds of cocaine.
          <bullet> On August 4th, a Coast Guard aircraft from Air 
        Station Miami tracked a 42-foot go-fast boat with three 200HP 
        outboard engines as it rounded the eastern corner of Cuba and 
        proceeded through Cuban territorial seas toward Long Island, 
        Bahamas. Two helicopters from Operation Bahamas Turks and 
        Caicos detected the boat near Long Island and dropped off law 
        enforcement agents who seized the vessel, a vehicle that linked 
        up with it, 1600 pounds of marijuana and an undetermined amount 
        of cocaine.
          <bullet> On August 14th, the USS John L. Hall detected and 
        intercepted a 35-foot speedboat off the coast of Panama and 
        recovered forty-one bales of cocaine jettisoned by the 
        speedboat's crew.
          <bullet> Also on August 14th, the Coast Guard Cutter Valiant 
        located and boarded a suspected drug smuggling boat (the 
        Isamar) off the coast of Haiti, detecting numerous indicators 
        of drug smuggling. Valiant's boarding team requested and 
        received permission to remain onboard the Isamar until it 
        docked in the Miami River. A joint Coast Guard, Customs, DEA, 
        and FBI team boarded the vessel in the Miami River and found 
        5,100 pounds of cocaine.

    <bullet> Direct Transportation. Commercial cargo (both air and 
maritime) and air passengers (human mules) are frequently used to 
smuggle cocaine and heroin from South America to the United States. 
Traffickers route mules through third countries (e.g. Argentina and 
Chile) to minimize U.S. Customs' attention and avoid fitting 
``profiles.'' Cargo containers and agricultural shipments are commonly 
used to conceal cocaine in commercial vessels.

    Interdiction and Deterrence studies. In the Classified Annex of the 
1997 National Drug Control Strategy, ONDCP tasked the USIC to conduct 
an Interdiction Study to determine what resources are required to 
attain the Strategy's interdiction goals. In response, USIC and the 
interagency have assessed requirements in both the source and transit 
zones to accomplish goals specified in Presidential Decision Directive 
14, the National Drug Control Strategy, and the USIC Interdiction 
Guidance for 1998 which identifies Southeastern Colombia as the center 
of gravity for the cocaine industry. ONDCP, Customs, and the Coast 
Guard are conducting a study of the deterrence value of interdiction 
operations in the source, transit and arrival zones. Our intent is to 
develop models to assist commanders as they decide where and when to 
employ interdiction assets.
    The need for improved capabilities in the arrival zone. We face 
considerable drug-control challenges along our air, land, and sea 
frontiers. The Administration has made considerable strides 
strengthening enforcement along the Southwest border and the Southern 
tier which represents a significant drug-control challenge along the 
nation's air, sea and land borders. From 1993 to 1997, the 
Administration increased funding by over 40 percent for the Coast 
Guard, Customs and Immigration and Naturalization Service to support 
border enforcement activities along the Southern tier. This funding 
translated into more than 2,400 additional Customs and INS inspectors, 
2,800 new Border Patrol agents and force-multiplying enforcement 
technology such as x-rays and border sensors and cameras. Despite the 
great strides this Administration has made to strengthen our border, we 
estimate that only 20 percent of the cocaine crossing the border is 
seized.
        analysis of the western hemisphere drug elimination act
    The focus that members of Congress and their professional staff 
have devoted to this Bill reflects our shared commitment to ensuring 
our supply-reduction programs are effective. The Bill contains many 
useful ideas and budgetary initiatives. However, we have serious 
concerns with certain aspects of the Bill, including:

    The legislation's primary goal of reducing the flow of illegal 
drugs into the United States by not less than 80 percent by December 
31, 2001 is completely unrealistic. It is unlikely that the amount of 
cocaine departing South America for the U.S. market will decline 
appreciably before December 2001. Given that historically combined 
interdiction rates for cocaine in the transit and arrival zones have 
averaged about 33 percent, it is unlikely that this figure can be 
changed so dramatically in the next three and a half years. 
Consequently, reducing the flow of cocaine by 80 percent is not 
feasible. Furthermore, much of the equipment the legislation would 
authorize would not be fielded for several years and could not be 
deployed in time to work towards this objective. It is impossible to 
develop over the next four years political, criminal justice, and law 
enforcement institutions that are capable of standing up to the 
pressures exerted by drug trafficking international criminal 
organizations in all major source and transit countries. Absent such 
essential partners, the United States cannot unilaterally achieve this 
success rate. Legislating this goal would place an empty slogan instead 
of realistic strategy in front of the American people.
    Interdiction success is not the main determinant of illegal drug 
consumption. The reason that 50 percent of high school seniors smoke 
marijuana before graduation is not because foreign drugs are flooding 
the United States. Societal acceptance of illegal drug use, low risk 
perception, peer example, and drug availability--much of it from 
domestic sources--are all contributing factors. Marijuana usage 
accounts for about 90 percent of all juvenile illegal drug use. We are 
responding to this problem appropriately with the National Youth Anti-
Drug Media Campaign, by addressing shortcomings in the Safe and Drug-
free Schools program, by supporting community anti-drug coalitions, and 
by expanding treatment availability. In the end, we will solve the drug 
problem in America principally by decreasing demand for a drugged 
lifestyle. Supply reduction is also crucial, but only by taking a 
multi-pronged and balanced approach to the nation's drug problem can we 
hope to succeed.
    The specific legislative enhancements proposed by this Bill are not 
tied to a coherent strategy. The Bill fails to develop an overarching 
concept. It is neither linked to the existing drug threat nor tied to a 
clear strategic vision or operational concept. Instead, it mandates a 
series of tactical resource allocation decisions. The drug-control 
budgets, which the Executive Branch has submitted for congressional 
consideration, are tied to the goals, objectives, and performance 
measures elaborated in the ten-year National Drug Control Strategy. In 
sum, this Bill is micro-management of drug tactics based on a shallow 
analysis of the problem and our available tools.
    The legislation lacks flexibility. The Bill would impose inflexible 
requirements. Its provisions are too specific. For example:

          <bullet> 2 Schweizer observation/spray aircraft (to be 
        piloted by pilots under contract with the United States).
          <bullet> Acquisition of concertina wire and tunneling 
        detection systems at the La Picota prison of the National 
        Police of Colombia.
          <bullet> Forward deployment of 5 riverine operations 
        maintenance platforms.
          <bullet> Establishment of a third drug interdiction site at 
        Puerto Maldonado, Peru.
          <bullet> 2 mobile x-ray machines . . . for placement along 
        the Chapare highway. (The locations of such machines should not 
        be specified by statute but left to the discretion of 
        commanders on the ground.)
          <bullet> . . .  operation and maintenance of 1 J-31 
        observation aircraft.

    Wisely, the Congress never thought to tell General Norman 
Schwarzkopf where to deploy his armored forces during operation Desert 
Storm or when and how to attack. It would be inappropriate for the 
Congress to interfere in decisions that are properly those of duly 
appointed leaders, law enforcement officials, U.S. diplomatic 
personnel, unified commanders, the Secretary of State, and other 
responsible officials within the Executive Branch. This legislative 
approach would be bad government.
    The Bill proposes authorizations that are far in excess of expected 
appropriations and the President's budget without specifying where 
these funds will come from. The Bill would authorize $2.6 billion in 
appropriations in addition to those already authorized for fiscal years 
1999-2001. To date, Congress has not appropriated funds for many of the 
Administration's pending anti-drug abuse requests.
    The legislation infringes on the authority of the President and the 
Secretary of State. The bill infringes on the President's appointment 
powers and the Secretary of State's flexibility in personnel matters 
and intrudes upon well-established procedures for providing foreign 
military assistance.
    Transferring the Bureau of International Narcotics and Law 
Enforcement Affairs from the State Department to the Drug Enforcement 
Administration is a bad idea. The underlying assumption is that certain 
foreign assistance activities of the Sate Department could be better 
carried out by a law enforcement agency. This assumption is neither 
substantiated nor soundly based.
    Consolidation of all joint interagency task forces (JIATF) would 
reduce effectiveness. We are streamlining the existing interdiction 
command and control structure and have reviewed the National 
Interdiction Command and Control Plan. Planning is underway to 
consolidate JIATF East (based in Key West) and South (based at Howard 
Air Force base, Panama) as it becomes more likely that all U.S. 
military forces will be withdrawn from the Republic of Panama next 
year. Closure of JIATF West (based in Alameda, California) would 
disrupt DoD support to law enforcement agencies involved in heroin 
control efforts in Asia and cocaine interdiction efforts in the eastern 
Pacific. Closure of the El Paso based Joint Task Force 6 would also 
disrupt military support of drug-control operations along the Southwest 
border. ONDCP has presented specific recommendations regarding 
accountability and coordination of drug-control efforts along the 
Southwest border to the President's Drug Policy Council.
                               conclusion
    We share the Congress' view that drug availability in the United 
States can and must be substantially reduced. All of us at ONDCP 
appreciate your support of our balanced National Drug Control Strategy 
and major initiatives associated with it such as the National Youth 
Anti-Drug Media Campaign, the Drug-Free Communities Act, and the High 
Intensity Drug Trafficking Area program. However, the goals proposed by 
the Western Hemisphere Drug Elimination Act are unrealistic. This is a 
``ready, fire, aim'' approach. The ten-year Strategy developed in 
consultation with the Congress contains realistic goals. It proposes 
reducing drug availability in the United States by 25 percent by 2002, 
and by 50 percent by 2007 (1996 is the base year for comparative 
purposes).
    ONDCP believes that the Western Hemisphere Drug Elimination Act 
should not contain tactical-level directives to those who have legal 
responsibility, experience, and training for deciding where, when, how, 
and why to employ equipment and personnel to accomplish the goals of 
the United States Government. ONDCP respects the role of Congress to 
provide oversight. We understand that Congress must examine specific 
aspects of the administration's drug-control efforts anywhere in the 
world. Please be assured that we also view this Bill as representing a 
clear communication of congressional concern with international aspects 
of drug-control policy and U.S. hemispheric efforts. ONDCP will 
evaluate such congressional thinking respectfully and use your ideas to 
adjust our own actions.
    The Administration has submitted a FY 1999 drug control budget that 
includes 1.8 billion dollars for interdiction efforts--an increase of 
more than 36 percent since FY 1996. Proposed operating expense funding 
for the Coast Guard is 19 percent higher than in FY 1996. The 526 
million dollars requested for DoD support of interdiction is 27 percent 
increase over FY 96 spending. We would welcome the opportunity to 
explain in greater detail how each agency is organizing its programs to 
attain the objectives established in the National Drug Control Strategy 
and to debate the sufficiency of funding for any aspect of our supply-
reduction campaigns.
                               __________

                Prepared Statement of Brian E. Sheridan

    Mr. Chairman and Members of the Committee:
    Thank you for this opportunity to speak before you today. Our 
nation's drug problem is a grave one that affects the lives of millions 
of Americans. Crime and health problems associated with illicit drug 
use continue to have an adverse effect on our communities and among our 
young people. Meanwhile, as the Secretary of Defense has stated, 
illicit drug trafficking poses a ``national security'' problem for the 
United States.
    Addressing this problem, the President's National Drug Control 
Strategy articulates five strategic goals for our collective American 
effort to reduce illegal drug use and mitigate its consequences. The 
Department of Defense's counterdrug program constitutes an important 
part of the U.S. Government's multi-national and multi-agency approach 
to counter the flow of illegal drugs into the United States.
    DoD's counterdrug objectives are to reduce drug use in the DoD 
uniformed services and the broad DoD community, to assist international 
and domestic law enforcement to disrupt illegal drug traffic into the 
United States, and to support domestic law enforcement to interdict 
drugs and drug operations in the United States. The Department's 
program is designed to employ the unique assets and personnel skills at 
its command to complement and support those of other U.S. agencies and 
cooperating foreign countries. Authority to accomplish these objectives 
includes 10 USC 124, section 1004 of the National Defense Authorization 
Act for FY 1991, as amended, section 1033 of the National Defense 
Authorization Act for FY 1998, and 506(a)(2)(A) of the Foreign 
Assistance Act of 1961, as amended. In addition a program implementing 
10 USC 2576(a) provides excess DoD equipment to federal and state 
agencies for counterdrug activities.
    While the Department provides support across the National 
Strategy's five goals, the focus of the Department's counterdrug is on 
two particular goals: Shield America's Air, Land, and Sea Frontiers 
from the Drug Threat (Goal 4); and Break Foreign and Domestic Drug 
Sources of Supply (Goal 5). DoD also supports the other three strategic 
goals: Educate and Enable America's Youth to Reject Illegal Drugs (Goal 
1); Increase the Safety of America's Citizens by Substantially Reducing 
Drug-Related Crime and Violence (Goal 2); and Reduce Health and Social 
Costs to the Public of Illegal Drug Use (Goal 3).
    Goal 1 (Educate and enable America's youth to reject illegal 
drugs): This fiscal year, DoD will spend $14.5M to conduct DoD family 
outreach programs to military dependents. These programs consist of a 
mixture of positive mentoring, drug avoidance education, leadership 
skill, peer pressure resistance, and counseling services. In addition, 
military personnel volunteer in drug abuse prevention programs through 
various community-based programs. The lack of appropriate legal 
authorities prevents the Department from conducting most outreach 
programs beyond the local military communities. Nevertheless, there are 
two exceptions to this limitation: the Young Marines program, and the 
National Guard State Plan funded outreach programs. These efforts focus 
on providing positive role models and drug awareness education for at-
risk youth.
    Goal 2 (Reduce drug-related crime and violence, through domestic 
law enforcement support): This year, DoD will spend $108.2M to respond 
to federal, state, and local drug law enforcement agency requests for 
domestic operational and logistical support to assist them in their 
efforts to reduce drug related crime. This support is provided by the 
National Guard and active duty personnel, and serves as a force 
multiplier for law enforcement agencies. I would note that the 
Department is not interested in militarizing law enforcement in the 
U.S. Since 10 U.S.C. 385 specifically prohibits direct participation by 
military personnel in law enforcement activities, DoD is limited to 
playing a supporting role for law enforcement. Military personnel do 
not engage in law enforcement activities such as apprehension or arrest 
of U.S. citizens or seizure of their assets.
    With regards to the National Guard support, DoD annually approves 
and funds the 54 state and territorial governors' plans for use of the 
National Guard in support of law enforcement counterdrug operations. 
The National Guard provides a wide range of support to include aerial 
and surface reconnaissance, intelligence analysis, linguists, 
engineering, and training. In addition, through the National Guard, the 
Department funds several training academies for domestic law 
enforcement agencies including the Regional Counterdrug Training 
Academy (RCTA) at Meridian, Mississippi, and the Multi-Jurisdictional 
Task Force Training Academy at St. Petersburg, Florida.
    Through Joint Task Force Six, DoD provides coordinated operational 
support by active component and reserves to domestic law enforcement 
agencies throughout the continental United States (excluding the U.S. 
Southwest Border, Southwest Border support is under Goal 4). Our 
domestic support efforts are prioritized to optimize the operational 
impact in designated high intensity drug trafficking areas. The type of 
support that we are authorized to provide includes: aerial 
reconnaissance, intelligence analysis, linguists, engineering, 
transportation, training and maintenance. DoD also provides domestic 
law enforcement agencies with counterdrug training by the U.S. Army 
Military Police School, Uniformed Services University of Health 
Science, Navy-Marine Intelligence Training Center, and the Civil Air 
Patrol. Additionally, DoD operates a military detailee program to 
assist Federal drug law enforcement agencies. Finally, DoD transfers 
excess personal property to drug law enforcement agencies to support 
their equipment needs where possible.
    Goal 3 (Reduce costs resulting from illegal drug use, through the 
DoD demand reduction effort): This year, the Department will spend 
$74.6M on drug demand reduction programs. The primary focus of our 
demand reduction program is force readiness. Through this program, the 
Department strives to convey that drug abuse is completely incompatible 
with military preparedness; therefore, there is no tolerance for drug 
abuse within the military forces.
    DoD's demand reduction program consists of three components: drug 
testing for military and civilian personnel, drug abuse prevention/
education activities for military and civilian personnel and their 
dependents, and drug treatment for military personnel. Drug testing 
funding supports the operation of the six military drug testing 
laboratories which test active duty military members, the contract 
costs of drug testing Defense Department civilians, and the contract 
costs for reserves and new military entrants. Funding for prevention/
education activities supports Service and Defense Agency-specific 
programs aimed at ensuring that military and civilian members 
understand the dangers of drug abuse to the individual, the family, and 
the broader DoD community. Only limited funding is provided for drug 
abuse treatment, as other sources of DoD support are available for this 
function.
    Goal 4 (Shield America's air, land, and sea frontiers from the drug 
threat): Despite increased efforts to attack the cocaine threat at its 
source, drugs continue to flow to the U.S. due to the pervasive nature 
of the narco-trafficking business and the geographic immensity of the 
threat region. DoD will spend $401 .6M in FY98 on programs that use 
cued-intelligence to assist law enforcement and transit nation forces' 
detection, monitoring and interdiction operations against the transport 
of cocaine through the Caribbean, the East Pacific, Central America, 
and across our southwest border.
    Because the drug smuggling threat has changed from predominantly an 
air threat to a maritime threat, continuing flexibility is essential, 
and is incorporated within DoD's transit zone program. Among the 
various DoD efforts in the transit zone, the Department maintains a 
robust, flexible, and cost effective detection and monitoring 
capability that can counter the changing smuggling threat. In support 
of Goal 4, the Department operates and two Relocatable Over-The-Horizon 
Radars (ROTHR), seven P-3 Counterdrug Upgrade aircraft, E-3 AWACs, four 
E-2s, four F-16 fighters, three Navy combatants, and three TAGOS radar 
picket ships. These assets provide an exceptional air detection and 
monitoring capability throughout the 6 million square-mile transit 
zone, and provide a flexible maritime surveillance and interdiction 
capability. Additionally, through the Tethered Aerostat Radar System, 
DoD provides critical low-altitude radar surveillance of the Caribbean 
and southwestern approaches into the U.S. An aggressive research and 
development program continues to provide a variety of substantial 
technology upgrades to the ROTHR system, greatly enhancing its 
detection and tracking performance.
    DoD support to Joint Inter-Agency Task Force (JIATF)-East provides 
the operational command, control, and tactical intelligence for the 
transit zone cocaine operations. Moreover, DoD support to JIATF-West 
provides important intelligence capabilities to DEA-led efforts to 
address U.S.-bound heroin smuggling in Southeast and Southwest Asia, 
and has proven instrumental in improving participating nation 
counterdrug capabilities.
    Improvement of Mexico's drug interdiction capability continues to 
be a key interest as approximately 57% of the cocaine entering the U.S. 
passes through Mexico. DoD's ongoing cooperation with the Mexican 
military is maintained through a military-to-military bilateral working 
group process.
    A DoD-funded National Guard program provides support to drug law 
enforcement agency operations along the US southwest border, in Puerto 
Rico and in the Virgin Islands. In support of this goal, the National 
Guard provides a wide range of support to include aerial and surface 
reconnaissance, and cargo inspection at ports-of-entry to deny illegal 
drugs from entering the U.S.
    Through Joint Task Force Six, DoD provides support to law 
enforcement by active component and reserves along the Southwest 
border. Efforts are prioritized to optimize the operational impact on 
the Southwest Border to deny the smuggling of illegal drug into the 
U.S. The support that DoD provides includes reconnaissance intelligence 
analysis, linguists, engineering, transportation, training and 
maintenance.
    As directed by Congress, DoD is successfully completing the non-
intrusive inspection technology research and development program with 
all major systems being completed by FY00. In FY99, DoD counterdrug 
research and development program will focus on technology to support 
non-intrusive inspection systems, detection and monitoring, 
interdiction, tactical operations on the Southwest border, and 
intelligence collection supporting interdiction.
    DoD participation, in the form of detection and monitoring assets, 
personnel, and operational support to cooperating nations in the 
transit zone continues to result in the successful seizure and 
trafficker jettisons of over 100 metric tons of cocaine each year--
preventing that cocaine from reaching the U.S. for consumption by drug 
abusers.
    Goal 5 (Break foreign and domestic drug sources of supply): This 
year, the Department will spend $249.0M in support of this goal. A 
major component of DoD's effort in this area is to provide critical 
intelligence collection and support to the interagency Linear Approach, 
whose focus is the dismantling of cocaine cartels and the disruption of 
the cocaine ``business.'' In addition, DoD carries out a focused 
program to improve participating nation air, land, riverine, and 
maritime interdiction and end game capabilities of cocaine source 
nations. Such DoD training, logistics, intelligence, and communications 
support are intended to assist source nation counterdrug forces in the 
move toward self-sufficiency in their counterdrug efforts. The 
Department's objective is to provide the maximum, effective support 
possible within the legal constraint that prohibit direct U.S. 
participation in actual field operations.
    When combined with in-country counterdrug efforts supported by the 
State Department and other agencies, this program has the potential to 
substantially curtail the cocaine ``business'' in the cocaine source 
countries of Colombia, Peru, and Bolivia. Such end game support for 
Peru over the past two years has been instrumental in a dramatic 40% 
decrease in coca cultivation which resulted from an inability to move 
coca base out of Peru. Similar complementary efforts in the bordering 
countries (i.e., Ecuador, Brazil, and Venezuela) are also included in 
the program.
    In response to the traffickers increasing use of the source 
region's vast river network to move their product, the Commander-in-
Chief the U.S. Southern Command has worked closely with U.S. embassy 
personnel to assist participating nation law enforcement organizations 
in developing a credible riverine interdiction capability in Peru. As 
part of this effort, the U.S. Marine Corps and Special Operations 
Forces personnel provide critical training to host nation forces 
assigned to the riverine interdiction mission. Moreover, under the 
auspices of Section 1033 of the National Defense Authorization Act of 
FY98, the Secretary of Defense was given 5-year authority to purchase 
and transfer riverine patrol boats, maintain and repair equipment, and 
perform other associated types of support specified in the legislation. 
The program also supports enhancements to Colombia's existing riverine 
program by providing equipment and maintenance support.
    There is a clear and continuing opportunity to disrupt the cocaine 
``business,'' coca-growing areas of Peru and Colombia. Capitalizing on 
this opportunity, DoD provides support to Peru's ground-based 
interdiction operations. This is a critical program since Peru remains 
the primary source for the cultivation of coca, although production has 
decreased dramatically from the FY95 levels. Our support in this area 
is designed to enhance the Peruvian counterdrug forces' mobility in 
remote trafficking areas and their effectiveness in interdicting coca 
product movement. Through extensive training, both in Peru and at U.S. 
military facilities, and minor construction work to enhance jungle 
operating base infrastructure, this program strives to improve the 
operational mobility, flexibility and response capability of Peruvian 
counterdrug forces.
    A significant portion of DoD source nation support is devoted to 
the use of assets to detect and monitor the movement of cocaine and 
coca products within South America. Specifically, source nation support 
involves the use of E-3 AWACs patrols and ground radars which detect 
suspected narcotrafficking aircraft. The detection information is 
handed off to U.S. or participating nation tracker aircraft and 
participating nation end game aircraft. Additionally, the Department 
deploys both Tactical Analysis Teams to assist U.S. embassies in source 
nations with intelligence and target analysis and Special Operations 
Forces-manned Joint Planning Assistance Teams which work directly with 
participating nation drug law enforcement leadership on operational 
planning. Lastly, the Department will oversee the construction and 
operation of the third Relocatable Over-The-Horizon Radar (ROTHR) in 
Puerto Rico with a surveillance range capable of effectively covering 
the Peru/Colombia/Brazil Airbridge Region as well as the operation of 
the Caribbean Basin Radar Network.
    As you can see, the Department continuously strives to apply our 
unique assets and personnel skills to improve the effectiveness of our 
Nation's counterdrug efforts. We strive to ensure that the maximum 
operational impact is achieved with the funds available. While DoD's 
support to law enforcement alone cannot solve the Nation's drug 
problem, we have made steady progress in running a cost-effective, 
high-impact program against a quickly changing threat. Over the years, 
we have worked closely with our authorizing and appropriating 
committees as well as others as continue to pursue high-impact ways to 
support the work of law enforcement agencies both at home and abroad. 
We look forward to our continued collaboration in this important 
effort.
    Thank you.
                               __________

 Responses to Additional Questions Submitted for the Record by Members 
                  of the Committee and the Task Force

                 Questions Submitted to Samuel H. Banks

    Question. U.S. forces cannot remain in Panama beyond 1999 unless an 
agreement is reached with Panama to let them stay; efforts to negotiate 
such an agreement have foundered. Right now there are several U.S. 
Customs airplanes stationed out of Howard that do work in Andean and 
Caribbean airspace. What back-up plans has Customs developed to 
substitute for Howard Air Force Base in Panama as a platform for U.S. 
anti-drug activities in the region? Will these alternatives be more 
costly than operating from Panama or will these alternatives impact on 
the effectiveness of anti-drug operations?

    Answer. U.S. Customs is dependent on the Department of Defense to 
coordinate and establish a forward operating location similar to Howard 
AFB, Panama. U.S. Customs is working diligently with the U.S. Southern 
Command to survey and identify a forward operating location that will 
not impact our mission effectiveness. Based on our past experience, 
U.S. Customs prefers Curacao as a suitable forward operating location 
for our C-550 and P-3 interdiction aircraft supporting the Andean and 
Caribbean airspace. In order to be effective in Southeastern Colombia, 
Venezuelan overflight would be required when operating out of Curacao.
    In the event a forward operating location similar to Howard AFB 
were not established in a reasonable amount of time, U.S. Customs P-3 
operations would continue out of Guantanamo Bay, Cuba, Puerto Rico and 
Curacao, respectively. Deployments similar to those conducted in the 
past would more than likely be scheduled out of Guayaquil, Ecuador, and 
Lima, Peru. Citation deployments, on the other hand, could conceivably 
be conducted out of Curacao, Netherland Antilles and Barranquilla, 
Colombia. Final disposition is predicated upon favorable site surveys. 
USCS personnel will conduct the requisite site surveys in the month of 
December 1998.

    Question. What specific plans do you have to address the go-fast 
boats that smuggle drugs and evade capture through the shallow waters 
in the Bahamas?

    Answer. U.S. Customs sponsored the accomplishment of Operation Plan 
Nancy, Mod C, which is the current interdiction plan for the Bahamas. 
Operating within the guidelines of this plan, U.S. Customs, in 
conjunction with U.S. Coast Guard marine assets and the Drug 
Enforcement Administration, routinely provides P-3 AEW, PA-42 CHET and 
C-550 interceptor tracker support to Bahamian interdiction operations. 
Participation by Customs aviation resources in Bahamian interdiction 
operations has resulted in numerous seizures of aircraft, boats and 
contraband. Since October 1991, we have chased approximately 40 
airborne targets of interest (ATOI) that were destined to the Bahamas 
or Haiti. Of these 40 targets, only 2 resulted in a successful end-game 
in the Bahamas. In addition to these two end-games, there were some 
seizures made in Colombia after the suspect aircraft had either aborted 
its airdrop due to high law enforcement presence in the drop area or 
had made a successful drop to awaiting vessels. The major reason that 
only 10% of the targets detected resulted in an end-game is the 
desperate need for shallow-water go-fast type vessels to intercept the 
waiting fast-boats after the drop has been made. U.S. Customs will 
continue to provide a high level of support to Bahamian interdiction 
operations.

    Question. Some experts say that the best way to disrupt the 
production and supply of drugs is to raise the risk that the 
traffickers run. Isn't it logical that our best hope of raising those 
risks is by focusing our limited resources in the relatively smaller 
target area in the producing zones rather than the huge transit zone, 
border, or on every American street corner.

    Answer. Stopping drugs at the source is a valid concept; however, 
the effectiveness of this plan is dependent on the geopolitical 
environment in key source zone nations. Unfortunately, insurgent forces 
have successfully intertwined drug trafficking and production in areas 
where heavy insurgent activities exist. This unfortunate situation has 
made it difficult, if not impossible, to effectively interdict and 
eradicate the drug traffickers in the source zone, particularly in 
South Eastern Colombia. During the past year, approximately 100 
airborne and marine targets were detected and tracked by U.S. Customs 
into and adjacent to the South American landmass. Of these 100 targets, 
approximately 20 resulted in some type of end-game.
    The most difficult obstacle to conducting effective ``Air Bridge 
Denial'' operations is in ensuring that detection and monitoring 
missions are undertaken in areas where participating nations have the 
resources and capability to respond. To date most operations continue 
to emphasize ``sustained operations.'' We lack the resources to 
effectively conduct these type of operations. More emphasis must be 
placed on focused operations. We need to identify weaknesses in the 
source zone drug transportation infrastructure and conduct intense, 
short-term, focused operations in concert with our foreign partners 
against those weaknesses.

    Question. The Brazilian government recently has made an 
extraordinary commitment to fighting drugs. What specific assistance is 
the US Customs Service prepared to provide to assist Brazil in these 
efforts? Has any of these services been requested?

    Answer. Most of the cocaine base and HCL leaving Peru for Colombia 
transits through Brazil. Most agencies estimate that Peruvian smugglers 
will increase their use U.S. Government assets, including the U.S. 
Customs Service P-3 AEW and P-3 Slick aircraft, are not allowed to 
enter Brazil airspace. There is currently no mechanism in place to 
request ``hot pursuit'' overflight. This affords drug smugglers a 
significant tactical advantage. Brazilian officials have routinely 
refused to allow USC aircraft to overfly their territory. To the best 
of our knowledge, this refusal is based on sovereignty concerns 
specific to overflight of U.S. military aircraft.
    U.S. Customs is prepared to provide expert law enforcement advice 
to Brazilian law enforcement personnel. At this juncture, the Brazilian 
government has not requested any type of assistance from the U.S. 
Customs Service. Our current commitment to Colombia has exhausted our 
available detection and interdiction resources. Once our additional P-3 
aircraft become available, Customs will be able to provide this type of 
support to Brazil if requested.

    Question. The United States has provided extraordinary resources 
(helicopters, technical assistance, etc.) to support Mexico's anti-drug 
efforts. In addition, extraordinary Customs and Border Patrol resources 
have been deployed on the U.S.-Mexican border in the last several 
years. What results do we have to show for this investment? Are cocaine 
seizures up or down in the last 12 months, and by how much? Have any 
Mexican kingpins been prosecuted and sentenced for drug crimes? Have 
any criminals been extradited to the United States?

    Answer. The Government of Mexico has made progress in their fight 
against drug trafficking in spite of corruption problems within their 
own government.
    Drug kingpins have been arrested and many are now awaiting trial. 
As for extradition, Mexican law prohibits extradition of Mexican 
citizens who have legal charges pending against them; such individuals 
will not be considered for extradition until Mexican charges have been 
prosecuted. One member of the Gulf Cartel, Oscar Malherbe De Leon, has 
been arrested in Mexico and is subject to extradition. The only Mexican 
kingpin extradited to the U.S. was Juan Garcia Abrego, leader of the 
Gulf Cartel, who was extradited in 1996.
    The Mexican Attorney General's Prosecutor (PGR) reports 34.3 tons 
of cocaine seized in 1997 and 17.2 tons cocaine seized through July 
1998. While seizure numbers are slightly down from the previous year, 
some of this decline in seizures can be attributed to poor weather and 
the economic decline of Mexico during this last year.
    In 1997 there were 7 major cartel members sentenced to a total of 
161 years. Seven members of Arellano FELIX Cartel and eight members of 
the Juarez Cartel were arrested or killed.

    Question. As a portion of the overall drug control budget, spending 
on interdiction and source country actions has declined precipitously 
since the peak. In your opinion, is this because the domestic threat is 
proportionally greater now than it was then?

    Answer. The drug trafficker's proliferation of our borders and the 
source and transit zones has increased proportionally. Since 1995, the 
U.S. Customs overall budget and spending on interdiction activities has 
been relatively flatlined. The Customs aviation program's strength was 
reduced and a significant number of our interdiction aircraft was 
placed in storage. Also, the Customs marine program was reduced.
    Through the most recent efforts of Congress via an emergency 
supplemental, the United States Customs Air Interdiction Program was 
appropriated an additional $162.7 million in operations and maintenance 
for source and transit zone initiatives. In addition, $7 million was 
appropriated for a new P-3 hangar facility to accommodate additional P-
3 aircraft. However, an additional $16.3 million appropriated for 
additional air interdiction staff has been restricted through 
apportionment to overtime costs only. The aforementioned appropriation 
will enhance the overall effectiveness of the drug control strategy. 
The United States Customs Service deeply appreciates Congressional 
support of its programs.

    Question. Interdiction funding has been flat since 1992. If more 
interdiction resources were to be made available, do you think they 
could make a substantial difference? Or is the US interdiction effort 
at the saturation point, where additional resources would do more to 
complicate existing efforts that provide any benefit?

    Answer. As demonstrated in the 1980's, a significant increase in 
interdiction resources would make a substantial difference in 
decreasing the flow of drugs into the United States. Due to the 
tremendous appetite the American people have for illegal drugs, an 
increase in supply reduction resources is necessary to attack this 
problem with a balanced approach, which includes demand and supply 
reduction. This increase in supply reduction resources would make it 
more difficult for traffickers to deliver their contraband and 
significantly decrease the drug trafficker's profit margin. This result 
along with demand reduction should bring a significant decrease in drug 
use in the United States.

    Question. Over the past few years, Congress and Customs have worked 
hard to increase Customs presence and enforcement capability along the 
Southwest border. Some of these resources have come from other areas of 
the country. Do you believe Customs current resources along the SW 
border are adequate? Overstaffed? Should some of these resources be 
shifted back to locations such as Miami or New York, where they were 
taken from?
                                 ______
                                 

               Questions Submitted to William Brownfield

    Question. What do you consider the most cost-effective use of the 
anti-drug dollar: domestic demand-reduction activities or international 
programs to suppress or interdict supply? Isn't it much more difficult 
to interdict small amounts of drugs throughout the vast areas in which 
they are transited or sold than it is to suppress its production and 
interdict it in the relatively smaller areas where they are produced?

    Answer. In order to deal effectively with the problems of drug 
abuse and narcotrafficking we must use all of the tools at our 
disposal: demand reduction, domestic law enforcement, international 
programs, and interdiction. Only by maintaining a sustained effort on 
all fronts will we make progress; each aspect of this assault on 
narcotrafficking complements the others. Ultimately, however, the most 
effective way to reduce permanently the availability of drugs derived 
from illicitly grown narcotics-producing crops is to eliminate the 
crop. Drug-producing crops tend to be more concentrated and detectable 
than other narcotics trafficking targets, making them more vulnerable 
to a range of suppression programs. INL therefore believes that the 
source country strategy now being implemented is a cost-effective use 
of counternarcotics dollars.

    Question. U.S. troops cannot remain in Panama beyond 1999 unless an 
agreement is reached with Panama to let them stay: efforts to negotiate 
an agreement have foundered. What back-up plans has the Administration 
developed to substitute for Howard Air Force base in Panama as a 
platform for U.S. anti-drug activities in the region? Will these 
alternatives be more costly than operating from Panama or will these 
alternatives impact on the effectiveness of anti-drug operations? For 
example, aren't cost and effectiveness adversely affected if we have to 
build a new facility or if we have to use a site further away from the 
operating area, which is principally in the Andean region?

    Answer. The Department of State and the Department of Defense are 
working together in a search for forward operating locations (FOLs) to 
provide counternarcotics support in Latin America. As part of our 
search for forward operating locations, we have been in contact with 
several strategically located governments in the region which may be 
interested in hosting these facilities. Obviously, there are 
sensitivities in the region to hosting USG Military facilities.
    It is my impression that the change from Howard Air Force Base will 
impact both the cost and effectiveness of anti-drug operations. On the 
issue of effectiveness, our goal is to establish an FOL structure that 
will provide the most responsive support possible. The degree to which 
effective support can be provided will depend on the location, or 
combination of locations, of the FOLs and the local support services we 
are able to obtain at each of them. On the question of cost I 
respectfully refer you to the Department of Defense.

    Question. In what ways could the U.S. military be more effective in 
its smuggling detection and monitoring role? Is the Defense Department 
adequately committed to carrying out this role as a priority mission?

    Answer. We believe that the Department of Defense is committed to 
supporting USG counternarcotics efforts through its detection and 
monitoring role. According to DOD, approximately 88% of suspect aerial 
traffic comes under DOD detection and monitoring scrutiny. The 
equivalent figure for maritime tracking events is 33%. Given the vast 
area that must be covered, only continued improvement in USG and host 
country intelligence programs will allow DOD assets to be positioned 
more accurately.

    Question. What specific plans does the Administration have for 
controlling the illicit flights carrying drugs from producing zones in 
Colombia to the northern coast (which is the staging area for transit 
to the United States)?

    Answer. The Administration is working to address this problem in 
several ways. First, the Government of Colombia is successfully 
instituting a civil airplane registration program, with fraud resistant 
stickers which must be applied to all aircraft within Colombia. The 
program will make it easier to identify drug planes, confiscate them 
and arrest their owners. Building on the success of this ongoing 
program, we hope to institute a program to install electronic beacons 
on all civil aircraft to provide a further means of identifying and 
tracking illicit traffic.
    Successful interdiction of drug flights depends heavily on 
intelligence to tip the authorities to impending drug flights. State 
and DEA are working to improve the technical intelligence gathering 
ability of the Colombian National Police by providing additional 
equipment and training.
    Once drug flights have been identified, end game capability is 
required. DoD has the responsibility within the USG for providing 
detection and monitoring assets to assist the Colombians in this task. 
We are also working with the Colombian Air Force to develop the 
capability to safely interdict drug flights. We are providing night 
vision goggles and training in their use, and are working to improve an 
airfield in southern Colombia for interceptor use. Future plans include 
expansion to another base in eastern Colombia to address the problem of 
traffic diverting through Brazil to avoid the successful Peruvian 
aerial interdiction program.

    Question. The Brazilian government recently has made an 
extraordinary commitment to fighting drugs. What specific assistance 
are we prepared to provide to assist Brazil in these efforts?

    Answer. The Government of Brazil's (GOB) willingness to cooperate 
with the U.S. in the areas of counternarcotics (CN) and law enforcement 
has increased significantly in the past year. Given the nature of the 
threats to U.S. counternarcotics and law enforcement interests, our 
main objectives with the GOB are to:

          (1) help the Brazilian authorities gain control of the Amazon 
        region by denying drug traffickers in the air and on the water;
          (2) assist the GOB to bring order to the Brazil, Argentina, 
        Paraguay ``tri-border'' area by asserting control over their 
        borders and thwarting the efforts of smugglers, money 
        launderers, and other criminal elements; and
          (3) encourage the GOB to assume a leadership role in the 
        region in the areas of counternarcotics and law enforcement by 
        dismantling international drug trafficking organizations.

Specifically:

          --In August, we offered to receive a team of Brazilians to 
        examine border control procedures along the U.S.-Mexico and 
        U.S.-Canada borders. We also proposed bilateral meetings on an 
        annual basis to plan and evaluate our cooperative efforts 
        regarding counternarcotics and law enforcement.
          --On September 25, we signed a bilateral agreement to provide 
        $1,562,000 for support of a vetted counternarcotics federal 
        police unit; and a combination of counternarcotics/law 
        enforcement assistance which includes federal police 
        enforcement projects, Administration of Justice/judicial task-
        force, money laundering, and arms trafficking control training, 
        organizational operations that provide public information, and 
        other drug education, treatment and demand reduction programs.
          --In FY 98, we designated $2 million in 506(a) drawdown 
        authority for provision of patrol boats, equipment and 
        communications gear to assist the Brazilian Coast Guard and 
        federal police counternarcotics division for interdiction and 
        law enforcement purposes.
          --In FY 98, we provided $150,000 in criminal justice training 
        programs through the Department of Justice.

    Question. What plans does the Administration have for the 
replacement of anti-drug facilities in the Guaviare region in the coca-
producing zone of Colombia?

    Answer. We fully support the expressed desire of the Colombian 
National Police to reestablish a permanent base in or near Miraflores, 
a major narcotics trafficking center. We have money identified in our 
FY98 budget for construction projects and for security improvements, 
which can be drawn upon to help share the costs of building a new, more 
secure base. We will have an identical line item in our FY99 budget, 
once approved. We are currently engaged in discussions with the CNP as 
to where exactly this base should be and what it will look like.

    Question. Interdiction funding has been flat since 1992. If more 
interdiction resources were to be made available, do you think they 
could make a substantial difference? Or is the US interdiction effort 
at the saturation point, where additional resources would do more to 
complicate existing efforts than provide any benefit?

    Answer. Although State/INL does not conduct interdiction 
activities, our programs complement those of the interdiction agencies. 
For example, INL programs, including those that train judicial and law 
enforcement personnel in the Western Hemisphere source and transit 
countries, prevented approximately 125 metric tons of cocaine from 
entering the U.S. in 1997. In addition, INL's support of eradication 
efforts in Peru and Bolivia led to a net reduction of 27,900 hectares 
of coca under cultivation.
    International drug and crime control efforts, including 
interdiction, can always use additional funds. Additional funding, 
however, must be provided within the context of our ability to sustain 
operations and consistent with our overall strategy. That strategy 
emphasizes elimination of narcotics production at the source. In the 
coming year INL will expand eradication programs in Latin America where 
overall coca cultivation is clearly on the decline. We will also 
continue to upgrade our aviation assets, and we will allocate more 
money towards international organizations and Asian programs to 
confront the worsening opium and heroin problems originating in Burma 
and Afghanistan.

    Question. There is a continual debate about the volume and kind of 
support we provide Colombia to aid their actions in their fight against 
narcotics traffickers. What do you feel would be the one most important 
item we could provide the Colombians that would make the biggest 
difference?

    Answer. Our support to the Government of Colombia in the fight 
against narcotics traffickers is a comprehensive package. It involves 
aerial eradication, interdiction, judicial reform, and training. We 
work through an interagency process that involves ONDCP, DEA, DOJ, CIA, 
DOD, Treasury, and the Coast Guard. This allows us to bring together 
the best minds in the Federal Government to produce solutions to the 
narcotics problems in Colombia.
    We believe our combined interagency efforts are working to provide 
the Government of Colombia with the best comprehensive counternarcotics 
package within our fiscal resources. We do not believe there is one 
single, big-ticket item, which will have a major impact in Colombia. 
This impact is achieved through consistent and aggressive application 
of solid programs. The emphasis should be, and is, to fund training and 
operations, not acquisitions.

    Question. The State Department--and INL in particular--has received 
a lot of criticism in the past about the speed in which equipment that 
has been authorized and purchased is delivered to the host country. Are 
there any recommendations that you would make to Congress to speed up 
or smooth out the current process.

    Answer. The problems INL has from time to time encountered in 
delivering equipment and materiel to host nations have resulted from a 
number of circumstances outside INL's control. Delivery of mini-guns 
for helicopters has been delayed because the required items have not 
been available from DOD stocks. The return to service of CNP UH-1H 
aircraft grounded because of engine vibration problems has been delayed 
because INL is only one of many customers in need of limited production 
replacement parts. Deployments of C-26 aircraft have been delayed by 
slow host nation responses to INL bilateral agreements and 
legislatively required Section 505 agreements. The resolution of legal 
and funding issues raised by the Department of Justice delayed delivery 
of a seized DC-3 to Colombia. The nature and condition of drawdown and 
surplus equipment complicates its delivery. INL has not encountered 
similar problems when the need has been simply to procure and ship 
required equipment.
                                 ______
                                 

                 Questions Submitted to Dr. Barry Crane

    Question. What do you consider the most cost-effective use of the 
anti-drug dollar: domestic demand reduction activities or international 
programs to suppress or interdict supply?

    Answer. Within the uncertainties uncovered by our analyses \1\ and 
the general results of previous demand analyses, I believe that supply 
and demand programs have about the same theoretical cost effectiveness, 
if executed effectively. Actual cost effectiveness, however, depends 
upon the results of specific and well-understood operations. 
Fortunately for interdiction, the types of successful operations are 
reasonably well understood, equipment can be specified in detail, and 
proven empirical performance measures can be compared to past data. In 
1997, our most important theater-wide operation failed because only 
half of the resources were available to execute the interdiction plan 
against all critical axes simultaneously--such resources had been 
available 5 years ago, but the intelligence and successful operational 
concepts were not.
---------------------------------------------------------------------------
    \1\ ``An Empirical Examination of Counterdrug Interdiction Program 
Effectiveness,'' Jan 1997, IDA.
---------------------------------------------------------------------------
    Anti-drug dollars should not be placed into the general demand or 
supply areas, without specifying proven programs to reduce use that are 
independently measurable. Since interdiction resources were 
substantially reduced in 1993 and the balance of the effort was shifted 
away from interdiction programs, the number of new users in all drugs 
has grown dramatically. With rapidly increasing incidence, prevention 
measures and reduction of supply are most likely to reduce incidence. 
Serious researchers can clearly demonstrate empirically that many types 
of interdiction operations substantially reduce use.
    We should spend the anti-drug dollar on programs that work to 
reduce incidence and use measurable criteria to evaluate results. Clear 
empirical evidence from past interdiction operations in Peru indicated 
that severely curtailed international base transportation flights 
caused large reductions in use. Attacks on the larger cocaine 
production laboratories have also caused significant, but shorter term, 
reductions in use. Interdicting a modest number of illegal coca 
transportation flights within Colombia can cause a very large reduction 
in cocaine use (more than 50 percent). Reasonable resources are 
necessary to accomplish this: approximately three bases within Colombia 
spread out in three critical locations; a half dozen operational 
trackers that are forward deployed; and about 18 interceptors to 
intercept, inspect, and force down illegal flights. Fewer than 20-30 
percent of these illegal flights need to be detected and only 2-5 
percent need to be forced down. Our early research about operations in 
Peru predicted that interdiction of the base supply leaving Peru would 
yield a large US price increase and an approximate 25 percent reduction 
of use. With US assistance these operations were actually conducted by 
the Peruvian AF in 1995 and the predicted price rises and reductions in 
use occurred. Careful analyses using past lessons in Peru show that 
interdiction forces are too small by at least a factor of two--even if 
the interdiction operations are ideal.

    Question. Isn't it much more difficult to interdict small amounts 
of drugs throughout the vast areas in which they are transited or sold 
than it is to suppress its production and interdict it in the 
relatively smaller areas where they are produced?

    Answer. It is more difficult to intercept many drug loads in kilo 
or metric ton sizes than to disrupt large fractions of the cocaine 
production or transportation systems. Interdiction of the cocaine air 
transportation systems or production laboratories has been observed to 
cause large increases in price and reductions in usage and purity. Coca 
raw products come from small growing areas, are heavily dependent on 
air transportation, and need efficient production laboratories. A 
substantial percentage \2\ of disruption from attacks on major 
production laboratories and transportation nodes of the cocaine 
industry is passed up to the domestic market as large price/purity 
changes and subsequent reduction in usage. Operations against Colombian 
production laboratories in the last 15 years have demonstrated 
increased prices and reduce use, but the most dramatic successes come 
from interdiction of coca raw material coming out of Peru. Only the 
sustained air interdiction of coca base out of Peru has caused 
sustained reductions in purity and use (estimated from the SmithKline 
Beecham Clinical Laboratory reductions in positive test results). While 
large reductions in use are possible from severe disruptions of coca 
growing and production complexes, I am mindful that US law enforcement 
agencies seize about a third of the total finished cocaine. To continue 
to be effective, no letup in our current domestic and transit zone 
activities can be accepted. When the source zone is put under severe 
pressure, the traffickers must take more risks, which will likely 
increase their losses relative to today's results.
---------------------------------------------------------------------------
    \2\ ``An Empirical Examination of Counterdrug Interdiction Program 
Effectiveness,'' Jan 1997. We showed that large disruptions of coca 
base were well correlated to substantial domestic price increases and 
inferred at least a 25 percent drop in positive testing rates from 
corporate casual users.

    Question. According to the Office of National Drug control Policy 
figures, in 1987, 29 percent of the national drug control budget was 
allocated to demand reduction, 38 percent for law enforcement, and 33 
percent for international interdiction. By 1997, those priorities 
shifted so that 34 percent is for demand reduction, 53 percent for 
domestic law enforcement, and 13 percent for international programs and 
interdiction. In short, pro grams to suppress or interdict drug supply 
went from 33 percent of the overall budget to only 13 percent. In light 
of recent data that show an increase in drug use incidents since 1992-
93, do you think it is logical for us restore the balance in our 
strategy to greater emphasis on fighting drugs before they reach our 
---------------------------------------------------------------------------
shores?

    Answer. Restoring balance is important, but concrete programs 
executed effectively are what are needed. Our research is at a stage 
where interdiction forces can specify the numbers, technical 
capabilities, and locations of forces to execute specific operations. 
These programs are based upon past proven effective programs against 
trafficker production and transportation axes from the last 15 years. 
Because an imbalance of resources has occurred, many interdiction 
opportunities \3\ have had to be sacrificed for lack of resources. In 
1990, there were sufficient resources to engage simultaneously the four 
major transportation axes to the US on both the surface and in the air. 
Today, there are hardly sufficient forces to engage two of four 
critical axes in the Caribbean and even fewer axes in Colombia. Today 
our intelligence is better and the interdiction commanders know just 
what kinds of operations are necessary to achieve success.
---------------------------------------------------------------------------
    \3\ The first theater-wide integrated operation of all Joint 
Interagency Task Forces (JIATFs) in 1997 was begun by successful 
production lab attacks in Colombia, shield around Puerto Rico by 
Operation Gateway, and Frontier Shield in the Eastern Caribbean. But, 
no forces were available to execute Caper Focus in the Eastern Pacific 
and Carib Shield in the Western Caribbean. The sad result of this 
shortfall in forces allowed the traffickers to adapt and build 
formidable transportation axes in the Central and Western Caribbean, 
relying on many go fast boats, as well as in the Eastern Pacific.
---------------------------------------------------------------------------
    Trafficker avoidance tactics must be overcome to successfully 
suppress the cocaine industry. There are insufficient surveillance 
capabilities in Colombia because current capabilities provide no more 
than 8 of 24 hours of coverage per day and the traffickers easily avoid 
detection as much as 90 percent of the time. There are insufficient 
tracker, endgame resource, and forward bases in desirable locations. It 
is hard to envision a successful source zone strategy without the 
minimal forces necessary to control trafficker flights within Colombia. 
These forces, when provided in Peru, devastated trafficker 
transportation of base, forced abandonment of about 50 percent of the 
illegal fields in Peru (to date), and will eventually lead to the 
removal of the illegal coca growing in Peru.
                                 ______
                                 

              Questions Submitted to Henry L. Hinton, Jr.

    Question. Explain the relationship, if any, between our anti-drug 
programs over the last decades and the price of cocaine on the streets. 
In light of the relationship that is well documented by experts--as 
well as the relationship between price and use--is it fair to conclude 
that supply reduction efforts are a relatively better investment of 
anti-drug dollars?

    Answer. According to the most recent DEA data, the price and 
availability of cocaine has remain fairly stable since 1990. To our 
knowledge there have been no comprehensive studies demonstrating a long 
term correlation between supply reduction efforts and the price and use 
of drugs in the United States. A number of studies have recently been 
conducted, but they all have limitations primarily due to weak data. A 
recent review by the Institute of Medicine concluded that additional 
research is needed to resolve the relationship between price and 
consumption of cocaine. In recognition of the limitations of earlier 
studies, the National Academy of Sciences is currently studying 
research on the cost-effectiveness of interdiction activities and plans 
to issue a report in March 2000.

    Question. U.S. troops cannot remain in Panama beyond 1999 unless an 
agreement is reached with Panama to let them stay; efforts to negotiate 
such an agreement have floundered. What current counter-drug assets 
will have to be relocated because of the closure of Howard. To the best 
of your knowledge, has there been any planning conducted on what to do 
with these resources if the United States no longer has a base in 
Panama?

    Answer. According to U.S. Southern Command officials, all major 
counterdrug activities operating out of Howard Air Base in Panama will 
cease as of May 1, 1999 unless an agreement is reached with Panama to 
stay. Prospects of such an agreement are currently low. Officials of 
the Southern Command are currently reviewing the operational 
consequences of the impending move from Howard, and are searching for 
other possible forward operating locations. They indicated that moving 
air assets will significantly impact on current air operations over 
Colombia. The Southern Command has also recently announced that it 
plans to combine JIATF-South and JIATF-East into one JIATF to be run 
out of Key West.

    Question. As a portion of the overall drug control budget, spending 
on interdiction and source country actions have declined precipitously 
since the peak. When examining all of the different reports that GAO 
has done related to both drug trafficking patterns and the response to 
this threat, has there been a change in threat or transit methods that 
would justify this shift in resources?

    Answer. As we have noted in our work over the past 10 years, drug 
traffickers have demonstrated considerable adaptability in thwarting 
U.S. and host country efforts to reduce the flow of cocaine and heroin 
available in the United States. The level of resources devoted to 
interdiction and source country efforts has not altered the price and 
availability of drugs over time. However, drug experts generally agree 
that supply reduction efforts have value because some illegal drugs are 
destroyed and/or seized and the potential cost to drug traffickers 
increases. Our work suggests that combatting illegal drugs requires a 
balanced approach involving both demand and supply reduction efforts.
                                 ______
                                 

           Questions Submitted to Admiral James M. Loy, USCG

                 cost-effective use of anti-drug dollar
    Question. What do you consider the most cost-effective use of the 
anti-drug dollar: domestic demand-reduction activities or international 
programs to suppress or interdict supply? Isn't it much more difficult 
to interdict small amounts of drugs throughout the vast areas in which 
they are transited or sold than it is to suppress its production and 
interdict it in the relatively smaller areas where they are produced?

    Answer. The National Drug Control Strategy calls for a balanced 
approach to reducing drug use in this country and its destructive 
consequences. The Strategy focuses on reducing demand, through 
treatment and prevention, and reducing the supply, through law 
enforcement and interdiction efforts. The Coast Guard's drug 
interdiction efforts are part of the overall effort to reduce the 
supply of drugs in this country and complement demand reduction 
efforts.
    Clearly, attacking the supply of illegal drugs in the source zone 
is a strategically sound concept and a critical part of the continuum 
of activity, through the source, transit and arrival zones, required to 
reduce the availability of drugs in this country. The effectiveness of 
interdiction operations depends not only on the size of the load, but 
other factors such as detection of the conveyance, route of movement, 
and search difficulty. While interdiction in the source zone may seem 
to provide the best opportunity for interdiction, interdiction in the 
transit zone often occurs in international air and seas, allowing for 
operations that are not constrained by issues of sovereignty, national 
interests, or political and economic realities.
    The Administration has placed special emphasis on demand reduction, 
based on research showing that it is the most cost-effective strategy 
for reducing drug use.
                 restoring balance to strategy funding
    Question. According to ONDCP's own figures, in 1987, 29 percent of 
the national drug control budget was allocated to demand reduction, 38 
percent for law enforcement, and 33 percent for international and 
interdiction. By 1997, those priorities shifted so that 34 percent is 
for demand reduction, 53 percent for domestic law enforcement, and 13 
percent for international programs and interdiction. In short, programs 
to suppress or interdict drug supply went from 33 percent of the 
overall budget to only 13 percent. In light of recent data that show an 
increase in drug use incidents since 1992-93, do you think it is 
logical for us to restore a balance in our strategy to put greater 
emphasis on fighting drugs before they reach our shores?

    Answer. It is imperative that we have a balanced National Drug 
Control Strategy. Supply and demand reduction programs attack distinct 
aspects of the drug problem and are mutually supportive. However, the 
balance among drug control strategies is not measured by their relative 
shares of the drug control budget.
    The Coast Guard's counterdrug strategy, Campaign STEEL WEB, calls 
for successive surge operations in high threat trafficking regions of 
the transit zone, each followed by a long term maintenance level of 
operations intended to prevent a resurgence of drug activity. The 
largest such operation to date, FRONTIER SHIELD, yielded a large 
increase in drug seizures around Puerto Rico.
    It should not be overlooked that since 1985, past-month use of 
illicit drugs has dropped by 43 percent. Since 1988, the number of 
casual cocaine users has been reduced by half. These results speak well 
of the Federal drug control program.
           increasing detection and monitoring effectiveness
    Question. In what ways could the U.S. Coast Guard be more effective 
in its smuggling detection and monitoring role? What additional 
resources would assist the Coast Guard in carrying out this mission?

    Answer. The Department of Defense is the lead agency for the 
detection and monitoring. The Coast Guard is the lead agency for 
maritime interdiction and the co-lead for air interdiction. Coordinated 
interagency and international operations, increased intelligence 
collection and support, focused pulse operations in high threat 
trafficking areas and increased sensor/communication capability on 
current Coast Guard assets are all factors in improving interdiction 
effectiveness.
    The 1999 President's Budget was designed to maintain the Coast 
Guard's special interdiction operations in the Caribbean and along the 
Southwest Border, as well as to leverage technology to improve 
interdiction efficiency.
                  plans for go-fast boat interdiction
    Question. What specific plans do you have to address the go-fast 
boats that smuggle drugs and evade capture through the shallow waters 
in the Bahamas?

    Answer. As part of the surface endgame system, the Coast Guard is 
using current resources to explore the use of non-lethal force from 
aircraft to stop go-fast boats and the use of fast pursuit boats to 
intercept the go-fasts. The Coast Guard is also using improved sensors 
to classify and track suspect go-fast boats and leveraging improved 
intelligence to better cue interdiction forces.
              impact of additional interdiction resources
    Question. Interdiction funding has been flat since 1992. If more 
interdiction resources were to be made available, do you think they 
could make a substantial difference? Or is the U.S. interdiction effort 
at the saturation point, where additional resources would do more to 
complicate existing efforts that provide any benefit?

    Answer. The Coast Guard's STEEL WEB campaign has been designed to 
address the requirements of the National Drug Control Strategy. In 
particular, the Coast Guard has developed five-year planning 
requirements in support of targets identified in the Performance 
Measures of Effectiveness. Operation FRONTIER SHIELD seems to have 
reduced the observed noncommercial maritime smuggling activity around 
Puerto Rico.
    In the long term, successes in interdiction support the goals of 
the National Drug Control Strategy and can increase the risk to drug 
traffickers, their cargoes and resources, forcing them to adopt new and 
more costly transportation modes and routes.
                                 ______
                                 

               Questions Submitted to Donnie R. Marshall

                       drug interdiction efforts
    Question. What would you consider the most cost-effective use of 
the anti-drug dollar: domestic demand-reduction activities or 
international programs to suppress or interdict supply? Isn't it much 
more difficult to interdict small amounts of drugs throughout the vast 
areas in which they are transited or sold than it is to suppress its 
production and interdict it in the relatively smaller areas where they 
are produced?

    Answer. We defer a substantive reply on this question to other 
agencies, since DEA does not set multi-agency priorities within the 
administration.
    DEA's primary mission is to target the highest levels of the 
international drug trafficking organizations operating today. Moreover, 
interdiction, in its narrow sense,--physically stopping drugs moving 
through the transit zone, across international borders, and into the 
United States--is more properly the responsibility of other agencies. 
It is through targeting the command and control elements of 
international drug syndicates that DEA makes its major contribution to 
the overall interdiction effort. Moreover, DEA makes significant 
contributions to drug interdiction with its law enforcement efforts 
within the United States.
    My prepared testimony was, therefore, limited to an objective 
assessment of the law enforcement issues involving organized crime and 
drug trafficking problems. It would not be appropriate, therefore, for 
me to comment on the relative merits of demand reduction as opposed to 
interdiction. It would seem that the issue should be properly framed in 
terms of how cost effective is each dollar spent in either area, not in 
terms of a trade off between international and domestic efforts.

    Question. According to ONDCP's own figures, in 1987, 29 percent of 
the national drug control budget was allocated to demand reduction, and 
38 percent for law enforcement, and 33 percent for international 
interdiction. By 1997, those priorities shifted so that 34 percent is 
for demand reduction, 53 percent for domestic law enforcement, and 13 
percept for international programs and interdiction. In short, programs 
to suppress or interdict drug supply went from 33 percent of the 
overall budget to only 13 percent. In light of recent data that show an 
increase in drug use incidents since 1992-93, do you think it is 
logical for us to restore a balance in our strategy to put a greater 
emphasis on fighting drugs before they reach our shores?

    Answer. We would defer any discussion of ONDCP figures to ONDCP. 
The Drug Enforcement Administration is not responsible for setting the 
relative priorities within the counter drug effort, as this is both an 
interdepartmental issue addressed by the Administration as a whole, and 
an issue much broader than law enforcement. Likewise, it would not be 
helpful for the DEA to comment on whether certain balances in resources 
would be logical or not.

    Question. Explain the relationship, if any, between our antidrug 
programs over the last decades and the price of cocaine on the streets. 
In light of the relationship that is well-documented by experts--as 
well as the relationship between price and use--aren't supply reduction 
efforts a relatively better investment of anti-drug dollars?

    Answer. DEA believes that the price of illegal drugs does not 
generally respond to the usual economic laws of supply and demand. The 
prices of drugs are what they are because the traffickers set them that 
way. Factors such as relationship of the buyer to the organization, 
whether the purchase is one time only or part of a large series, 
location within the country, or efforts by the organization to move 
into new territories with aggressive marketing all have an effect on 
the price of drugs. Interdiction operation may have an effect on the 
availability of quality of drugs in a given region for a short time, 
but there is no evidence of a consistent trend increasing in price 
which can be attributed to interdiction operations. The DEA cannot, 
therefore, support the contention that there is a clear relationship 
between interdiction and the price or availability of drugs. We would 
not, therefore, want to comment on the relative efficiencies of 
interdiction as opposed to law enforcement or demand reduction efforts. 
We would defer comment to ONDCP.

    Question. In what ways could the U.S. military be more effective in 
its smuggling detection and monitoring role? Is the Defense Department 
adequately committed to carrying out this role as a priority mission?

    Answer. DEA does not participate directly in drug interdiction, 
and, as such, is not in a position to benefit directly from the U.S. 
military's detection and monitoring efforts which support interdiction 
forces. Nor are we in a position to evaluate the effectiveness of these 
efforts. Other agencies, which rely of military information to carry 
out their interdiction operations, may be in a better position to 
comment. DEA would certainly not want to comment, one way or another, 
on the level of commitment or priorities of another agency in the war 
on drugs.

    Question. What specific plans do you have to address the go-fast 
boats that smuggle drugs and evade capture through the shallow waters 
of the Bahamas?

    Answer. As mentioned earlier DEA's role in interdiction is limited 
to developing actionable intelligence and through cooperative inter-
agency command and control investigative efforts, provide this 
information to those agencies directly involved in interdiction.
    Through this type of interagency cooperation and exchange of 
intelligence DEA would agree that the Bahamas remains a central conduit 
for both air and maritime shipments of drugs moving through the Western 
and Central Caribbean to the Southeastern United States. Transportation 
groups located in the Bahamas utilize a variety of methods to move 
cocaine from the islands to the United States. Colombian traffickers 
airdrop shipments of cocaine off the coast of Jamaica, or utilize boat 
to boat transfers on open seas. Jamaican and Bahamian transportation 
groups then use Jamaican canoes to smuggle their payloads into the 
Bahamas, frequently using the territorial waters of Cuba to shield 
their movements. The cocaine is then transferred to pleasure craft 
which disappear into the inter-island boat traffic, or to go-fast boats 
able to evade interdiction forces.
    Trafficking groups use ``go-fast'' boats, fishing vessels and 
pleasure craft to enhance their transportation capabilities. The speed 
of the ``go-fast'' boats greatly assists the traffickers in evading law 
enforcement. The other vessel types are less attractive due to slow 
speed, although they do have the advantage of easily concealing 
themselves among the other legitimate vessel traffic in the region.
    Traffickers also use twin-engine turbo-prop aircraft, with long 
range capability and Global Positioning Systems, which pinpoint drop 
zones in mid ocean. Cellular telephones are used to minimize their 
exposure to interdiction assets and ensure the smooth transfer of their 
cargo of cocaine for shipment into the United States.
    To counter the drug threat in the Northern Caribbean, the United 
States Government initiated Operation Bahamas and Turks and Caicos 
(OPBAT) in 1982. This joint interdiction operation comprised of 
Bahamian and Turks and Caicos law enforcement, DEA, U.S. Customs 
Service, U.S. Coast Guard and Department of Defense personnel is 
headquartered in Nassau, Bahamas. DEA is responsible for liaison with 
other participating agencies and governments. The 24-hour operations 
center is manned by U.S. Coast Guard Personnel. OPBAT has had enormous 
success over the years, seizing thousands of kilograms of cocaine and 
literally driving transportation groups out of business in the Northern 
Caribbean.
    OPBAT has been successful, even considering the host country lack 
of capability to perform successful interdiction operations. Air 
interdiction, primarily with helicopters operating out of the U.S. 
Coast Guard Station in Clearwater and from Fort Stewart, Georgia, is 
becoming insufficient without adequate surface interdiction capability. 
Countering the threat from go-fast boats is a primary focus of an 
ongoing effort to keep apace of trafficking in the region.
    In order to effectively counter drug trafficking, law enforcement 
and interdiction forces should have resources comparable to the 
resource available to traffickers. Making ``go fast'' boats available 
to OPBAT, to be operated by either the U.S. Coast Guard or by the 
Bahamians, would be a monumental enhancement to interdiction. DEA would 
not be involved in the operation of these vessels, because, as 
previously stated, we lack either the mission or the capability for 
maritime interdiction.

    Question. Some experts say the best way to disrupt the production 
and supply of drugs is to raise the risk that traffickers run. Isn't it 
logical that our best hope of raising those risks is by focusing our 
limited resources in the relatively smaller target area in the reducing 
zones rather than the huge transit zone or on every American street 
corner?

    Answer. DEA does not set the relative priorities in the multi-
agency counter drug effort. Nor are we in a position to comment on the 
relative merits of different resource allocations. We would defer to 
ONDCP for a direct answer to this question.
    From the perspective of drug law enforcement, however, DEA views 
drug trafficking as a seamless continuum. The domestic and 
international aspects of the trafficking organization are inextricably 
woven together. Therefore, DEA believes that the United States must be 
able to attack the command and control functions of the international 
syndicates on all fronts which are directing the flow of drugs into 
this country. Focusing the attention of law enforcement on the 
criminals who direct these organizations is the key to combating 
international drug trafficking. DEA directs its resources against the 
leaders of these criminal organizations, seeking to have them located, 
arrested, prosecuted, and given sentences commensurate with the heinous 
nature of their crimes.

    Question. The United States has provided extraordinary resources 
(helicopters, technical assistance, etc.) to support Mexico's anti-drug 
efforts. In addition, extraordinary Customs and Border Patrol resources 
have been deployed on the U.S.-Mexican border in the last several 
years. What results do we have to show for this investment? Are cocaine 
seizures up or down in the last 12 months, and by how much? Have any 
Mexican kingpins been prosecuted and sentenced for drug crimes? Have 
any drug criminals been extradited to the United States?

    Answer. The Drug Enforcement Administration is not in a position to 
comment on the results of Border Patrol and Customs Service efforts. As 
to seizures, we can report that the Center for Drug Control Planning 
(CENDRO) of the Mexican Attorney General's Office (PGR) has provided 
seizure and eradication statistics for calendar year 1998.
    According to these figures, when compared to CY-97, seizures for 
the first seven months of CY-98 were down for cocaine by 42%, opium gum 
by 47%, and marijuana by 14%, but up for heroin by 30%.
    Unfortunately the Government of Mexico has made very little 
progress in the apprehension of known syndicate leaders who dominate 
the drug trade in Mexico and control a substantial share of the 
wholesale cocaine, heroin, and methamphetamine markets in the United 
States. During the last twelve months, there has been no significant 
progress by the Government of Mexico in developing investigations which 
would lead to the prosecution and incarceration of any leaders of the 
Mexican drug cartels. In January 1998, the Government of Mexico 
indicted sixty-five persons associated with the notorious Amado 
Carrillo-Fuentes organization, under the new Organized Crime Bill. To 
date only seventeen (17) lower-echelon associates have been arrested in 
Mexico. Mexican authorities have been unable to locate and apprehend 
any of the principal associates named in this indictment. In June 1998, 
the Government of Mexico arrested the leaders of an important 
methamphetamine trafficking organization, Jesus and Luis Amezcua-
Contreras. However, all charges against these defendants were soon 
dropped by a Mexican judge. The Amezcua-Contreras remain incarcerated 
only because of a Provisional Arrest Warrant issued at the request of 
the U.S.
    During the last twelve months, the Government of Mexico has 
returned three (3) U.S. citizens on drug trafficking charges. However, 
there have been no extraditions to date of Mexican nationals from 
Mexico to the U.S. pursuant to provisional arrest requests for drug-
related charges.

    Question. As a portion of the overall drug control budget, spending 
on interdiction and source country actions have declined precipitously 
since the peak. In your opinion, is this because the domestic threat is 
proportionally greater now than it was then?

    Answer. DEA does not set the levels of resources within the overall 
drug control budget, and, therefore, cannot speak to why the portion 
spend on interdiction has declined. We would defer such an answer to 
ONDCP.
    From DEA's perspective, as mentioned earlier, we view drug 
trafficking is a seamless continuum. The domestic and international 
aspects of drug the trafficking organizations, which are our primary 
target, are inextricably woven together. We address the threat from 
these organizations by coordinating our domestic and foreign operations 
into a unified effort. Domestic and foreign efforts are not mutually 
exclusive.
    The highest levels of the international drug syndicates are 
directly connected to the street level dealers in American 
neighborhoods. The borders of the United States are essentially 
invisible to these syndicates, allowing them to penetrate into the 
heart of the country and undermine our way of life. Our law enforcement 
efforts must be up to the challenge posed by the syndicates. We must be 
able to attack the command and control functions of the international 
syndicates which are directing the organized drug trafficking 
activities in this country.
    We confront the seamless continuum of international drug 
trafficking with a seamless continuum of law enforcement. By attacking 
the drug trafficking organizations' command and control function, DEA 
is able to arrest the leadership of these organized crime groups in the 
U.S., including the surrogates who act as their wholesale outlets, and 
will be able file provisional warrants for the arrest of the 
organizations leadership hiding in foreign countries. With this 
strategy of mounting strategic strikes on command and control, DEA will 
be able to degrade the ability of the organizations to conduct business 
and impede their ability to import drugs into the United States.

    Question. Interdiction has been flat since 1992. If more 
interdiction resources were made available, do you think they would 
make a substantial difference? Or is the U.S. interdiction effort at 
the saturation point, where additional resources would do more to 
complicate existing efforts than provide any benefit?

    Answer. Since DEA does not have an interdiction mission, as 
strictly defined, we are not in a position to answer this question 
directly. We would defer to the agencies that do have an interdiction 
mission We can tell you how we would employ such additional resources 
as those earmarked for DEA in the Western Hemisphere Bill.

  <bullet> MERLIN--$8,272,000 in special program funding

          Installation of the MERLIN classified computer infrastructure 
        throughout DEA offices in the source and transit countries is 
        the single most important enhancement that can be made to 
        enable the flow of critical intelligence to and from these 
        regions and the United States.
          Present funding limits expansion of this critical system to 
        only the DEA Mexico City Office. To date, DEA has invested a 
        total of $1,000,000 in MERLIN expansion to overseas locations. 
        The $8,272,000 would cover accelerated installation of MERLIN 
        into 10 source and transit country offices.

  <bullet> Narcotics Enforcement Data Retrieval System (NEDRS)--
        $2,400,000 in special program funding

          The purpose of this computer-based data mining software is to 
        search substantive data information systems automatically in 
        order to retrieve certain data elements, such as key names, 
        words, specific locations, geographic names, phrases, etc., 
        associated with telephone numbers and drug trafficking events. 
        Initially, NEDRS will continually search GESCAN message traffic 
        for telephone numbers and associate the telephone numbers to 
        specific cables. Once a positive link has been identified, it 
        will determine if the telephone numbers have been cited in 
        previous case reports, and if so, which ones. NEDRS will 
        develop into a more sophisticated program by adding word/phrase 
        searches until it evolves a capability to search for event-
        driven and location related scenarios. A total of $350,000 has 
        thus far been dedicated to this project. DEA would use the 
        additional $2,400,000 for continued project development.

  <bullet> Special Agent and Investigative Support Personnel--169 
        positions (110 Special Agents) and $40,213,000, including 
        $2,000,000 in special program funding

          This funding would support 100 additional Special Agent 
        positions, 9 Intelligence Research positions, 7 Diversion 
        Investigator positions 2 Chemists and 41 support positions DEA 
        international offices. The Special Agent positions would be 
        allocated as follows:

                Allocation of DEA Special Agent Positions
------------------------------------------------------------------------
                 Location                       Number of  Positions
------------------------------------------------------------------------
Mexico....................................                           25
Colombia..................................                           10
Bolivia...................................                            7
Peru......................................                            2
Brazil....................................                            5
Argentina.................................                            3
Chile.....................................                            1
Paraguay..................................                            2
Venezuela.................................                            3
Belize....................................                            1
Panama....................................                            1
El Salvador...............................                            1
Nicaragua.................................                            1
Haiti.....................................                            1
Dominican Republic........................                            3
Domestic Posts in Support of International                           33
 Programs.................................
                                           -----------------------------
    Total.................................                          100
------------------------------------------------------------------------

          The 33 positions requested for domestic posts of duty will be 
        assigned to those cities (other than the big 5 of New York, Los 
        Angeles, Miami, Houston and Chicago) that have been identified 
        by our Special Operations Division as being utilized by the 
        major crime syndicates from Mexico and Colombia as bases for 
        their command and control operations or as regional warehousing 
        and distribution points.
          The seven diversion investigators will be deployed in the 
        following countries to address the flow of precursor chemicals 
        to Mexico and the source countries in South America: Peru; 
        Peoples Republic of China; Vienna, Austria; San Jose, Costa 
        Rica; Panama; Mexico and Guatemala. These positions will play a 
        critical role addressing the methamphetamine problem affecting 
        our nation.
          Our operations throughout the source and transit zones are 
        anchored in our overall strategy of building cases against the 
        organized criminal groups that control the flow of heroin, 
        cocaine and methamphetamine to the United States. For example, 
        the 10 additional agents for the Bogota Country Office will be 
        tasked specifically with working with the Colombian National 
        Police (CNP) to fully identify and build cases on the new 
        groups who have replaced the Cali Syndicate in controlling 
        cocaine production in Colombia and the shipment of cocaine to 
        Mexico and the Caribbean. In Bolivia, the additional agent 
        personnel will be assigned to work with Bolivian police teams 
        to further exploit our wire intercept program and arrest major 
        Bolivian and Brazilian traffickers who are becoming 
        increasingly involved in the movement of both cocaine base and 
        HCL out of Bolivia and through Brazil. Brazil is a very active 
        conduit for cocaine base shipped from Bolivia to Colombia and 
        for cocaine HCL shipped to the Untied States and to Europe.

  <bullet> Wire Intercept Equipment--$4,500,000 in Special Funding

          To augment our wire intercept programs in the source and 
        transit zones, $4,500,000 would be used for the purchase of 
        wire intercept equipment. The switch to digital communications 
        and the sophistication of traffickers in their efforts to 
        conceal their communications, as well as the expansion of our 
        intercept programs in all of the source countries, has 
        significantly increased our demand for this equipment. This 
        appropriation will also provide us with a limited, mobile 
        capability to address our demand for wire intercepts world 
        wide.

  <bullet> Technical and Aviation Equipment--$3,515,000 in Special 
        Program Funding

          Over the course of the past year, there has been a 
        significant increase in the quantity of cocaine and heroin 
        transiting the Caribbean Basin. Many Colombian groups, 
        particularly those who have risen to power since the fall of 
        the Cali syndicate, have returned to traditional trafficking 
        routes in the Caribbean to move their product to market. DEA 
        has identified four major organizations based on the Northern 
        Coast of Colombia that have deployed command and control cells 
        in the Caribbean Basin to funnel tons of cocaine and heroin to 
        the U.S. each year. As these Colombian groups re-establish 
        their ties with their Caribbean confederates, increasingly 
        larger shipments of drugs, bound for the U.S., are transiting 
        the region. Seizures of 500 to 2,000 kilograms of cocaine are 
        now common in and around Puerto Rico and the Dominican 
        Republic.
          In an effort to address this growing threat, DEA received a 
        significant enhancement for the Caribbean Basin in its FY 1998 
        appropriation, including 60 Special Agents and $34.2 million. 
        In FY 1999, the DEA is requesting an additional 42 Special 
        Agents and $5.6 million to target Caribbean based traffickers 
        operating in major cities along the East Coast of the United 
        States. Even with the positions and funding provided in last 
        year's appropriation and resources requested in FY 1999, there 
        is still a growing need for advanced technical and aviation 
        equipment for use in regional operations.
          Current unfunded equipment requirements for the Caribbean, 
        which would be addressed by this bill, include:
Technical Equipment--$265,000
          --$150,000 for 20 DoD-compatible portable radios (with water 
        resistant packages and program loaders) to provide Op BAT 
        personnel with communications capability with support aircraft 
        while on deployments to remote islands or aboard vessels.
          --$65,000 for three rigid inflatable boats with motors to be 
        deployed from larger military vessels allowing quick response 
        and maneuverability during chase scenarios.
          --$25,000 for three INMARSAT mini satellite telephones (one 
        marine model with stabilized antenna) for use while on remote 
        islands.
          --$25,000 for six sets of night-vision goggles for use on 
        maneuvers.
Aviation Equipment--$3,250,000
          --$2,000,000 for two WestCam with low light capabilities for 
        installation on existing aircraft to provide surveillance 
        support for operations in the Bahamas and Puerto Rico.
          --$1,000,000 to upgrade Southeastern Airwing's communications 
        equipment to SATCOM.
          --$250,000 to install floats on the two helicopters provided 
        in the 1998 budget for Puerto Rico.

    Question. Over the past few years, Congress and Customs have worked 
hard to increase Customs presence and enforcement capability along the 
Southwest border. Some of these resources have come from other areas of 
the country. Do you believe Customs current resources along the SW 
border are adequate? Over staffed? Should some of these resources be 
shifted back to locations such as Miami or New York, where they were 
taken from?

    Answer. DEA would not be in a position to comment on the adequacy 
of U.S. Customs resources to their mission. While we believe that the 
war on drugs cannot be fought entirely from a static defensive line 
along an International Border, but rather must be fought from a 
Hemispheric perspective, we would defer to the Customs Service for 
comment on the relative effectiveness of Customs resources along the 
border as opposed to other posts.
                                 ______
                                 

          Questions Submitted to the Honorable Barry McCaffrey

    Question. In light of recent data that show an increase in drug use 
incidents since 1992-93, do you think it is logical for us to restore a 
balance in our strategy to put greater emphasis on fighting drugs 
before they reach our shores?

    Answer. Just about every aspect of the nation's drug problem has 
remained stable since 1992-93 with the exception of juvenile drug-use 
rates, which have increased by 50 percent. Increasing cocaine and 
heroin availability, however, is not the driving force behind the 
increase in juvenile drug-use consumption rates. According to the 
latest Monitoring the Future survey, just 0.6 percent of seventeen-
year-olds were using cocaine in 1997. Marijuana smoking accounts for 
more than 90 percent of all juvenile drug use.

    Question. Explain the relationship, if any, between our anti-drug 
programs over the last decades and the price of cocaine on the streets. 
In light of the relationship that is well-documented by experts--as 
well as the relationship between price and use--aren't supply reduction 
efforts a relatively better investment of anti-drug dollars?

    Answer. The objective of the National Drug Control Strategy is to 
reduce U.S. drug consumption through both demand-reduction and supply-
reduction. Supply-reduction efforts increase cocaine production costs 
by raising the cost to traffickers by seizing drugs and assets and 
incarcerating dealers and their agents. The increased production costs 
raise retail cocaine prices and thus indirectly reduce consumption. 
Demand-reduction programs reduce consumption directly without going 
through the price mechanism.
    Each of these approaches is included in the National Drug Control 
Strategy because neither is the perfect answer; each approach has 
specific constraints. Supply-reduction efforts are limited by our 
dependence on foreign-government cooperation and the case with which 
traffickers can shift operating methods and locations to avoid 
effective law enforcement action. Demand-reduction efforts are limited 
by locating the user, linking each user with a treatment program, 
deterring new-users, and sustaining abstinence.
    The National Drug Control Strategy focuses on demand-reduction 
programs, because these more directly reduce consumption than supply-
reduction programs. Supply-reduction programs do produce local effects 
such as cocaine shortages in Columbia due to the Andean air bridge 
operation, but it appears that the distribution system as a whole, 
compensates over time for these perturbations through shifts in 
cultivation, production and smuggling patterns and depletion of 
stockpiles to continue to meet the user's demand.
    Effective supply reduction programs restrict availability and 
ensure high prices for illegal, harmful drugs. Over the last decade, 
supply reduction programs have kept prices high enough that the money 
addicts pay for their drugs weighs more than the drugs themselves. 
Restricted availability and high prices help hold down the number of 
first-time users; prevent aggressive marketing of illegal drugs to the 
most at-risk population by criminal drug organizations; and reduces the 
human, social, and economic costs of drug abuse.
    At the same time, experience has shown that powerful criminal 
organizations with global reach can react rapidly to effective law 
enforcement operations and quickly alter their operating locations and 
methods to still meet market demand over the long term. Demand 
reduction programs are critical to the long term reduction of drug 
abuse and its consequences.
    A number of studies have purported to establish the relative cost 
effectiveness of various drug control programs. ONDCP believes that 
none of these studies are definitive. A balanced strategy that includes 
both supply and demand reduction programs is our best investment in 
drug control for our communities.

    Question. U.S. troops cannot remain in Panama beyond 1999 unless an 
agreement is reached with Panama to let them stay; efforts to negotiate 
such an agreement have foundered. What back-up plans has the 
Administration developed to substitute for Howard Air Force Base in 
Panama as a platform for U.S. anti-drug activities in the region? Will 
these alternatives be more costly than operating from Panama or will 
these alternatives impact on the effectiveness of anti-drug operations? 
For example, aren't cost and effectiveness adversely affected if we 
have to build a new facility or if we have to use a site further away 
from the operating area, which is principally in the Andean region?

    Answer. The Department of Defense (DoD) is working the post Panama 
counterdrug issue. In coordination with the Department of State, DoD is 
surveying forward operating locations (FOLs) as alternatives to Howard 
Air Force Base in Panama (which could close as early as May 1999). No 
single FOL can replace the ramp space, runway, and facilities available 
at Howard AFB. The final operational and cost impacts on counterdrug 
operations cannot be determined until specific FOLs are identified. 
Additionally, there will be costs for relocating units currently based 
in Panama and for merging Joint Interagency Task Force (JIATF) South 
with JIATF-East in Key West, Florida. The costs associated with 
relocation of units and merging of the JIATFs cannot completely be 
determined until all relocation plans are finalized. It is important to 
the success of the National Drug Control Strategy that DoD and other 
drug control agencies provide continued and uninterrupted support to 
the counterdrug effort in the region.

    Question. Some experts say that the best way to disrupt the 
production and supply of drugs is to raise the risk that the 
traffickers run. Isn't it logical that our best hope of raising those 
risks is by focusing our limited resources in the relatively smaller 
target area in the producing zones rather than the huge transit zone or 
on every American street corner?

    Answer. Yes. Indeed, this is the logic we lay out in the National 
Drug Control Strategy. The theory that raising the risk traffickers run 
will disrupt production and supply is being demonstrated by the U.S.-
coordinated air bridge denial campaign in South America. We have 
succeeded in disrupting Peru's cocaine economy by raising risk and 
transportation costs and depressing wholesale coca prices in Peru. 
However, source country programs have limitations. First, political and 
economic concerns often prohibit large scale interdiction or 
eradication campaigns. Second, drugs seized and destroyed in source 
countries are relatively inexpensive to replace; for this reason, 
source zone seizures have less impact on U.S. street prices than 
transit zone seizures. We must vigorously pursue traffickers at every 
link in the drug cultivation-production-transportation chain. Our 
collective efforts in the source, transit, and arrival zones, and 
within the U.S. result in the seizure of more 250-300 metric tons of 
cocaine each year.

    Question. What specific plans does the Administration have for 
controlling the illicit flights carrying drugs from producing zones in 
Colombia to the northern coast (which is the staging area for transit 
to the United States)?

    Answer. DoD continues to work with the Colombian Air Force to 
improve its air interdiction capabilities. The emergency supplemental 
bill provides funding to upgrade Colombia's fleet of A-37s, the 
aircraft used for air interdiction. Additionally, the U.S. government 
is in the process of extending the runway at the Tres Esquinas Base in 
southern Colombia to accommodate the A-37s, making it possible to base 
the air interdiction assets closer to the problem areas and improve 
operational capability.
    DoD continues to operate two ground-based radars in Colombia and 
plans to install a third in the Guaviare region in the near future. 
Information from these radars is shared with the Colombians. The 
relocatable-over-the-horizon radar (ROTHR) in Puerto Rico is scheduled 
to come on line in 1999 and will provide enhanced detection and 
monitoring capability of Colombian airspace. DoD and U.S. Customs also 
provide detection and monitoring overflights in coordination with the 
Colombian Air Force.
    DEA and the Colombian National Police (CNP) continue to implement 
and expand their successful aircraft control program which requires all 
non-commercial aircraft to be inspected and registered every six 
months. The CNP have already seized many trafficker aircraft using this 
mechanism.
    These initiatives, combined with the general effort to regain 
Colombian government control over the coca-growing regions in southern 
Colombia will negatively impact the traffickers' ability to move 
cocaine by air within Colombia.

    Question. What plans does the Administration have for the 
replacement of anti-drug facilities in the Guaviare region in the coca-
producing zone of Colombia?

    Answer. In the wake of the destruction of the anti-narcotics base 
in Miraflores, Guaviare, the government of Colombia and the National 
Police must now decide if they want to reconstruct that base, construct 
a new base, or provide security upgrades to other existing bases in the 
region. The U.S. government is sending security survey teams to 
Colombia in November and December 1998 to help the Colombians plan what 
they want to do. There is funding in the Fiscal Year 1998 INL budget to 
support security upgrades in regional bases.

    Question. The United States has provided extraordinary resources 
(helicopters, technical assistance, etc.) to support Mexico's anti-drug 
efforts. In addition, extraordinary Customs and Border Patrol resources 
have been deployed on the U.S.-Mexican border in the last several 
years. What results do we have to show for this investment?

    Answer. Both the U.S. and Mexican governments have invested 
considerable financial, material and personnel resources to combat drug 
trafficking, production, and abuse. Although U.S. support constitutes 
only a small percentage of the overall anti-drug effort there, it has 
brought about significant positive results. The fight against drug 
trafficking is not limited to prosecuting cartel leaders nor increasing 
eradication and seizure statistics. This is a complex problem that 
necessitates long-term solutions aimed at building sustainable 
capacity. Institutional capacity building implies the remodeling of law 
enforcement bodies, the legal system, the educational bodies, and the 
kind of cooperation that enhances rather than inhibits political will. 
The U.S. inter-agency is working with Mexico to build these 
institutions, as well as improve communications and cooperation between 
the two governments.
    Various coordination mechanisms, including the Binational 
Commission, the High Level Contact Group, and the Senior Law 
Enforcement Plenary, as well as cooperation between Mexican and U.S. 
law enforcement counterparts, have helped to further a working 
relationship. This relationship has fostered cooperation in law 
enforcement training, information exchange, legal issues of mutual 
concern, chemical control, anti-money laundering, and asset forfeiture. 
Aided by these relationships and ongoing consultations, the Mexican 
government has enacted a forceful Organized Crime Law, Anti-Money 
Laundering legislation, and asset forfeiture reform, as well as 
established a chemical control regime.
    Countemarcotics assistance to Mexico is also provided by the DoD 
and is used mainly by Mexico to strengthen eradication capability. The 
U.S. government has made a concerted effort to support Mexico's 
eradication program through technical assistance programs. The 73 
helicopters provided by DoD to Mexico were a significant part of this 
effort. While the helicopter support package to the Mexican Secretariat 
of National Defense (SDN) had the highest cost estimate associated with 
U.S. counter-drug support, it should be noted that the aircraft and 
parts were provided as a drawdown from existing DoD stocks, not from 
new funding. The helos are part of an extremely effective eradication 
program which has reduced potential heroin production in Mexico from 6 
tons in 1995 to 4 tons in 1997 and kept 2500 tons of marijuana from the 
US market in 1997. Mexico has successfully integrated the helicopters 
into its Air Force and has employed the aircraft for eradication 
operations, reconnaissance missions, and the transport of troops in 
support of its comprehensive counterdrug efforts. DoD has also 
conducted extensive training and technical assistance programs, which 
are the focus of most of our bilateral program and account for the 
majority of our funding. The U.S. has trained hundreds of Mexican 
police and military personnel for counternarcotics support missions.
    The U.S. and Mexico have both been working to improve their 
national capabilities to combat international drug trafficking and 
transborder smuggling, as well as to improve communications and 
cooperation between our personnel along our shared border. The increase 
in U.S. Customs personnel and resources in the southwest border area 
over the last year has contributed significantly to interdiction 
capability and resulted in a higher rate of drug seizures. Stopping 
drugs and other illicit contraband from crossing the border is a 
daunting challenge. While inspecting every vehicle that crosses the 
border would lead to more seizures of illicit drugs and other 
contraband, it would also inhibit legitimate commerce. U.S. Customs is 
working to employ more technical equipment along the border that will 
serve to enhance our inspection ability without disrupting the vast 
majority of cross-border traffic involving legitimate trade.
    The increase in U.S. Customs personnel along the border has also 
boosted investigations in this area. The primary investigative goal of 
the agency is to target the drug organizations' ``kingpins'' that are 
ultimately responsible for orchestrating and smuggling the 
transportation of narcotics. In Fiscal Year 1998, six individuals 
identified as Mexican drug ``kingpins'' were indicted in the United 
States as a result of U.S. Customs investigations. An extradition 
request has been filed with Mexico on one of those individuals and an 
extradition request is pending on another.

    Question. Are cocaine seizures up or down in the last 12 months, 
and by how much?

    Answer. From January to August of 1998, cocaine seizures in Mexico 
were higher than seizures for the same periods of 1994, 1995, and 1996, 
but are lower than seizures for the same period of 1997. Mexican 
seizures of heroin, however, are up 23 percent.
    Cooperation along the border has been augmented by the deployment 
of additional U.S. Customs resources to the Southwest border, which has 
resulted in a significant increase in the amount of narcotics seizures 
and arrests made in that area. Cocaine seizures made by Customs along 
the border during Fiscal Year 1998, as well as seizures of every type 
of drug, have increased. This year so far there has been a 27 percent 
increase in the total number of seizures.

    Question. Have any Mexican kingpins been prosecuted and sentenced 
for drug crimes?

    Answer. Law enforcement cooperation between the U.S. and Mexico has 
led to the arrest in Mexico for prosecution of several leaders and 
other members of the major Mexican trafficking organizations including: 
Juan Garcia Abrego and Oscar Malherbe of the Gulf Cartel; Luis and 
Jesus Amezcua and Jaime Ladino of the Amezcuas Methamphetamine Group; 
Arturo ``Kiti'' Paez Martinez of the Juarez Cartel, and a top 
lieutenant of the Juarez Cartel, Noe Brito Guadarrama. The Amezcua-
Contreras remain incarcerated due to a Provisional Arrest Warrant 
issued at the request of the U.S. We are concerned, however, that the 
pace of drug prosecutions in Mexico has not increased over last year. 
Increased law enforcement cooperation may lead to more arrests but does 
not necessarily lead to convictions and sentences. This is due in part 
to a provision of Mexican law, the ``amparo'' system, which allows a 
defendant to indefinitely appeal a charge. It is also due to a 
judiciary that is largely independent of law enforcement and cannot be 
relied upon to provide consistent and informed findings. For this 
reason both the State and Justice Departments emphasize training for 
the Mexican judicial system through the Administration of Justice (AOJ) 
Program and the International Criminal Investigative Assistance Program 
(ICITAP).
    Progress was made in January 1998, when the government of Mexico 
indicted sixty-five persons associated with the notorious Amado 
Carrillo-Fuentes organization, under the new Organized Crime Bill. 
Seventeen lower echelon associates were also arrested. Mexican 
authorities have not yet located and apprehended any of the principal 
associates named in this indictment.
    Between September, 1997 and March, 1998, the Mexican counterdrug 
effort managed to dismantle one of Mexico's most infamous drug 
trafficking criminal organization's in Tijuana known by their alias, 
``Los Gueros.'' Other arrests this year include:

          Hugo and Rene Ambriz Duarte on January 10, weapons suppliers 
        to the Juarez cartel;
          General Jorge Mariano Maldonado and Captain Rigoberto Silva 
        Ortega on January 18, associated with the Juarez cartel;
          Juan Alberto Zepeda Novelo on March 19, money launderer for 
        Amado Carrillo;
          On May 27, Ismael Higuera Jr., son of Ismael Higuera Guerrero 
        ``El Mayel,'' a lieutenant in the Arellano Felix Organization, 
        was apprehended;
          On June 7, Angel Salvador Gomez Herrera and Oziel Cargenas 
        Guillen, members of the Gulf cartel, were apprehended.

    There have been individual cases where ``amparos'' are overturned 
and defendants punished according to the gravity of their crimes. 
Prison sentences for arms and drug trafficking by Pedro and Oscar 
Gerardo Lupercio Serratos were confirmed and they will remain in jail 
eight years and six months. Imprisonment orders were also confirmed for 
Rodrigo Bon Villegas, a.k.a. ``El Roque,'' associated with the Arellano 
Felix Organization. On September 19, appeals presented by former 
Mexican drug czar General Jesus Gutierrez Rebollo and his assistant, 
Captain Javier Garcia Hernandez were denied.
    In May, nine members of the Juarez cartel were sentenced on charges 
based on the Organized Crime Law with prison terms ranging from 11 to 
21 years. In July, General Alfredo Navarro Lara, who was associated 
with the Arrellano Felix Organization and charged with offering a $1 
million per month bribe to an Attorney General's Office official, was 
sentenced to 20 years and seven months of imprisonment. Finally, in 
August Hector Luis Palma Salazar, a.k.a. ``El Guero Palma,'' received a 
prison sentence for drugtrafficking offenses. He will serve his 33 
years in a maximum security prison.

    Question. Have any drug criminals been extradited to the United 
States?

    Answer. During the last twelve months, the government of Mexico has 
returned three U.S. citizens on drug trafficking charges. However, 
there have been no extraditions to date of Mexican nationals pursuant 
to provisional arrest requests for drug-related charges. A total of 15 
individuals have been extradited by Mexico to the U.S. on narcotics 
crimes, and 28 individuals have been found extraditable by Mexico but 
are pursuing legal appeals.

    Question. As a portion of the overall drug control budget, spending 
on interdiction and source country actions have declined precipitously 
since the peak. In your opinion, is this because the domestic threat is 
proportionally greater than it was then?

    Answer. Administration requests for spending on interdiction and 
source country actions have been closely paralleled by congressional 
appropriations in the past six years. This is reflective of the close 
consultation between the executive and legislative branches on national 
drug control policy. The National Drug Control Strategy calls for a 
balanced approach for reducing drug use and its destructive 
consequences. However, the balance among drug control strategies is not 
measured by their relative shares of the drug control budget. Recently, 
the Administration has placed special ephasis on demand reduction based 
on research showing that is the most cost-effective strategy for 
reducing drug use. The federal drug control strategy has produced some 
good results. Since 1985, past month use of illicit drugs has dropped 
by 43 percent. Since 1988, the number of casual cocaine users has been 
reduced by half.

    Question. Interdiction funding has been flat since 1992. If more 
interdiction resources were to be made available, do you think they 
could make a substantial difference? Or is the U.S. interdiction effort 
at the saturation point, where additional resources would do more to 
complicate existing efforts that provide any benefit?

    Answer. Interdiction funding has not been flat since 1992. Between 
Fiscal Year 1992 and Fiscal Year 1995, interdiction funding declined 
from $1.96 billion to $1.28 billion. After Fiscal Year 1995 budgets for 
interdiction funding increased to $1 .805 billion as requested in 
Fiscal Year 1999.
    The President's international drug control strategy and programs 
have been quite successful over the last two years. Source Zone 
programs contributed to a 40 percent reduction in coca cultivation in 
Peru from 1995 to 1997 and up to a 15 percent reduction in global 
potential cocaine production in 1997. In the Transit Zone, U.S. 
supported programs achieved record cocaine seizures (86 tons) in 1997. 
As a result of these programs, less cocaine is available today in the 
United States than two years ago.
    Despite these successes, we face significant source, transit, and 
arrival zone interdiction challenges. Traffickers continue to move 
significant quantities of illegal drugs into the United States using a 
great variety of routes and methods. Their use of fast boats and 
commercial maritime traffic continues to increase. The expansion of 
cultivation in Colombia offers both international drug control and 
national security challenges to the United States.
    Accomplishment of our national drug control goals and performance 
targets in the source and transit zone requires long term commitment of 
resources to support a unifying strategic vision. We can substantially 
reduce the availability of drugs in the United States over the next ten 
years. In the cocaine source countries, we currently enjoy proven 
programs supporting host governments with the political will to inflict 
long term damage to the illegal cocaine industry. We should continue to 
build on this source country success through bipartisan support of the 
resources needed to implement the President's National Drug Control 
Strategy.

    Question. There is continual debate about the volume and kind of 
support we provide Colombia to aid their actions in the [sic] their 
fight against narcotics traffickers. What do you feel would be the one 
most important item we could provide the Colombians that would make the 
biggest difference?

    Answer. There are no silver bullets to deal with the supply side of 
the drug problem because drug trafficking is a lucrative business, and 
it's worth the traffickers' efforts to work around any single 
initiative we could come up with. Only through a comprehensive, 
coordinated, balanced approach that includes eradication, interdiction, 
alternative development, successful investigations and prosecutions, 
precursor and essential chemical controls, asset forfeiture, 
extradition, and anti-money laundering and anti-corruption measures 
will we, working cooperatively with the Colombians and others in the 
region, be able to defeat the narcotraffickers and keep them from 
simply changing their methods to evade our counterdrug efforts.
    That being said, the new government of Colombia has just developed 
a comprehensive national drug policy as well as an evaluation of 
resource requirements to enable the military to become fully engaged in 
Colombian counterdrug efforts. The Pastrana Administration has said on 
several occasions that they would like the U.S. government to balance 
its counterdrug assistance because the current imbalance towards the 
police is causing interservice rivalry and impeding their ability to 
implement a truly coordinated joint counterdrug effort. Given the 
substantial support to the Colombian National Police in the Emergency 
Supplemental bill and the regular Fiscal Year 1999 INL budget, ONDCP 
believes that we should consult with our Country Team in Bogota and the 
Government of Colombia to prioritize the military counterdrug resource 
requirements in accordance with goals and objectives in their new 
national strategy and ours. This will enable us to focus our assistance 
on high-impact items, and will avoid the problem of having people in 
Washington define the Colombian counterdrug force structure and 
resource requirements.
                                 ______
                                 

                Questions Submitted to Dr. A. Rex Rivolo

    Question. What do you consider the most cost-effective use of the 
anti-drug dollar: domestic demand reduction activities or international 
programs to suppress or interdict supply? Isn't it much more difficult 
to interdict small amounts of drugs throughout the vast areas in which 
they are transited or sold than it is to suppress its production and 
interdict it in the relatively smaller areas where they are produced?

    Answer. Empirical evidence and basic economic theory clearly 
support the hypothesis that interdiction of illegal drug production and 
transportation nodes within the source nations is a very effective use 
of anti-drug dollars. This is particularly true in an environment where 
drug use incidence is rising, as it is today. Many demand-reduction 
programs, such as treatment, even if highly effective (which they are 
not) cannot effect incidence whereas interdiction efforts can. This 
alone argues in favor of interdiction programs during times of high 
incidence and in favor of demand reduction programs during times of low 
or declining incidence. It must be emphasized that compiled government 
and non-government data clearly show incidence rates rising for all 
drugs since 1993 and in the case of heroin, the rate is now at an all 
time high.
    Evidence supporting the hypothesis that source country interdiction 
can be highly cost-effective can be found in the records of the Drug 
Enforcement Administration, the Department of Health and Human 
Services, the Department of Defense drug testing program, and civilian 
drug testing programs. The evidence derived from these sources clearly 
shows that direct physical intervention at the source acts to create 
risk within the production and transportation infrastructure of the 
illegal drugs industry resulting in immediate and considerable benefits 
within the U.S. The first of these benefits is a lower purity of 
illegal drugs available on the streets. This results in fewer medical 
emergencies and associated deaths. A second benefit is significantly 
increased street prices. This acts to reduce both prevalence and 
consumption through economic forces thus further reducing the medical 
consequences. A third benefit is a significant depression of farm 
prices for the agricultural raw materials in the growing regions. The 
reduced agricultural prices serve to induce growers in those regions 
toward alternative development programs.
    This is not academic speculation based on the sophistry of the 
econometric models now popular in much of the anti-drug research 
community. All of these effects mentioned have been observed 
empirically. From mid-I 989 to the beginning of 1991, the aggressive 
interdiction efforts focused within Colombia and in the Caribbean 
resulted in a 50 percent reduction of street cocaine purity and an 
effective price increase of 100 percent. During this time, hospital 
emergency room visits linked to cocaine use decreased by 50 percent as 
did the number of deaths linked to the drug. At the same time both the 
military and civilian drug testing programs saw a systematic drop in 
the cocaine positive test rate of comparable magnitude. A second 
example began in early 1995, when the Peruvian government, with 
assistance from U.S. agencies, began a systematic attack on the illegal 
traffic flying between Peru and Colombia. Within 6 months of the start 
of the Peruvian interdiction policy, street cocaine purity dropped, 
street prices increased and prices for coca leaf in Peru's growing 
regions plummeted. The commensurate decreases in medical consequences 
and drug testing positive rates were also clearly observed across all 
communities in the U.S. In fact, these consequences were fully 
predicted well in advance of realization thus providing evidence that 
the mechanisms for the effectiveness of source interdiction are 
straightforward and well understood.
    It is essential to understand that for interdiction efforts to be 
successful they must be properly focused where the illegal drug 
industry is most vulnerable. Currently, this is in the growing and 
refining centers within Colombia. As a result of previous source county 
interdiction successes, both the cocaine industry and the budding 
Colombian heroin trade are concentrating in remote areas of Colombia 
making them more dependent on air transport. It is here that future 
interdiction efforts must be focused. Part of the source interdiction 
strategy must be to assess where and when the pressure must be applied. 
The effectiveness of the strategy comes from striking when and where 
the drugs are concentrated before they are dispersed to a large number 
of ``middle men'' in an ever-expanding geographic area.

    Question. According to the Office of National Drug control Policy 
figures, in 1987, 29 percent of the national drug control budget was 
allocated to demand reduction, 38 percent for law enforcement, and 33 
percent for international interdiction. By 1997, those priorities 
shifted so that 34 percent is for demand reduction, 53 percent for 
domestic law enforcement, and 13 percent for international programs and 
interdiction. In short, pro grams to suppress or interdict drug supply 
went from 33 percent of the overall budget to only 13 percent. In light 
of recent data that show an increase in drug use incidents since 1992-
93, do you think it is logical for us restore the balance in our 
strategy to greater emphasis on fighting drugs before they reach our 
shores?

    Answer. A balanced three-axes approach to U.S. drug policy 
encompassing demand reduction, law enforcement, and supply reduction 
programs is considered by most scholars and lay persons alike to be 
both prudent and optimal. However, this is not correct under all 
circumstances. During times when drug use incidence rates are high, or 
increasing, both law enforcement and supply control methods such as 
source country interdiction can have an advantage in that they both are 
capable of directly decreasing incidence through economic forces 
whereas treatment programs can not. During such times both supply 
reduction and law enforcement programs should be favored over demand 
reduction programs such as treatment. At times when incidence rates are 
low, or decreasing, treatment should be favored as any success in this 
mode has long-lasting consequences which eventually can reduce 
prevalence to a nominal zero. It must be noted however, that this 
statement assumes treatment programs have some modest level of 
effectiveness.
    It must be pointed out that in 1993, after a monotonic 10-year 
decline, the incidence rates for cocaine, heroin and marijuana all 
reversed and are now growing at almost record pace. The rate for heroin 
is now twice the previous all time record high. The reversal in 
incidence rates can be directly attributed to the reduced emphasis on 
interdiction efforts before the conditions warranted it. Since that 
time, the incidence rate for all three drugs has continued to grow as 
the emphasis on interdiction has continued to decrease. I believe it is 
imperative at this time to acknowledge our strategic error and move 
back toward the balanced approach until conditions in the U.S. drug 
situation warrant a change.
                                 ______
                                 

                Questions Submitted to Brian E. Sheridan

    Question. U.S. troops cannot remain in Panama beyond 1999 unless an 
agreement is reached with Panama to let them stay; efforts to negotiate 
such an agreement have foundered. What back-up plans has the 
Administration developed to substitute Howard Air Force Base in Panama 
as a platform for U.S. anti-drug activities in the region? Will these 
alternatives be more costly than operating from Panama or will these 
alternatives impact on the effectiveness of anti-drug operations? For 
example, aren't cost and effectiveness adversely affected if we have to 
build a new facility or if we have to use a site further away from the 
operating area, which is principally the Andean region?

    Answer. The Secretary of Defense, through the Commander-in-Chief of 
U.S. Southern Command, is pursuing a concept of alternate basing 
designated as Forward Operating Locations (FOL). These sites are 
expected to serve as staging locations for the variety of U.S. aircraft 
conducting counternarcotics missions. The characteristics of an FOL 
include the basic infrastructure required to operate aircraft, 
including an adequate parking ramp, runway, fueling and security. FOLs 
are not envisioned to replicate the substantial and robust capability 
we enjoyed in Panama. Among the sites under consideration are Ecuador, 
Peru, Honduras, Puerto Rico, Curacao, and Costa Rica. US Southern 
Command has already sent a site survey team to Manta, Ecuador to 
evaluate the conditions. The cost of any one of these sites or a 
combination of multiple sites cannot be fully determined until 
negotiations are complete with all prospective host nations. The 
military Services are developing the best estimate possible of the 
incremental costs required to sustain the Department's current level of 
counterdrug operations in FY99 and beyond. However, at this time, a 
rough order of magnitude for these costs is approximately $35M to $50M, 
which excludes any relocation costs. If more than one nation agrees to 
host an FOL, the cost will be substantially different than that of only 
a single FOL. The variables in this determination include FOL location, 
existing infrastructure and force protection requirements. Ideally, the 
location of any FOL will be as close to the intended target zone as 
possible. The closer the site, the greater the available on-station 
time, and hence reduced transit fuel costs associated with each 
mission. We are striving to obtain access to sites as close to the 
Andean region as possible that not only have the necessary 
infrastructure, but also the level of security and force protection we 
demand for our personnel.

    Question. In what ways could the U.S. military be more effective in 
its smuggling detection and monitoring role? Is the Defense Department 
adequately committed to carrying out this role as a priority mission?

    Answer. Secretary Cohen and the Department are absolutely committed 
to carrying out our role in this extremely important mission. At this 
time, a significant number of suspected narco-trafficking flights are 
detected and monitored. However, a lesser number are interdicted due to 
an insufficient number of available interdiction assets. In the 3rd 
quarter of FY98, 88% of the known air tracks were detected and 
monitored while only 12% were interdicted. Of the maritime events, 33% 
of the known tracks were detected and monitored in the 3rd quarter of 
FY98 while only 12% were interdicted. To improve on this record, 
additional end-game assets should be devoted to the areas identified as 
high transshipment zones.

    Question. When will the new ROTHR be on line to provide additional 
coverage to the Andean region?

    Answer. The ROTHR is scheduled to be on line in September 1999. 
Although preliminary reviews of the damage incurred after Hurricane 
Georges indicate a 1-2 week delay, a program manager assessment will be 
completed by the end of October to determine if the timeline will be 
further impacted.

    Question. What specific plans does the Administration have for 
controlling the illicit flights carrying drugs from producing zones in 
Colombia to the northern coast (which is the staging area for transit 
to the United States)?

    Answer. The Secretary has viewed with pleasure the reduction in 
illicit flights from the source zone nation of Peru. The success of the 
Peruvian ``airbridge denial'' program led to over a 40% reduction in 
the level of coca growth in Peru and a diminished price for coca leaf 
in the marketplace. The government of Colombia has discussed 
establishing a similar ``airbridge denial'' program, where narco-
traffickers' aircraft can be intercepted and brought down if they don't 
respond to queries by Colombian Air Force interceptors. While Colombian 
law allows for the use of force when dealing with aircraft, until 
recently their policy had been to not use force in these situations. 
However, at a recent meeting of officials from both governments, the 
Colombians expressed their willingness to explore a more aggressive 
``airbridge denial'' program. DoD is also working with the Colombian 
Air Force to improve their night operations and intercept capabilities.

    Question. What plans does the Administration have for replacement 
of anti-drug facilities in the Guaviare Region in the coca-producing 
zone of Colombia?

    Answer. Both DoD and DoS are working with the Colombian government 
to insure adequate counterdrug facilities are available after control 
of the area is appropriately restored.

    Question. There is a continual debate about the volume and kind of 
support we provide Colombia to aid their actions in their fight against 
narcotics traffickers. What do you feel would be the one most important 
item we could provide the Colombians that would make the biggest 
difference?

    Answer. The one area that would aid Colombia's battle against 
narco-traffickers would be to increase the mobility of the counterdrug 
forces to move quickly into areas where illicit crops are cultivated 
and narcotics are processed. This quick-strike capability would allow 
the Colombian forces to strike in a number of areas simultaneously and 
with little warning, dealing a serious blow to drug traffickers and 
their supporters.

    Question. The State Department--and INL in particular--has received 
a lot of criticism in the past about the speed in which equipment that 
has been authorized and purchased is delivered to the host country. Are 
there any recommendations that you would make to Congress to speed up 
or smooth out the current process?

    Answer. There are myriad programs in place to distribute equipment 
to foreign nations. I am hesitant to characterize the lack of 
responsiveness of any of these programs without first examining the 
details of the case. I do know that in the past, the distribution of 
equipment identified in a Section 506(a)(2) drawdown was delayed due to 
the host nation delaying the signing of an End Use Monitoring (EUM) 
agreement, as required. Generally, equipment identified in the Section 
506(a)(2) drawdown is issued from the U.S. government supply system and 
delivered to a freight forwarder under the employ of the receiving 
nation. Other equipment, such as aircraft stored in long term 
preservation status at Davis-Montham Air Force Base, require 
refurbishment to an operational status prior to delivery to the host 
nation. This refurbishment is occasionally a lengthy process. I 
reiterate that without specific case information, I am unable to 
address equipment delivery delays by any other Department within the 
Administration.

    Question. I understand that Blackhawk pilots that had been 
stationed in the Bahamas as part of OPBAT were some of the best 
prepared and most experienced pilots the United States had during 
Desert Storm, especially for night missions. Can you please highlight 
some other examples where the training and experience our armed forces 
receive because of their participation in counter-drug activities have 
enhanced their performance in other areas of their responsibility?

    Answer. The most notable area of training benefiting forces of the 
United States are in the Special Operations Forces area. 
Counternarcotics deployments are frequent in the drug producing and 
trafficking regions of Central and South America. Members of the 
diverse units that make up the U.S. Special Operations Command travel 
throughout the year for training deployments, instructing the 
counterdrug forces of the host nations in the skill sets that are most 
useful in detection of drug laboratories, patrolling techniques, 
riverine operations, and night operations. Some of the finest 
operational training our Special Operations Forces personnel receive is 
the type they derive as they deploy to the field to instruct others. 
Additionally, our intelligence support personnel gain valuable 
experience that is readily transferable to intelligence collection 
during situations of low intensity conflict.

                               <all>


</pre></body></html>
